<html>
<title> - U.S. COMMISSION ON OCEAN POLICY PRELIMINARY REPORT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                    U.S. COMMISSION ON OCEAN POLICY
                           PRELIMINARY REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2004

                               __________

                           Serial No. 108-57

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______



                 U.S. GOVERNMENT PRINTING OFFICE

93-362                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001





















                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY













                            C O N T E N T S

                              May 5, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    17

Prepared Statement by Representative Nick Smith, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    19

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Gil Gutknecht, Member, 
  Committee on Science, U.S. House of Representatives............   101

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    21

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    21

Statement by Representative Lynn C. Woolsey, Member, Committee on 
  Science, U.S. House of Representatives.........................    18

                               Witnesses

Admiral James D. Watkins, U.S. Navy (Retired); Chairman, U.S. 
  Commission on Ocean Policy
    Oral Statement...............................................    23
    Written Statement............................................    27
    Biography....................................................    66

Dr. Andrew R. Solow, Director, Marine Policy Center, Woods Hole 
  Oceanographic Institution
    Oral Statement...............................................    66
    Written Statement............................................    68
    Biography....................................................    69

Dr. Shirley A. Pomponi, Acting Managing Director, Harbor Branch 
  Oceanographic Institution
    Oral Statement...............................................    70
    Written Statement............................................    72

Dr. Leonard J. Pietrafesa, Professor and Director, Office of 
  External Affairs, College of Physical & Mathematical Sciences, 
  North Carolina State University
    Oral Statement...............................................    79
    Written Statement............................................    81
    Biography....................................................    87

Mr. Michael H. Freilich, Associate Dean, College of Oceanic and 
  Atmospheric Sciences, Oregon State University
    Oral Statement...............................................    89
    Written Statement............................................    91
    Biography....................................................    92
    Financial Disclosure.........................................    94

Discussion
  Top Priorities for Ocean Research and Development..............    95
  Ecosystem-Based Management Approach............................    97
  Public Awareness of Ocean Issues...............................    99
  Specific Follow-up Questions...................................   100

              Appendix: Answers to Post-Hearing Questions

Admiral James D. Watkins, U.S. Navy (Retired); Chairman, U.S. 
  Commission on Ocean Policy.....................................   104

Dr. Andrew R. Solow, Director, Marine Policy Center, Woods Hole 
  Oceanographic Institution......................................   108

Dr. Shirley A. Pomponi, Acting Managing Director, Harbor Branch 
  Oceanographic Institution......................................   109

Dr. Leonard J. Pietrafesa, Professor and Director, Office of 
  External Affairs, College of Physical & Mathematical Sciences, 
  North Carolina State University................................   113

Mr. Michael H. Freilich, Associate Dean, College of Oceanic and 
  Atmospheric Sciences, Oregon State University..................   116
















           U.S. COMMISSION ON OCEAN POLICY PRELIMINARY REPORT

                              ----------                              


                         WEDNESDAY, MAY 5, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    U.S. Commission on Ocean Policy

                           Preliminary Report

                         wednesday, may 5, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On May 5, 2004 at 10:00 a.m., the House Science Committee will hold 
a hearing on the key findings and recommendations of the Preliminary 
Report of the U.S. Commission on Ocean Policy. In response to pressures 
on ocean and coastal ecosystems from increased coastal development, 
over-fishing, pollution, and a confusing patchwork of federal and State 
legal authorities for ocean and coastal activities, Congress passed the 
Oceans Act of 2000. It required the President to establish a 
nonpartisan, diverse commission of experts in ocean policy and charged 
that commission to establish findings and develop recommendations for a 
new comprehensive ocean policy, including in research and development 
(R&D). The Report is the first comprehensive review of national ocean 
policy in more than 30 years.
    The Committee plans to explore the following overarching questions:

        1.  What are the current problems in our nation's ocean and 
        coastal ecosystems and why has federal policy been unable to 
        effectively deal with them?

        2.  What are the recommendations from the Report and should 
        they be implemented?

Witnesses:

Admiral James D. Watkins, USN (Ret.), Chairman, U.S. Commission on 
Ocean Policy. Admiral Watkins is President Emeritus of the Consortium 
for Oceanographic Research and Education, was formerly Chief of Naval 
Operations for the United States Navy, and was Secretary of Energy 
under President George H.W. Bush.

Dr. Andrew Solow, Director, Marine Policy Center, Woods Hole 
Oceanographic Institution. Dr. Solow was a member of the U.S. 
Commission on Ocean Policy Science Advisory Panel Governance Working 
Group. He will discuss the Report's recommendations to establish a 
National Ocean Council to coordinate federal efforts with respect to 
oceans.

Dr. Shirley A. Pomponi, Acting Managing Director, Harbor Branch 
Oceanographic Institution. Dr. Pomponi was a member of the U.S. 
Commission on Ocean Policy Science Advisory Panel Research, Education 
and Marine Operations Working Group. She will discuss the implications 
of the Report's recommendation for increased funding for ocean 
research.

Dr. Leonard J. Pietrafesa, Director of External Affairs, College of 
Physical and Mathematical Sciences, North Carolina State University. 
Dr. Pietrafesa is chair of the National Oceanic and Atmospheric 
Administration (NOAA) Science Advisory Board. He will discuss the 
Report's recommendations to strengthen NOAA.

Dr. Michael H. Freilich, Associate Dean, College of Oceanic and 
Atmospheric Sciences, Oregon State University. Dr. Freilich is a member 
of the National Research Council's Space Studies Board and chair of 
that Board's Committee on Earth Studies. He will discuss the Report's 
recommendations to transfer some programs from the National Aeronautics 
and Space Administration (NASA) to NOAA.

Background:

    The last comprehensive review of U.S. ocean policy took place more 
than 30 years ago when a governmental panel, the Stratton Commission 
(named for its chair, Julius Stratton), issued its report Our Nation 
and the Sea. This report led to the creation of the National Oceanic 
and Atmospheric Administration (NOAA) by executive order in 1970.
    Since that time, more than 37 million people, 19 million homes, and 
countless businesses have been added to coastal areas. The country is 
more dependent on marine transportation of goods, and coastal 
recreation and tourism have become more significant elements of the 
national economy. These increased and sometimes competing uses of the 
ocean and coasts have caused dramatic declines in fish populations and 
increased pollution. In addition, a confusing patchwork of federal and 
State legal authorities for ocean and coastal activities has evolved to 
attempt to deal with these problems.
    Four years ago, Congress passed the Oceans Act of 2000, 
establishing the U.S. Commission on Ocean Policy. The Commission, 
consisting of 16 members from diverse scientific and political 
backgrounds, was charged to establish findings and develop 
recommendations for a new comprehensive national ocean policy. (A list 
of the members of the Commission is provided in Appendix A.) The 
Preliminary Report of the Commission (referred to as the Report for 
purposes of this document) was delivered to the Governors of the all 
states and U.S. territories on April 20, 2004. The Governors and the 
general public can provide comments on the Report through May 21, 2004 
and in the summer of 2004 the Commission will release its final report. 
The law requires the President to submit a formal response to the 
Commission's recommendations 90 days after the final report is 
released. The Administration has remained silent on the preliminary 
report, pending the President's formal response.

Key Recommendations of the Report:

    The Executive Summary of the Report is provided in Appendix B. The 
complete report is available at www.oceancommission.gov.
Ocean and Coastal Research Funding
    Problem: Scientific understanding of the oceans is still fairly 
limited. While it is difficult to determine the precise amount of money 
the Federal Government has invested in ocean research, because it spans 
so many fields and agencies, spending on ocean research appears to have 
been virtually flat (even without adjusting for inflation) for the past 
two decades or so. The Report notes that in the 1960s and 1970s ocean 
research represented seven percent of the federal research and 
development budget; today it represents only 3.5 percent because other 
fields have increased at a faster rate.
    Report Recommendation: The Report recommends gradually doubling the 
level of federal funding for ocean and coastal research so that it 
would increase from the FY 2004 level of $650 million to $1.3 billion 
in FY 2009. (The Report estimates that if all of its recommendations 
were implemented (not just those related to R&D), federal spending on 
oceans would increase by $1.3 billion in the first year, and by $3.2 
billion by the third year, and then by inflation after that.) The 
Report recommends the research spending increases be used for such 
purposes as expanding NOAA's Sea Grant program and expanding ocean 
exploration efforts. The Report recommends that funding for ocean 
exploration increase from the current level of $13 million to $110 
million. The Report recommends financing all of the increases by 
tapping the royalties the Federal Government receives from off-shore 
oil and gas drilling. The Report calls for those funds to be placed in 
a ``Trust Fund'' for ocean programs, but the Report is unclear about 
whether spending from the Trust Fund would be mandatory or subject to 
annual appropriations.
    Issues: A major question is whether Congress should allocate as 
much money as the Report recommends and whether Congress should 
establish a Trust Fund for these activities. A related question is 
whether a Trust Fund would be subject to appropriations (such as the 
Land and Water Conservation Fund) or should guarantee a mandatory 
spending level (such as the Highway Trust Fund). Also, the Report does 
not provide any guidance as to which areas of research should be 
priorities, leaving that question to the National Ocean Council that it 
recommends creating (see below).
Earth Observing Systems
    Problem: Both NOAA and NASA operate civilian, space-based Earth 
environmental observing programs. NOAA's program focuses on sustained 
operational observations for weather and climate purposes, while NASA's 
program is meant to advance research and sensor development. NASA's 
missions are generally short-lived and NASA often plans its research 
missions without considering whether its satellites could also 
contribute data to meet the longer-term climate and weather interests 
of NOAA. When NASA does develop a sensor of interest to NOAA, it often 
takes a long time to transfer the technology to NOAA.
    Report Recommendations: The Report recommends that operation of all 
civilian, space-based Earth environmental observing systems be managed 
by NOAA to provide smoother transition of research to operations. NASA 
would retain the research, engineering, and development roles for the 
research programs, but NOAA would be responsible for operations. The 
next generation of polar-weather satellites at NOAA, known as NPOESS, 
is cited as a model attempt for this idea.
    Issues: The Report is somewhat unclear in its delineation of new 
roles for NASA and NOAA. Regardless of the details, it is unclear 
whether transferring money and staff between agencies is the most 
efficient way to increase coordination for Earth observation systems, 
especially since the Report assumes that some satellite 
responsibilities would continue to be divided between the two agencies. 
Transferring people between agencies is complicated, and often Congress 
does not agree to move all funding along with a program. An additional 
complicating factor is the President's proposed new vision for NASA 
which uses cuts in NASA's Earth Science programs to fund the mission to 
land an American on the Moon.
Ecosystem-based Management
    Problem: Currently, each ocean and coastal problem tends to be 
addressed in isolation, for example increasing populations of a single 
fish species, or improving water quality for a particular purpose, such 
as swimming. This single-issue focus sometimes results in unintended 
consequences. For example, when government agencies began restoring the 
rockfish population in the Chesapeake Bay, the number of rockfish 
became so high that the number of juvenile crabs--which rockfish eat--
began to decrease, causing problems for the crab industry.
    Report Recommendation: The Report recommends that U.S. ocean and 
coastal resources should be managed using ``ecosystem-based 
management.'' The goal of ecosystem-based management would be to manage 
an ecosystem as a whole, rather than dividing a problem along the lines 
of political or agency jurisdictions. To obtain the data needed to 
inform an ecosystem-based approach to management, the Report recommends 
(among other suggestions) creating the Integrated Ocean Observing 
System, which would use satellites, planes, buoys, ships and other 
means to collect data. Federal agencies have already put together a 
plan for such a system, which would draw, in part, on existing 
capabilities. The Report recommends making implementation of the system 
a priority, and estimates it would cost $290 million in the first year, 
rising to $650 million annually by the fifth year. The Report 
recommends that NOAA operate the System, which would be split among a 
variety of agencies under current plans.
    Issues: The Report does not lay out how to implement ecosystem-
based management in any detail. However, any approach is likely to 
require much better understanding of the oceans (and their interactions 
with land and the atmosphere, and of ecology) and much more data about 
them than is currently available. As a result, the success of such an 
approach will depend in large measure on how much money is invested in 
ocean science and observation.
Government Organization: National Ocean Council
    Problem: According to the Report, more than 60 Congressional 
committees and subcommittees oversee 20 federal agencies and permanent 
commissions that are charged with implementing at least 140 federal 
ocean-related statutes. There is no clearly articulated national system 
of ocean and coastal governance.
    Report Recommendation: The Report recommends that Congress 
establish a National Ocean Council in the Executive Office of the 
President, composed of all the cabinet secretaries and independent 
agency directors with ocean-related responsibilities and chaired by a 
Special Assistant to the President. The Report also recommends that 
Congress establish a Presidential Council of Advisors and that the 
Special Assistant would also run a new an Office on Ocean Policy to 
provide staff support to these entities. The Report describes this 
reorganization as an initial step in a long-term process that should 
culminate in the creation of a single Department that would bring 
together NOAA, the Environmental Protection Agency, the Interior 
Department and other related natural resource agencies and programs.
    Issues: White House entities have a mixed record of being able to 
foster interagency cooperation. Moreover, existing White House offices 
already try to coordinate some ocean issues across agencies. For 
example, the Council on Environmental Quality deals with ocean issues 
from an environmental perspective, and the Office of Science and 
Technology Policy deals with ocean science across agencies. In 
addition, in 1997, Congress created the National Oceanic Partnership 
Program (NOPP), headed by a National Ocean Research Leadership Council, 
to coordinate national ocean research and education policy. The Council 
is made up of the heads of 14 federal agencies with ocean research 
responsibilities. The Report argues that NOPP has not been successful 
because it lacks a mechanism to require agency participation.
Government Organization: NOAA
    Problem: NOAA was established by Executive Order in 1970. Since 
that time new responsibilities have been added to the agency on an 
issue-by-issue basis, resulting in a complex organization where 
communication across office lines is difficult. Also, many other 
agencies perform work related to ocean and coastal issues, and there is 
not always a clear lead for civilian ocean issues.
    Report Recommendation: The Report recommends ``strengthening NOAA'' 
by clearly making it the lead agency for ocean issues; by giving it 
additional responsibilities, such as managing the Integrated Ocean 
Observing System; and by ``restructuring'' the agency ``consistent with 
the principles of ecosystem-based management.'' The Report recommends 
gradually moving all federal civilian ocean and coastal activities into 
NOAA. The Report also recommends that Congress pass an organic act for 
NOAA to give the agency clear authority and organizational lines.
    Issues: Congress needs to decide what should be in a NOAA organic 
act and to what extent it should make statutory decisions about NOAA's 
organizational structure. Over the long-term, moving all ocean and 
coastal programs into NOAA would be a massive undertaking that could 
cause dislocations in many agencies without necessarily improving 
coordination or oversight.
Education
    Problem: Currently each ocean-related agency performs its own 
education and outreach activities on a program-by-program basis. There 
is no coordinated, comprehensive ocean education and outreach program 
or plan.
    Report Recommendation: The Report recommends that the new National 
Ocean Council establish a national ocean education office to strengthen 
ocean education and coordinate federal efforts. Education programs 
should be addressed to students from kindergarten through graduate 
school and to the general public.
    Issues: The recommendation assumes that the Council will be created 
and that money will be available to augment existing programs. (The 
Report does not consider using any existing White House office with 
science education responsibilities for this purpose.) The Report 
recommends that the Council create the program, but that it be funded 
through NOAA, which would then distribute funds to other agencies. 
Other agencies might object to receiving funding through NOAA.

Questions for Witnesses:

Admiral James D. Watkins, USN (Ret.), Chairman, U.S. Commission on 
        Ocean Policy

        1.  Please outline the key findings and recommendations in the 
        Preliminary Report of the U.S. Commission on Ocean Policy.
Dr. Andrew Solow, Director Marine Policy Center, Woods Hole 
        Oceanographic Institution

        1.  What are the major deficiencies in the way ocean and 
        coastal policy is currently organized at the federal level?

        2.  Do you agree with the U.S. Commission on Ocean Policy 
        recommendation to create a National Ocean Council to address 
        theses deficiencies? If not, why not?

        3.  Are there alternative changes to the federal structure with 
        respect to ocean policy that you would recommend?

Dr. Shirley A. Pomponi, Acting Managing Director, Harbor Branch 
        Oceanographic Institution

        1.  What are the major problems and issues with respect to 
        national efforts in ocean and coastal research? Did the U.S. 
        Commission on Ocean Policy Preliminary Report adequately 
        address the problems and issues?

        2.  Please provide examples of how ecosystem-based management, 
        as recommended by the U.S. Commission on Ocean Policy, would 
        change ocean and coastal management from current methods. What 
        research is needed to make ecosystem-based management feasible?

        3  If there is limited new money available from the Federal and 
        State governments, what are the top three recommendations 
        regarding ocean and coastal science and research you believe 
        should be implemented without delay?

Dr. Leonard J. Pietrafesa, Director of External Affairs, College of 
        Physical and Mathematical Sciences, North Carolina State 
        University

        1.  What are the current strengths and weaknesses of ocean and 
        coastal programs at the National Oceanic and Atmospheric 
        Administration?

        2.  Do you agree with the U.S. Commission on Ocean Policy 
        recommendations with respect to NOAA? If not, why not?

        3.  Are there limitations to NOAA's ability to carry out the 
        new responsibilities the U.S. Commission on Ocean Policy 
        recommends? If so, please explain those limitations.

        4.  Would it be helpful for NOAA to have an organic act? Why? 
        What would be most important to include in such legislation?

        5.  If there is limited new money available from the Federal 
        Government, what are the top three recommendations regarding 
        NOAA you believe should be implemented without delay?

Dr. Michael H. Freilich, Associate Dean, College of Oceanic and 
        Atmospheric Sciences, Oregon State University

        1.  Do you agree with the U.S. Commission on Ocean Policy's 
        recommendation to transfer some of NASA's Earth observing 
        programs to NOAA? Why or why not?

        2.  Are there other ways to strengthen the interaction between 
        NASA's and NOAA's Earth observing programs?

        3.  Is NOAA currently doing a good job providing researchers 
        data from Earth observing systems? Are data management needs 
        being adequately considered in the planning for new observing 
        systems?

        4.  If there is limited new money available from the Federal 
        and State governments, what are the top three recommendations 
        regarding observing systems you believe should be implemented 
        without delay?


        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone here today, but I want to give a 
special welcome to Admiral Watkins and his team. Our nation has 
turned repeatedly to Admiral Watkins for creativity and 
leadership on a wide range of issues, and once again, he has 
risen to the occasion with energy, open-mindedness, 
thoughtfulness, and the most comprehensive approach possible. 
Admiral, we are in your debt.
    Admiral Watkins. Thank you, Mr. Chairman.
    Chairman Boehlert. The Ocean Commission had before it a 
Herculean task, or perhaps our reference should be to Poseidon. 
The oceans not only cover most of the Earth's surface, they 
serve us as playground and food source, and sadly, sometimes as 
dumping ground. They help determine our climate and our 
security. We are land dwelling creatures, but we are utterly 
dependent on the oceans, and more and more of our nation's 
citizens live near a coastline.
    Yet while the oceans lap daily at our shores, they only 
intermittently lap at our consciousness. We still take the 
oceans for granted, even as they are increasingly troubled by 
over-development, over-fishing, climate change, and other human 
insults. Worse still, perhaps, we don't even know all that much 
about the oceans, certainly not as much as we would like to 
properly identify, diagnose, and remedy problems.
    The Ocean Commission report should bring focused attention 
to this predicament for the first time in decades. I don't 
think anyone can disagree with the basic thrust of this report 
that more needs to be done to understand, manage, and take 
advantage of the world's oceans, and doing so will take new 
thinking and new money.
    I have to say that message is especially timely as the 
Congress, and this committee in particular, review proposals to 
embark on a new space exploration mission. I support that 
effort, but as I have said before, I think it is more important 
to know more about our own planet than it is to know about 
Mars. Happily, I don't think we have to make an either/or 
choice, but we do have to set priorities, and I think that it 
is more important to study the water that is still visible and 
that we rely on.
    Setting and implementing those priorities is going to take 
some work, and there is only so much the Commission can do in 
that regard. I am reminded of a famous exchange in 
Shakespeare's ``Henry IV'' in which Glendower brags, ``I can 
call spirits from the vasty deep.'' Hotspur replies, ``So can 
any man. But do they come when you do call them?'' The 
Commission can call for changes, but it can't bring them into 
being. That task belongs, in the first instance, to the 
Congress.
    That is why we are having today's hearing and why we wanted 
to hear from a variety of experts. We have plenty of issues to 
raise with our panel, because while the Commission's general 
thrust is unarguable, the specific recommendations raise a lot 
of questions.
    Let me just list a few of them that I hope we can discuss 
today.
    The first, and most obvious, concerns money. Can the Nation 
afford the increases in ocean R&D being suggested, given other 
demands, even within science? Regardless of how much money is 
available, how should we set priorities for spending? That is a 
key question and one in which the report offers little 
guidance. And does it make sense to set up a ``trust fund'' 
from oil royalties, giving the relatively unhappy experience 
with the Land and Water Conservation Fund and the unlikelihood 
of any new mandatory spending?
    We also have questions related to government organization. 
Do we need a new structure for oceans in the White House? How 
would such an entity interact with organizations, like the 
Office of Science and Technology Policy and the Council on 
Environmental Quality, which must deal with oceans as part of 
their own crosscutting responsibilities?
    Another set of questions. Should responsibilities that now 
reside with other agencies be transferred into NOAA? I have to 
say that I am always skeptical of such moves, which need to 
have a big payoff to make up for the disruption that they 
cause.
    And finally, I am fully behind the Commission's suggestion 
that Congress write an organic act for NOAA, and, indeed, the 
staff has been working on such a bill for months with Chairman 
Ehlers. I would like some guidance today on precisely what such 
a bill should and should not contain. I would hope that we 
could have hearings on an organic act in early summer.
    So we have our work cut out for us, and that is nothing 
new, thanks to the hard work the Commission has already put in. 
I look forward to having a conversation with all of our 
witnesses today, so that we can get some specific guidance on 
how to turn the Commission's exhortations into responsible 
public policy.
    [The prepared statement of Mr. Boehlert follows:]
          Prepared Statement of Chairman Sherwood L. Boehlert
    I want to welcome everyone here today, but I want to give a special 
welcome to Admiral Watkins and his team. Our nation has turned 
repeatedly to Admiral Watkins for creativity and leadership on a wide 
range of issues, and once again, he has risen to the occasion with 
energy, open-mindedness, thoughtfulness and the most comprehensive 
approach possible. Admiral, we are in your debt.
    The Ocean Commission had before it a Herculean task--or perhaps our 
reference should be to Poseidon. The oceans not only cover most of the 
Earth's surface, they serve us as playground and food source and, 
sadly, sometimes as dumping ground; they help determine our climate and 
our security. We are land-dwelling creatures, but we are utterly 
dependent on the oceans, and more and more of our nation's citizens 
live near a coastline.
    Yet while the oceans lap daily at our shores, they only 
intermittently lap at our consciousness. We still take the oceans for 
granted, even as they are increasingly troubled by over-development, 
over-fishing, climate change, and other human insults. Worse still, 
perhaps, we don't even know all that much about the oceans--certainly 
not as much as we'd like to properly identify, diagnose and remedy 
problems.
    The Ocean Commission report should bring focused attention to this 
predicament for the first time in decades. I don't think anyone can 
disagree with the basic thrust of this report that more needs to be 
done to understand, manage and take advantage of the world's oceans, 
and doing so will take new thinking and new money.
    I have to say that message is especially timely as the Congress, 
and this Committee in particular, reviews proposals to embark on a new 
space exploration mission. I support that effort, but as I've said 
before, I think it's more important to know more about our own planet 
than it is to know about Mars. Happily, I don't think we have to make 
an either/or choice, but we do have to set priorities, and I think that 
it's more important to study the water that's still visible and that we 
rely on.
    Setting and implementing those priorities is going to take some 
work. And there's only so much the Commission can do in that regard. 
I'm reminded of a famous exchange in Shakespeare's Henry IV in which 
Glendower brags. ``I can call spirits from the vastly deep.'' Hotspur 
replies, ``So can any man. But do they come when you do call them?'' 
The Commission can call for changes, but it can't bring them into 
being. That task belongs, in the first instance, to the Congress.
    That's why we're having today's hearing, and why we wanted to hear 
from a variety of experts. We have plenty of issues to raise with our 
panel because, while the Commission's general thrust is inarguable, the 
specific recommendations raise a lot of questions.
    Let me just list a few of them that I hope we can discuss today.
    The first and most obvious concerns money. Can the Nation afford 
the increases in ocean R&D being suggested, given other demands, even 
within science. Regardless of how much money is available, how should 
we set priorities for spending. That's a key question and one on which 
the report offers little guidance. And does it make sense to set up a 
``trust fund'' from oil royalties given the relatively unhappy 
experience with the Land and Water Conservation Fund and the 
unlikelihood of any new mandatory spending?
    We also have questions related to government organization. Do we 
need a new structure for oceans in the White House? How would such an 
entity interact with organizations like the Office of Science and 
Technology Policy and the Council on Environmental Quality, which must 
deal with oceans as part of their own cross-cutting responsibilities?
    Another set of questions. Should responsibilities that now reside 
with other agencies be transferred into NOAA (the National Oceanic and 
Atmospheric Administration)? I have to say that I am always skeptical 
of such moves, which need to have a big payoff to make up for the 
disruption they cause.
    And, finally, I am fully behind the Commission suggestion that 
Congress write an organic act for NOAA, and, indeed, the staff has been 
working on such a bill for months with Chairman Ehlers. I'd like some 
guidance today on precisely what such a bill should and should not 
contain. I would hope that we could have hearings on an Organic Act in 
June or July.
    So we have our work cut out for us, thanks to the hard work the 
Commission has already put in. I look forward to having a conversation 
with all our witnesses today so that we can get some specific guidance 
on how to turn the Commission's exhortations into policy.

    Chairman Boehlert. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I want to thank the witnesses for coming here today to 
share your expertise with us. Thank you very much. And as 
usual, Mr. Chairman, I expect this will be one of your open, 
honest, good science hearings, the kind that we just so covet 
around here, so thank you for having it.
    As you know, I represent the 6th Congressional District of 
California, just north of the Golden Gate Bridge, Marin and 
Sonoma Counties, and my District encompasses the entire 
coastline of Marin and Sonoma Counties, most of the north shore 
of the San Francisco Bay. Historically, fishing has always been 
an important part of our economy, but in recent decades, it has 
dwindled to near disappearance.
    San Francisco Bay once supported a heron rookery and was 
famed for its wild oysters, and both are completely gone. No 
longer is the bay-front city of Sausalito home to a fishing 
fleet and the commercial fishing fleet of Bodega Bay is just 
actually a remnant of past days. Once, the Russian River, which 
empties into the Pacific Ocean, supported a world-class 
Steelhead run and a large population of Coho and Chinook 
salmon. Now all three species are listed as endangered.
    These tragic depletions and disappearance of our fisheries 
are symptomatic of many things: over-fishing, inland habitat 
destruction, climatic changes, coastal development, all of 
which are addressed by the Ocean Commission's report, and all 
of which we must deal with seriously.
    On a more positive note, however, I would like to mention 
that there are many efforts going on in my District to both 
understand the marine issues to protect our fisheries and to 
restore them. The Bodega Marine Lab is at the forefront of many 
areas of marine research, including the effects of currents on 
sea life. The San Francisco Estuarine Reserve is developing 
best practices for restoration of our baylands. The Marine 
Mammal Center is researching diseases and places that affect 
marine mammals. The Fairlong's National Marine Sanctuary and 
the Cordell Bank National Marine Sanctuary are setting aquatic 
populations on the continental shelf. And the Russian River 
Watershed Council and the Gualala River Watershed Council are 
preparing science-based watershed management plans. All of 
these efforts are so important, and all of them need and 
deserve federal support, not just in my area, but as a model 
for the Nation.
    Finally, it is important that we do no more harm to our 
marine resources, including our sparkling beaches. The Oil 
Exploration Moratorium off our California coast needs to be 
extended forever. The oceans report should be the wake-up call 
that we need to do things differently. Instead of drilling 
every last drop from the most fragile places on this planet, we 
need to make energy conservation a national priority. And we 
could do that by raising CAFE standards first and then 
husbanding our amazing technological knowledge to begin the 
necessary transition to clean, renewable energy.
    Our waters can be blue and productive, Mr. Chairman, our 
technology green and job creating. I look forward to hearing 
from all of you as today's witnesses, because you will be able 
to tell us the best ways to ensure that we leave our oceans in 
good shape for generations to come.
    Thank you very much.
    Chairman Boehlert. Thank you very much, Ms. Woolsey.
    Without objection, all Members shall have the opportunity 
to insert any opening statements they wish to have in the 
record at this juncture.
    [The prepared statement of Mr. Smith follows:]
            Prepared Statement of Representative Nick Smith
    I would like to thank Chairman Boehlert and Ranking Member Gordon 
for holding this important hearing to examine the key findings and 
recommendations of the Preliminary Report of the U.S. Commission on 
Ocean Policy. I would also like to thank the distinguished witnesses 
for joining us here today.
    While I myself do not represent a district that borders an ocean, 
the Great Lakes are a very important symbol and resource for my home 
State of Michigan. Also, as the Chairman of the Research Subcommittee, 
my Subcommittee maintains oversight over the National Science 
Foundation (NSF) which, significantly funds the Directorate of 
Geosciences for its subdivision, the Division of Ocean Sciences (OCE). 
The OCE supports basic research and education to further understanding 
of all aspects of the global oceans and their interactions with the 
Earth and the atmosphere. OCE also supports the operation, acquisition, 
construction, and conversion of major shared-use oceanographic 
facilities needed to carry out oceanographic-related research programs.
    Coincidentally, we're having a hearing in the International 
Relations committee on water shortages throughout the world. Lack of 
clean water is perhaps the world's largest humanitarian problem. Three 
billion people a year suffer from a lack of clean water and over 6,000 
of them die every day.
    Conditions in much of the world are expected to worsen in the years 
to come. The Central Intelligence Agency (CIA) reports that nearly half 
of the world's population will live in water-stressed countries by 
2015. This has led the United Nations General Assembly and the World 
Summit on Sustainable Development to call for increasing international 
cooperation to address these problems.
    A widely used rule of thumb is that a population is considered to 
be in a state of ``water stress'' if the average annual per capita 
availability of water is below 1,000 cubic meters. Israel, which has 
the most advanced water infrastructure and water management 
capabilities in the region, has an average annual availability of only 
some 250-300 cubic meters per capita. Jordan, at some 170-200 cubic 
meters per capita, and the Palestinians in West Bank and Gaza, at some 
70-90 cubic meters per capita, are under even greater water stress. By 
comparison, average annual water availability in the United States is 
on the order of 7,000 cubic meters per capita.
    The hope is that desperation for scarce water will lead to greater 
cooperation and agreement among Israel, Jordan, and the Palestinians, 
as well as in other countries facing water problems. Michigan is 
blessed with having one-sixth of the entire world's supply of fresh 
water. But we see water supply problems and even rationing in the 
western United States, especially for food production. We need to 
determine and implement ways to increase the supply of water and to 
improve the distribution, utilization, and management of current and 
future water supplies.
    While it is agreed upon that our oceans and our coasts are in 
serious trouble, there remains an ability to reverse the distress on 
our oceans that have taken place for so long. On the other hand, I must 
express my concern with a more troubling problem--that is the $500 
billion debt we are facing and the unfortunate fact that we are now 
adding more new debt to our books every year. We need to re-impose 
discretionary spending caps which expired after 2002. We must cut out 
waste and abuse. And we need to make hard decisions to prioritize 
programs, reduce spending on some and eliminate others. So I think the 
question must be: what produces the best and most cost effective 
scientific research?
    Again, I would like to thank the Chairman and Ranking Member for 
holding this hearing that allowed Congress to examine and question the 
Preliminary Report of the U.S. Commission on Ocean Policy.

    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    I am pleased that we are here today to discuss the U.S. Commission 
on Ocean Policy's Preliminary Report. As Chairman of the Environment, 
Technology and Standards Subcommittee of the Science Committee, I 
oversee much of the National Oceanic and Atmospheric Administration 
(known as NOAA). I, along with many others, have been anxiously 
awaiting release of the Commission's recommendations so Congress can 
help update and improve our nation's ocean policy.
    I must commend Admiral Watkins and the other commissioners for all 
their hard work, effort, and tenacity. Their charge was vast and 
difficult, and they performed it admirably. They have given Congress 
and the Administration the foundation by which we may improve the 
health and management of our coasts, oceans and the Great Lakes.
    For example, the Commission recommends that Congress pass an 
organic act for NOAA. I strongly agree. I believe it is critical for 
NOAA's mission to be clearly defined and its internal structure 
strengthened so it can better fulfill its role in observing, managing, 
and protecting our nation's coastal and ocean resources. My 
subcommittee staff and I spent many hours working on this bill last 
year, and I look forward to working with my colleagues in a bipartisan 
fashion to pass this bill into law this year. This will not be an easy 
task, but it is so important to our environment, our economy, and our 
children's and grandchildren's future, that we must succeed.
    I thank the Commission for advocating increased funding for ocean 
research and focusing on science as the foundation for ocean management 
decisions. However, I am concerned that the Commission did not clearly 
specify which scientific issues and programs should be our highest 
priorities. I hope we can discuss this recommendation in more detail at 
today's hearing, because in the current budget climate I think it will 
be extremely difficult to find the $4 billion in new money for the 
oceans recommended by the Commission. I hope we can engage in a healthy 
discussion about which research areas require the most immediate 
attention.
    I am enthusiastic and optimistic that we can all work together to 
develop a strong national ocean policy that protects this resource and 
our environment for generations to come. I look forward to hearing from 
our witnesses this morning and engaging in a thoughtful discussion 
about the recommendations from the U.S. Commission on Ocean Policy.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the key findings and recommendations of the 
Preliminary Report of the U.S. Commission on Ocean Policy. Under the 
Oceans Act of 2000, Congress initiated a major review of ocean policies 
in this nation and took action to improve our understanding of ocean 
systems and the ocean environment as a whole. As the ranking member of 
the Water Resources and Environment Subcommittee, I realize the 
importance of protecting our ocean, waterways, and coasts and the 
tremendous benefits they offer all Americans. Our oceans provide us 
with jobs, food, recreational as well as educational opportunities, 
medicine, and transportation.
    We need to ensure that we have a coordinated policy to deal with 
the pressures our oceans and coastal areas face. Our last effort to 
update our national policies on oceans was in 1969 under the Commission 
on Marine Science, Engineering, and Resources--known as the Stratton 
Commission. While many of the Commission's recommendations have been 
implemented, it has been far too long since we last updated our ocean 
policies.
    State and local jurisdictions have enacted numerous laws and 
policies to deal with the environmental problems that have occurred in 
our ocean and coastal communities. This has resulted in overlapping and 
conflicting rules between the federal and State levels. The 
recommendations put forth by this Commission will help to alleviate 
many of these problems by bringing ocean policy into the 21st Century 
by creating new coordinated and comprehensive policies.
    The report strongly encourages ecosystem-based management, rather 
than species-by-species or problem-by-problem management. I am 
interested to know if our students in the ocean sciences are being 
trained in ecosystem management. Further, federal research devoted to 
oceans has dropped from seven percent to 3.5 percent as noted in the 
report. However, many of the national security issues that drove 
oceanographic research have disappeared with the ending of the Cold 
War. I am interested to learn more about the Commission's reasoning for 
doubling ocean research now in such tight budgetary times.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman. I would like to commend Chairman Boehlert 
for calling this very important hearing on the U.S. Commission on Ocean 
Policy Preliminary Report.
    On June 15, 2001, President George W. Bush announced his intent to 
appoint the 16 members of the new Commission on Ocean Policy, based on 
a process that included nominations by the Congress and appointment by 
the President.
    Oceans play a very significant part in all our planet's survival. 
Many are unaware that the oceans control the weather. Few would believe 
that significantly more oxygen is generated to Earth's precious 
atmosphere by oceanic photosynthesis than by all the Earth's 
terrestrial plants
    combined. Yet, today, the oceans are in serious danger from 
improper development, overuse, and pollution. Most of the world's 17 
major ocean fisheries are in serious decline. Fragile coastal habitats 
are disappearing at an alarming rate, and coral ecosystems are 
experiencing unprecedented deterioration. These facts are a sad 
testimonial to the very low importance the oceans have among the people 
of the world.
    Our challenge today is to achieve an increased public perception 
and awareness of the tremendous importance and value that the oceans 
and aquatic resources represent for all people.
    I look forward to the testimony of our distinguished witnesses 
today and I yield back my time.

    Chairman Boehlert. And now our panel, a panel of very 
distinguished Americans. And let me, first of all, thank you 
all for serving as resources to this committee. This is a 
dialogue with some interesting people, and we are going to 
learn from what we hear.
    Our first witness is Admiral James D. Watkins, the Chairman 
of the U.S. Commission on Ocean Policy. Admiral Watkins is also 
President Emeritus of the Consortium for Oceanographic Research 
and Education. He was formerly Chief of Naval Operations for 
the United States Navy, and was Secretary of Energy under 
President George Herbert Walker Bush. Admiral Watkins. Dr. 
Andrew Solow is the Director of the Marine Policy Center at 
Woods Hole Oceanographic Institution. That is absolutely 
beautiful up there. What a deal you have. Dr. Solow is a member 
of the U.S. Commission on Ocean Policy Science Advisory Panel 
Governance Working Group. Dr. Shirley A. Pomponi is the Acting 
Managing Director of the Harbor Branch Oceanographic 
Institution. Dr. Pomponi was a member of the U.S. Commission on 
Ocean Policy Science Advisory Panel Research, Education, and 
Marine Operations Working Group.
    For the purpose of an introduction, the Chair now 
recognizes our distinguished colleague, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I am very pleased to 
introduce Dr. Leonard Pietrafesa. Dr. Pietrafesa is a 
distinguished American, but even more importantly, is a 
distinguished citizen of North Carolina, of Wade County, of the 
North Hills neighborhood, of Raleigh Creek 617, which votes at 
the fire station on Six Forks Road. I have represented Dr. 
Pietrafesa in Congress since January of last year. Before that, 
I represented him in the State Senate, and before that, in the 
State House. I am not sure exactly which house on Pitt Street 
Dr. Pietrafesa lives in, but I am sure I was in his front yard 
while banging one of my campaign signs into the ground.
    Mr. Chairman, I think all of that alone is sufficient for 
this committee to treat Dr. Pietrafesa's views, opinions with 
great defers and respect on ocean policy, or on any other 
topic.
    Chairman Boehlert. Well, thank you very much.
    Mr. Miller. But there is actually more.
    Chairman Boehlert. Well, the sign gets bigger every time, 
doesn't it?
    Mr. Miller. But Dr. Pietrafesa is, in fact, a very 
distinguished expert on this topic as well. He is a--he has a 
Bachelor's degree from Fairfield University in physics and 
math, a Masters from Chicago in fluid physics, a Ph.D. from the 
University of Washington in fluid physics. He is now the 
Director of the Office of External Affairs in the College of 
Physical and Mathematical Sciences and a professor at North 
Carolina State University. He has been the author and co-author 
of 155 peer-reviewed publications on the topics of oceanography 
and meteorology and estuary and climate dynamic impacts. He 
also serves as Chair of the Board on Oceans and Atmosphere of 
the National Association of State Universities and Land Grant 
Colleges. He is the Chair of the Council on Ocean Affairs and 
is a member of the Board of Trustees of the University--
Corporation for Atmospheric Research. He also serves as Chair 
of the National Oceanic and Atmospheric Administration Science 
Advisory Board. Mr. Chairman, I am very pleased to introduce 
Dr. Pietrafesa.
    Chairman Boehlert. Well, thank you very much, Mr. Miller. 
And my colleague's pride is obvious. He wanted to introduce 
you, one, because he is proud of you, and secondly, I think he 
was afraid I might garble the name. But I just want Dr. 
Pietrafesa to know that I have an aunt who was Pietrapaula, and 
this suit was made by a Pietrafesa operation, and I am sure you 
are aware of that firm.
    So we are glad to welcome you here. And our final witness 
is Dr. Michael H. Freilich. He is the Associate Dean of the 
College of Oceanic and Atmospheric Sciences at Oregon State 
University. Dr. Freilich is a member of the National Research 
Council's Space Studies Board and Chair of the Board's 
Committee on Earth Studies.
    Now if I went on and gave a longer introduction, you would 
probably let me put a sign in your lawn, too. Thank you so very 
much.
    Thank you all. And here is how we are going to proceed. We 
are going to give the Chairman, Admiral Watkins, 10 minutes for 
an opening statement and the others, we are going to give you 
five minutes. And the reason we are going to try to limit the 
opening statements is because we really want to have a good 
exchange. We are here to learn from you and hopefully we will 
learn.
    So let us start with Admiral Watkins.

 STATEMENT OF ADMIRAL JAMES D. WATKINS, USN, (RET.); CHAIRMAN, 
                U.S. COMMISSION ON OCEAN POLICY

    Admiral Watkins. Mr. Chairman, Members of the Committee, 
the U.S. Commission on Ocean Policy's Preliminary Report offers 
a practical blueprint for ocean policy in the 21st century by 
laying the groundwork for a coordinated, comprehensive national 
strategy with a logical sequence of steps that can start 
immediately. The report includes almost 200 action-oriented 
recommendations that present workable solutions for some of the 
most pressing problems facing our oceans and coasts. 
Implementation of these recommendations will result in 
bountiful, sustainable oceans that benefit and inspire 
Americans for decades to come.
    Because of the time limitation today, my remarks will focus 
primarily on our recommendation in the areas of science, 
technology, and education. My written testimony submitted for 
the record covers our report in greater depth.
    What is the vision here? There are few key messages 
highlighted throughout our report. Our oceans and coasts are 
national assets that are in trouble. To reverse these negative 
trends, we must act now. And finally, our existing fragmented 
system for managing oceans and coasts combined with the 
historic under-investment in these areas leaves us unprepared 
to meet the challenge. Our vision for the future of ocean and 
coastal management acknowledges the complexities of ecosystems 
and human needs, and to move toward an ecosystem-based 
management is the hallmark of our report, and it requires 
fundamental changes in governance and greatly improved science 
and education.
    Let me focus on governance. After 21/2 years of study and 
deliberation, the Commission concluded that a national ocean 
policy framework will be necessary to reap the benefits of a 
comprehensive and coordinated ocean policy. The framework 
should include a number of components, all of which are 
explained in the report. Three elements of particular interest 
to this committee are the following.
    First, the National Ocean Council should be established in 
the Executive Office of the President to coordinate federal 
ocean activities and set national policy. The Council would 
include the leaders of all ocean-related agencies and should be 
chaired by an assistant to the President who can serve as a 
strong voice for ocean policy within the White House.
    Second, a Presidential Council of Advisors on Ocean Policy 
is also needed to provide input and advice from non-federal 
perspectives. This was probably the most highlighted of all of 
the issues we heard in the 15 site visits and hearings across 
the country: ``Please bring us to the table in the planning 
process up front. We are key players in the game, and we are 
not being heard today.'' That is a very important non-federal 
aspect to our framework.
    Third, the federal agency structure must be strengthened 
and streamlined to increase its effectiveness and minimize 
redundancies. Our report suggests the logical sequence of steps 
to achieve this. The first step is the passage of the organic 
act to strengthen NOAA followed by additional action that will 
ultimately move the Nation toward a structure that merges the 
management of land, air, water, and all natural resources. It 
touches on some of the issues raised by the Chairman in his 
opening statement.
    Let me talk about science-based decision-making. One major 
theme in our report is the need for enhanced science and 
technology. Improved understanding of our oceans and coasts 
will allow us to manage marine environments and resources 
wisely, conserving precious species and habitats while 
exploring new uses and protecting national security.
    You are probably aware that the federal budget for ocean 
research has suffered in recent decades, despite growing needs. 
As a proportion of all federal research spending, ocean science 
funding has dropped from seven percent in the 1990's to less 
than 31/2 percent today. As a result, the Federal Government is 
reluctantly turning away about one half of the highly rated 
grant proposals they receive. For the U.S. to remain an 
international leader in ocean research and for managers to 
obtain the information they need, the federal ocean research 
budget should be restored to historic levels by doubling it to 
$1.3 billion over the next five years.
    Ultimately, any increased funding should be allocated based 
on a research strategy developed by the National Ocean Council 
in conjunction with Congress and the ocean science community. 
But several specific programs discussed in our report could be 
funded immediately, including an enlarged National Sea Grant 
College Program, two, an expanded Oceans and Human Health 
Initiative, led jointly by NOAA, NSF, NIEHS with additional 
funding of $14 million over the current appropriations, and a 
social science and economics program in NOAA at a cost of 
approximately $10 million a year.
    Other research needs are discussed throughout our report in 
connection with specific issue areas, for example: 
understanding the links between upstream activities and coastal 
water quality; identifying and eradicating invasive species; 
elucidating the role of oceans and climate; conducting 
cooperative fisheries research; clarifying the breeding 
grounds, migration patterns, and feeding locations to protect a 
species; and finally, understanding the role of biological 
diversity and overall ecosystem health.
    As a complement to traditional research activities, we must 
also venture forth to explore the ocean depths for new ocean 
species and habitats. NSF and NOAA should undertake a joint 
program in ocean exploration that draws on their respective 
strengths in basic and applied science. Funding for ocean 
exploration should grow to a level of $110 million per year 
over the next five years.
    Integrated Ocean Observing System, let me focus on that for 
a minute. To achieve adequate observational and forecasting 
capabilities for the oceans and coasts, the Commission strongly 
recommends implementation of the National Integrated Ocean 
Observing System, with NOAA as the lead operational agency. The 
IOOS, as we call it, should combine a network of regional 
coastal observations with an array of open ocean observations. 
As IOOS matures, NOAA, EPA, NASA, Department of Interior, and 
others must ensure its integration with national water quality 
monitoring networks and other national and global environmental 
observing systems, leading, eventually, to a unified Earth 
observing system.
    One particularly important recommendation calls for a 
smooth transition of Earth-observing satellites from their 
design and launch at NASA to continued operations at NOAA. This 
is one of the controversial issues I think that the Chairman 
may have eluded to, and I know that Congressman Vernon Ehlers 
has brought that up in hearings in the Senate before the 
Commerce Committee there. Implementing the IOOS will require 
extensive interagency and stakeholder cooperation, as well as a 
long-term financial commitment by both the Administration and 
the Congress. The estimated five-year start-up costs for 
implementation of the National IOOS is close to $2 billion, 
with ongoing costs of approximately $750 million per year 
thereafter.
    Infrastructure and data management. The conduct of ocean 
and coastal research depends on the availability of modern 
ships, aircraft, laboratories, undersea vehicles, satellites 
and future scientific advances will require continual 
technological improvements to these tools. Long-term priorities 
for the purchase, maintenance, operations, and upgrading of 
ocean research facilities should be based on a coherent 
interagency ocean science infrastructure plan. However, several 
urgent infrastructure needs can be addressed immediately, and 
these include recapitalization of the UNOL fleet, that is the 
University National Ocean Laboratories fleet, requiring $445 
million to build 10 ships over the next 20 years. Second, 
construction of two specialized fishery research vessels 
planned by NOAA at $52 million each. And third, for vision of 
appropriate support for ocean exploration, including a 
dedicated ship and submersible, at a cost of approximately $70.
    Enhanced ocean research exploration and observing efforts 
will produce massive amounts of new data. To ensure that these 
data result in useful information that benefits scientists, 
resource managers, educators, businesses, the general public, 
our report recommends improvements in our method of processing 
large information streams, coordinating federal data 
management, and creating environmental models and information 
products from those data. Input from national, regional, and 
local users should guide this process.
    To coordinate federal activities in ocean research, 
education, and operations, we recommend expansion of the 
existing National Ocean Research Leadership Council, which was 
created by the Congress in their National Oceanographic 
Partnership Program in 1997. This new body should be placed 
under the oversight of the National Ocean Council and renamed 
the Committee on Ocean Science, Education, Technology, and 
Operations.
    Let us talk about education now. Another major theme in our 
report is the promotion of lifelong education. In the long run, 
sensible stewardship of our oceans and coasts will require 
strong public support. Our report includes detailed discussions 
about the value of boosting ocean knowledge with 
recommendations that focus on two important avenues. First, we 
outline methods for improving formal education in schools by 
integrating ocean themes into the curriculum to promote 
achievements in math and science, including the social 
sciences. In addition, we recommend federal partnerships with 
aquariums, science centers, museums, and private laboratories 
to promote broader public awareness of ocean issues, and 
instill a national sense of stewardship for the oceans.
    These goals could be accomplished by strengthening the 
existing education component of the National Sea Grant College 
Program and expanding upon the NSF-sponsored Centers for Ocean 
Sciences Education Excellence, known as the COSEE centers. 
COSEE is recognized as a model for enhancing education and 
bringing accessible ocean-related information to the public. To 
build on its success, other agencies should become involved, 
and the number of COSEE regional centers should be tripled from 
seven to 21, with each center receiving at least $1.5 million a 
year for an initial five-year period.
    How do we implement all of this? Implementation of the 
recommendations I have discussed today, along with the many 
others found in our report, will result in measurable 
improvements for our oceans and coasts. But meaningful change 
requires meaningful investments. The new cost of initiatives 
outlined in our report, including direct support to states for 
the critical role they play, is estimated to range from $1.2 
billion in the first year to approximately $3.2 billion a year 
after full implementation. We believe this is a modest 
investment when you consider the economic, aesthetic, and 
ecosystem values of our oceans and coasts.
    To cover these costs, the Commission recommends that an 
Ocean Policy Trust Fund be established in the Treasury, which 
would receive revenues generated from offshore oil and gas and 
future activities in federal waters now yet not foreseen by all 
of us. These funds would supplement, not replace, existing 
appropriations, and would support the new or expanded 
responsibilities recommended in our report. Establishment of 
such a fund would signal the Nation's recognition of our 
commitment to help ensure a healthy future for our oceans, a 
priceless national resource.
    Call to action, in closing. As a special call to action for 
the U.S. House of Representatives, we believe it is critical 
for the following actions to occur as soon as possible. 
Authorize establishment of a National Ocean Council and a 
Presidential Council of Advisors on Ocean Policy in the 
Executive Office of the President. Two, enact an organic act 
for NOAA. Three, establish an Ocean Policy Trust Fund in the 
United States Treasury. And for this committee, in particular, 
Mr. Chairman, we urge, first, authorization of a doubling of 
ocean research funding, two, support for a new era of ocean 
exploration, three, implementation of the Integrated Ocean 
Observing System, and finally, provision of the infrastructure 
needed to realize these goals.
    I thank you for holding this hearing and for the continuing 
support of the Members of this committee. It is through your 
continued leadership that the Nation will be in a position to 
realize the full potential of the oceans. We look forward to 
working with you and your colleagues in the Senate on 
implementing our report.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Watkins follows:]
             Prepared Statement of Admiral James D. Watkins

INTRODUCTION

    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you to discuss the Preliminary Report of the U.S. Commission on 
Ocean Policy, which was released to the public on Tuesday, April 20. We 
believe this report offers a blueprint for a coordinated, comprehensive 
national ocean policy for the 21st century. It includes nearly 200 
action-oriented recommendations that present workable solutions for a 
broad range of ocean- and coastal-related issues.
    As you know, the last comprehensive review of U.S. ocean policy 
took place more than 35 years ago when the Commission on Marine 
Science, Engineering and Resources--known as the Stratton Commission--
issued its report, Our Nation and the Sea. Since then, considerable 
progress has been made, but many challenges remain and new issues have 
emerged. The value of the oceans to our nation has only grown in 35 
years, and the time to act is now.
    The simple fact is that the oceans affect and sustain all life on 
Earth. They drive and moderate weather and climate, provide us with 
food, oxygen, transportation corridors, recreational opportunities, 
energy resources and other natural products, and serve as a national 
security buffer. In our travels around the country, we heard and saw 
first-hand how communities care about the ocean and coasts, and how 
they worry about their future.

THE VALUE OF THE OCEANS AND COASTS

    America's oceans and coasts provide ecological and aesthetic 
benefits with tremendous value to our national economy. In 2000, the 
ocean economy contributed more than $117 billion to American prosperity 
and supported well over two million jobs. More than $1 trillion, or 
one-tenth of the Nation's annual GDP, is generated within the 
relatively narrow strip of land immediately adjacent to the coast. 
Considering the economies of all coastal watershed counties, that 
contribution swells to over $4.5 trillion, fully half of the Nation's 
GDP. The contribution to employment is equally impressive, with 16 
million jobs in the near-shore zone and 60 million in coastal watershed 
counties.
    The country also remains highly dependent on marine transportation. 
More than thirteen million jobs are connected to the trade transported 
through the Nation's network of ports and inland waterways. Annually, 
the Nation's ports handle more than $700 billion in goods. The cruise 
industry and its passengers account for another $11 billion in 
spending.
    Offshore oil and gas operations have expanded into deeper waters 
with new and improved technologies. The offshore oil and gas industry's 
annual production is valued at $25-$40 billion, and its yearly bonus 
bid and royalty payments contribute approximately $5 billion to the 
U.S. Treasury.
    The commercial fishing industry's total annual value exceeds $28 
billion, with the recreational saltwater fishing industry valued at 
around $20 billion, and the annual U.S. retail trade in ornamental fish 
worth another $3 billion. Nationwide, retail expenditures on 
recreational boating exceeded $30 billion in 2002.
    In the last three decades, more than 37 million people and 19 
million homes have been added to coastal areas. Every year, hundreds of 
millions of Americans and international visitors flock to the coasts to 
enjoy the oceans, spending billions of dollars and directly supporting 
more than a million and a half jobs. In fact, tourism and recreation is 
one of the fastest-growing business sectors--enriching economies and 
supporting jobs in communities virtually everywhere along the coasts of 
the continental United States, southeast Alaska, Hawaii, and our island 
territories and commonwealths.
    These concrete, quantifiable contributions to the national economy 
are just one measure of the oceans' value. We also love the oceans for 
their beauty and majesty, and for their intrinsic power to relax, 
rejuvenate, and inspire. Unfortunately, we are starting to love our 
oceans to death.

TROUBLE IN PARADISE

    Development comes with costs, and we are only now discovering the 
full extent of those costs. Pollution, depletion of fish and other 
living marine resources, habitat destruction and degradation, and the 
introduction of invasive non-native species are just some of the ways 
people harm the oceans, with serious consequences for the entire 
planet.
    In 2001, 23 percent of the Nation's estuarine areas were not 
suitable for swimming, fishing, or supporting marine species. In 2002, 
about 12,000 beach closings and swimming advisories were issued across 
the Nation, most due to the presence of bacteria associated with fecal 
contamination. Marine toxins afflict more than 90,000 people annually 
across the globe and are responsible for an estimated 62 percent of all 
seafood-related illnesses. Such events are on the rise, costing 
millions of dollars a year in decreased tourism revenues and increased 
health care costs.
    Experts estimate that 25 to 30 percent of the world's major fish 
stocks are over-exploited, and many U.S. fisheries are experiencing 
similar difficulties. Since the Pilgrims first arrived at Plymouth 
Rock, over half of our fresh and saltwater wetlands--more than 110 
million acres--have been lost.
    Our failure to properly manage the human activities that affect 
oceans and coasts is compromising their ecological integrity and 
diminishing our ability to fully realize their potential. Congress 
recognized this situation when it passed the Oceans Act of 2000 calling 
for a Commission on Ocean Policy to establish findings and develop 
recommendations for a coordinated and comprehensive national ocean 
policy. Pursuant to that Act, the President appointed 16 Commission 
members, including individuals nominated by the leadership in the 
United States Senate and the House of Representatives. These 
individuals were drawn from diverse backgrounds with knowledge in ocean 
and coastal activities.
    Because of the vast scope of topics the Commission was required to 
address, it sought input from individuals across the country. The 
Commission members traveled around the United States obtaining valuable 
information from diverse marine-related interests. They heard testimony 
on ocean and coastal issues during nine regional meetings and 
experienced regional concerns first-hand during seventeen site visits. 
The regional meetings also highlighted relevant success stories and 
regional models with potential national applicability.
    Four additional public meetings were held in Washington, D.C., 
after completion of the regional meetings, to publicly present and 
discuss many of the policy options under consideration for the 
Commission's recommendations. In all, the Commission heard from some 
445 witnesses, including over 275 invited presentations and an 
additional 170 comments from the public, resulting in nearly 1,900 
pages of testimony (included as Appendices to the report).
    The message we heard was clear: the oceans and coasts are in 
trouble and major changes are urgently needed. While new scientific 
understanding shows that natural systems are complex and 
interconnected, our decision-making and management approaches have not 
been updated to reflect that complexity and interconnectedness. 
Responsibilities remain dispersed among a confusing array of agencies 
at the federal, State, and local levels. Better approaches and tools 
are also needed to gather data to understand the complex marine 
environment. Perhaps most important, people must understand the role 
the oceans have on their lives and livelihoods and the impacts they 
themselves have on the oceans.
    As the result of significant thought and deliberation and the 
consideration of a wide range of potential solutions, the Commission 
prepared its preliminary report containing bold and broad-reaching 
recommendations for reform--reform that needs to start now, while it is 
still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations.

VISION AND STRATEGY FOR THE 21ST CENTURY

    Any strategy for change must begin with a clear picture of the 
desired endpoint. In the desirable future we wish to create, the oceans 
and coasts would be clean, safe, and sustainably managed. They would 
contribute significantly to the economy, supporting multiple beneficial 
uses such as food production, development of energy and mineral 
resources, recreation, transportation of goods and people, and the 
discovery of novel medicines and other products, while preserving a 
high level of biodiversity and a full range of natural habitats. The 
coasts would be attractive places to live, work and play, with clean 
water and beaches, easy public access, sustainable economies, safe 
bustling harbors and ports, adequate roads and services, and special 
protection for sensitive habitats. Beach closings, toxic algal blooms, 
proliferation of invasive species, and vanishing native species would 
be rare. Better land use planning and improved predictions of severe 
weather and other natural hazards would save lives and money.
    The management of our oceans and coasts would also look different: 
it would follow ecosystem boundaries, considering interactions among 
all elements of the system, rather than addressing isolated areas or 
problems. In the face of scientific uncertainty, managers would balance 
competing considerations and proceed with caution. Ocean governance 
would be effective, participatory, and well coordinated among 
government agencies, the private sector, and the public.
    Managers and politicians would recognize the critical importance of 
good data and science, providing strong support for physical, 
biological, social, and economic research. The Nation would invest in 
the tools and technologies needed to conduct this research: ample, 
well-equipped surface and underwater research vessels; reliable, 
sustained satellites; state-of-the-art computing facilities; and 
innovative sensors that withstand harsh ocean conditions. A widespread 
network of observing and monitoring stations would provide data for 
research, planning, marine operations, timely forecasts, and periodic 
assessments. Scientific findings and observations would be translated 
into practical information, maps, and products used by decision-makers 
and the public.
    Better education would be a cornerstone of ocean policy, with the 
United States once again joining the top ranks in math, science, and 
technology achievement. An ample, well-trained, and motivated workforce 
would be available to study the oceans, set wise policies, apply 
technological advances, engineer new solutions, and teach the public 
about the value and beauty of the oceans and coasts throughout their 
lives. As a result of this lifelong education, people would understand 
the links among the land, sea, air, and human activities and would be 
better stewards of the Nation's resources.
    Finally, the United States would be a leader and full partner 
globally, sharing its science, engineering, technology, and policy 
expertise, particularly with developing countries, to facilitate the 
achievement of sustainable ocean management on a global level.
    The Commission believes this vision is practical and attainable. To 
achieve it, national ocean policy should be guided by a set of 
overarching principles including the following:

Sustainability: Ocean policy should be designed to meet the needs of 
the present generation without compromising the ability of future 
generations to meet their needs.

Stewardship: The principle of stewardship applies both to the 
government and to every citizen. The U.S. government holds ocean and 
coastal resources in the public trust--a special responsibility that 
necessitates balancing different uses of those resources for the 
continued benefit of all Americans. Just as important, every member of 
the public should recognize the value of the oceans and coasts, 
supporting appropriate policies and acting responsibly while minimizing 
negative environmental impacts.

Ocean-Land-Atmosphere Connections: Ocean policies should be based on 
the recognition that the oceans, land, and atmosphere are inextricably 
intertwined and that actions that affect one Earth system component are 
likely to affect another.

Ecosystem-based Management: U.S. ocean and coastal resources should be 
managed to reflect the relationships among all ecosystem components, 
including humans and nonhuman species and the environments in which 
they live. Applying this principle will require defining relevant 
geographic management areas based on ecosystem, rather than political, 
boundaries.

Multiple Use Management: The many potentially beneficial uses of ocean 
and coastal resources should be acknowledged and managed in a way that 
balances competing uses while preserving and protecting the overall 
integrity of the ocean and coastal environments.

Preservation of Marine Biodiversity: Downward trends in marine 
biodiversity should be reversed where they exist, with a desired end of 
maintaining or recovering natural levels of biological diversity and 
ecosystem services.

Best Available Science and Information: Ocean policy decisions should 
be based on the best available understanding of the natural, social, 
and economic processes that affect ocean and coastal environments. 
Decision-makers should be able to obtain and understand quality science 
and information in a way that facilitates successful management of 
ocean and coastal resources.

Adaptive Management: Ocean management programs should be designed to 
meet clear goals and provide new information to continually improve the 
scientific basis for future management. Periodic re-evaluation of the 
goals and effectiveness of management measures, and incorporation of 
new information in implementing future management, are essential.

Understandable Laws and Clear Decisions: Laws governing uses of ocean 
and coastal resources should be clear, coordinated, and accessible to 
the Nation's citizens to facilitate compliance. Policy decisions and 
the reasoning behind them should also be clear and available to all 
interested parties.

Participatory Governance: Governance of ocean uses should ensure 
widespread participation by all citizens on issues that affect them.

Timeliness: Ocean governance systems should operate with as much 
efficiency and predictability as possible.

Accountability: Decision-makers and members of the public should be 
accountable for the actions they take that affect ocean and coastal 
resources.

International Responsibility: The United States should act 
cooperatively with other nations in developing and implementing 
international ocean policy, reflecting the deep connections between 
U.S. interests and the global ocean.

Ecosystem-based Management

    Ecosystem-based management emerged as an overarching theme of the 
Commission's work. To move toward more ecosystem-based approaches, 
managers must consider the relationships among all ecosystem 
components, including human and nonhuman species and the environments 
in which they live. Management areas should be defined based on 
ecosystem, rather than political, boundaries. A balanced precautionary 
approach should be adopted that weighs the level of scientific 
uncertainty and the potential risk of damage before proceeding.
    In moving toward an ecosystem-based approach, the U.S. Commission 
on Ocean Policy considers the following actions absolutely critical. 
First, a new national ocean policy framework must be established to 
improve federal leadership and coordination and enhance opportunities 
for State, territorial, tribal, and local entities to improve responses 
at the regional level. Second, decisions about ocean and coastal 
resources need to be based on the most current, credible, unbiased 
scientific data. And third, improved education about the oceans is 
needed to give the general public a sense of stewardship and prepare a 
new generation of leaders to address ocean issues.

IMPROVING GOVERNANCE

    Many different entities at the federal, regional, State, 
territorial, tribal and local levels participate in the management of 
the Nation's oceans and coasts. At the federal level, eleven of the 
fifteen existing cabinet-level departments and four independent 
agencies play important roles in the development of ocean and coastal 
policy. All of these federal agencies also interact in various ways 
with State, territorial, tribal, and local entities.
    A lack of communication and coordination among the various agency 
programs at the national level, and among federal, State and local 
stakeholders at the regional level, continues to inhibit effective 
action. A new National Ocean Policy Framework is needed to provide 
high-level attention and coordinated implementation of an integrated 
national ocean policy.

National Coordination and Leadership

    A first step in enhancing management, and a central part of the new 
National Ocean Policy Framework, is improved coordination among the 
many federal programs. A number of attempts have been made to 
coordinate on particular topics, such as coral reefs or marine 
transportation, or within a broad category, such as ocean science and 
technology. Within the Executive Office of the President, three 
entities have specific responsibilities relevant to oceans: the Office 
of Science and Technology Policy that addresses government-wide science 
and technology issues and includes an ocean subcommittee; the Council 
on Environmental Quality (CEQ) that oversees broad federal 
environmental efforts and implementation of the National Environmental 
Policy Act; and the National Security Council's Policy Coordinating 
Committee that addresses international issues and also includes a 
subcommittee on international ocean issues.
    While all these coordinating bodies are helpful in their designated 
areas of interest, they do not constitute a high-level interagency 
mechanism able to deal with all of the interconnected ocean and coastal 
challenges facing the Nation, including not only science and 
technology, the environment, and international matters, but the many 
other economic, social, and technical issues that affect the ocean.
    The value of the ocean to American society also cries out for 
greater visibility and leaderships. Only the Executive Office of the 
President can transcend traditional conflicts among departments and 
agencies, make recommendations for broad federal agency reorganization, 
and provide guidance on funding priorities, making it the appropriate 
venue for coordinating an integrated national ocean policy.
National Ocean Council
    Congress should establish a National Ocean Council within the 
Executive Office of the President to provide high-level level attention 
to ocean and coastal issues, develop and guide the implementation of 
appropriate national policies, and coordinate the many federal 
departments and agencies with ocean and coastal responsibilities. The 
National Ocean Council, or NOC, should be composed of cabinet 
secretaries of departments and directors of independent agencies with 
relevant ocean- and coastal-related responsibilities and should carry 
out a variety of functions including the following:

        <bullet>  developing broad principles and national goals for 
        ocean and coastal governance;

        <bullet>  making recommendations to the President on national 
        ocean policy;

        <bullet>  coordinating and integrating activities of ocean-
        related federal agencies;

        <bullet>  identifying statutory and regulatory redundancies or 
        omissions and developing strategies to resolve conflicts, fill 
        gaps, and address new and emerging ocean issues;

        <bullet>  developing and supporting partnerships between 
        government agencies and nongovernmental organizations, the 
        private sector, academia, and the public.

Presidential Council of Advisors on Ocean Policy
    A Presidential Council of Advisors on Ocean Policy, co-chaired by 
the chair of the National Ocean Council and a non-federal member, 
should advise the President on ocean and coastal policy matters and 
serve as a formal structure for input from non-federal individuals and 
organizations. It should be composed of a representative selection of 
individuals appointed by the President, including governors of coastal 
states, other appropriate State, territorial, tribal and local 
government representatives, and individuals from the private sector, 
research and education communities, nongovernmental organizations, 
watershed organizations and other non-federal bodies with ocean 
interests. The members should be knowledgeable about and experienced in 
ocean and coastal issues.
Need for Presidential Action--the Assistant to the President
    Although Congress should establish the National Ocean Council and 
the Presidential Council of Advisors on Ocean Policy in law to ensure 
their long-term future, the Commission is cognizant of the complex and 
often lengthy nature of the legislative process. While awaiting 
congressional action, the President should immediately establish these 
entities through Executive Order, and should appoint an Assistant to 
the President to chair the Council. As chair of the NOC and co-chair of 
the Presidential Council of Advisors on Ocean Policy, the Assistant to 
the President should lead the coordination of federal agency actions 
related to oceans and coasts, make recommendations for federal agency 
reorganization as needed to improve ocean and coastal management, 
resolve interagency policy disputes, and promote regional approaches. 
The Assistant to the President should also advise OMB and the agencies 
on appropriate funding levels for important ocean- and coastal-related 
activities, and prepare a biennial report as mandated by section 5 of 
the Oceans Act of 2000.
Office of Ocean Policy
    Because the National Ocean Council will be responsible for planning 
and coordination rather than operational duties, the support of a small 
staff and committees will be required to carry out its functions. An 
Office of Ocean Policy should support the Assistant to the President, 
the National Ocean Council, and the Presidential Council of Advisors on 
Ocean Policy. The Office of Ocean Policy should be composed of a small 
staff that reports to the Assistant to the President, managed by an 
executive director responsible for day-to-day activities. Strong links 
should be maintained among the National Ocean Council, its committees 
and staff, other parts of the Executive Office of the President, and 
ocean-related advisory councils and commissions.
Committee on Ocean Science, Education, Technology, and Operations
    A committee under the National Ocean Council will be needed to 
assume the functions of the current National Ocean Research Leadership 
Council (NORLC), a congressionally-established government coordination 
and leadership organization for oceanographic research programs on the 
national level. By placing the NORLC under the NOC and broadening its 
responsibilities to include operational programs and educational 
activities in addition to research, it will become more visible and 
more effective. In recognition of its broader mandate, the NORLC should 
be redesignated as the Committee on Ocean Science, Education, 
Technology, and Operations (COSETO). Strong connections between the 
Office of Science and Technology Policy and the NOC (through COSETO) 
will be essential. To eliminate overlapping functions, the National 
Science and Technology Council's Joint Subcommittee on Oceans, should 
be subsumed into COSETO.
Committee on Ocean Resource Management
    The National Ocean Council will need a second committee, to 
coordinate federal resource management policy, including the many 
existing, single-issue coordination efforts such as the Coral Reef Task 
Force, the Interagency Committee on the Marine Transportation System, 
the National Dredging Team, Coastal America, and many others. The NOC 
Committee on Ocean Resource Management (CORM) would perform high-level, 
cross-cutting oversight of these issue-specific efforts to ensure 
consideration of cumulative impacts, minimize conflicting mandates, and 
implement an ecosystem-based management approach. Because of the 
Council on Environmental Quality's role in environmental issues, this 
office should also maintain strong connections with the National Ocean 
Council and its CORM.

A Regional Approach

    In addition to improved coordination at the national level, an 
important component of the new National Ocean Policy Framework is the 
promotion of regional approaches that allow decision-makers to address 
issues across jurisdictional lines. The Nation's ocean and coastal 
resources are affected by human activities that span cities, counties, 
States, and sometimes nations. Federal, State, territorial, tribal, and 
local governments need the ability to respond to ocean and coastal 
issues in a coordinated fashion within regions defined by the 
boundaries of ecosystems rather than somewhat arbitrary government 
jurisdictions. The voluntary establishment of regional ocean councils, 
improved coordination of federal agency efforts at the regional level, 
and dissemination of regionally significant research and information 
would enhance regional coordination and improve responses to regional 
issues.
Creating Regional Ocean Councils
    There are many examples where concern for the health of a 
particular ecosystem (such as the Chesapeake Bay, Pacific Northwest, 
Gulf of Mexico, or Mississippi River Basin) has motivated a wide range 
of participants to create new structures for addressing regional 
concerns. There is a growing awareness that existing regional 
approaches can be strengthened and similar approaches can benefit the 
health and productivity of all the Nation's ocean and coastal regions.
    Regional ocean councils can serve as mechanisms for a wide range of 
participants to join forces to address issues of regional concern, 
realize regional opportunities, identify regional goals, and promote a 
sense of stewardship for a specific area among all levels of 
government, private interests, and the public. It will be up to the 
participants--including representatives from all levels of government, 
the private sector, nongovernmental organizations, and academia--to 
determine how the council will operate in each region. Possible council 
functions might include:

        <bullet>  designating ad hoc subcommittees to examine specific 
        issues of regional concern;

        <bullet>  mediating and resolving disputes among different 
        interests in the region;

        <bullet>  monitoring and evaluating the state of the region and 
        the effectiveness of management efforts;

        <bullet>  building public awareness about regional ocean and 
        coastal issues;

        <bullet>  facilitating government approvals or permitting 
        processes that involve several Federal, State, and local 
        government agencies within the region; and

        <bullet>  helping to link activities located in upstream, 
        coastal, and offshore areas within an ecosystem-based 
        management context.

    Regional ocean councils should be created by interested parties at 
the State and local level, rather than mandated by the Federal 
Government. However, to stimulate the process, the National Ocean 
Council should develop flexible guidelines for the voluntary creation 
of regional ocean councils. Initial efforts should be encouraged in 
regions where readiness and support for a regional approach is already 
strong. The first councils can then serve as pilot projects, allowing 
those involved to learn what works in the region, building support to 
implement a regional ocean council, and paving the way for councils in 
other regions. Once established, regional ocean councils will most 
likely evolve, as participants identify the structure and functions 
that best suit their needs. Whether a council has decision-making 
authority will be up to the regional participants. National involvement 
may be necessary to implement more formal decision-making mechanisms 
such as legislation, interagency agreements, and interstate compacts.
    Regional ocean councils should encompass an area from the inland 
extent of coastal watersheds to the offshore boundary of the Nation's 
EEZ. The boundaries of the Regional Fishery Management Councils (RFMCs) 
may be considered as a starting point, although these regions may not 
always be suitable. For example, more than one regional ocean council 
will probably be necessary within California where there is only one 
RFMC. A regional ocean council for the Great Lakes region is also 
desirable.
Improving Regional Coordination of Federal Agencies
    While the process of planning, establishing, and testing regional 
ocean councils is underway, federal agencies should be directed to 
immediately improve their own regional coordination and provide 
stronger institutional, technical, and financial support for regional 
issues. Currently, the actions of federal agencies often overlap, 
conflict, or are inconsistent with one another at the regional and 
State levels. Although several federal agencies already divide their 
operations into regions, the boundaries of these regions differ from 
one agency to the next, the functions of regional offices vary widely, 
and it is common for the regional office of one agency to operate in 
isolation from the regional offices of other agencies. Improved 
regional coordination should be a first step, followed in time by 
federal reorganization around common regional boundaries.
Enhancing Regional Research and Information
    Decision-makers at all levels need the best available science, 
information, tools, and technology on which to base ocean and coastal 
management decisions. However, research and data collection targeted at 
regional concerns is severely limited. Furthermore, the data that do 
exist are rarely translated into products that are useful to managers. 
Regional ocean information programs should be established to set 
priorities for research, data collection, information products, and 
outreach activities in support of improved regional management. Where 
and when they are established, regional ocean councils will be the 
logical bodies to administer these programs.

Improved Governance of Offshore Waters

    Converging economic, technological, legal, and demographic factors 
make federal waters an increasingly attractive place for enterprises 
seeking to tap the ocean's resources. The challenge for policy-makers 
will be to realize the ocean's potential while minimizing conflicts 
among users, safeguarding human and marine health, and fulfilling the 
Federal Government's obligation to manage public resources for the 
maximum long-term benefit of the entire nation. While institutional 
frameworks exist for managing some ocean uses, increasingly 
unacceptable gaps remain.
    The array of agencies involved, and their frequent lack of 
coordination, can create roadblocks to public participation, discourage 
private investment, cause harmful delays, and generate unnecessary 
costs. This is particularly true for new ocean uses that are subject to 
scattered or ill defined federal agency authorities and an uncertain 
decision-making process. Without an understandable, streamlined, and 
broadly accepted method for reviewing proposed activities, ad hoc 
management approaches will continue, perpetuating uncertainty and 
raising questions about the comprehensiveness and legitimacy of 
decisions.
    To start, each existing or foreseeable activity in federal waters 
should be overseen by one lead federal agency, designated by Congress 
to coordinate among all the agencies with applicable authorities while 
ensuring full consideration of the public interest. Pending such 
designations, the NOC should assign agencies to coordinate research, 
assessment, and monitoring of new offshore activities.
    But better management of individual activities is only a first 
step. To move toward an ecosystem-based management approach, the 
Federal Government should develop a broad understanding of offshore 
areas and their resources, prioritize all potential uses, and ensure 
that activities within a given area are compatible. As the pressure for 
offshore uses grows, and before serious conflicts arise, coordination 
should be improved among the management programs for different offshore 
activities. The National Ocean Council should review each single-
purpose program that regulates some offshore activity with the goal of 
determining how all such programs may be better coordinated.
    Ultimately, the Nation needs a coordinated offshore management 
regime that encompasses traditional and emerging uses, and is flexible 
enough to incorporate uses not yet foreseen. The new regime will need 
to make decisions and resolve disputes through an open process accepted 
by all parties. Congress, working with the NOC and regional ocean 
councils, should establish such an offshore management regime and 
establish principles for offshore use, including the need to:

        <bullet>  integrate single-purpose programs within the broader 
        offshore regime;

        <bullet>  create a planning process for new and emerging 
        activities; and

        <bullet>  ensure a reasonable return to the public in exchange 
        for allowing private interests to profit from public resources.

    Establishing a coordinated offshore management regime will take 
time, and it will not be easy. No regime for governing ocean activities 
will eliminate all conflicts, given the complexity of the problems and 
the diverse perspectives of competing interests. However, the National 
Ocean Council, Presidential Council of Advisors on Ocean Policy, 
regional ocean councils, and other components of the National Ocean 
Policy Framework provide a promising basis for more coordinated, 
participatory management of ocean activities.

Marine Protected Areas

    In contemplating the coordinated, ecosystem-based management of 
both near-shore and offshore areas, marine protected areas can be a 
valuable tool. Marine protected areas can be created for many different 
reasons, including conserving living marine resources and habitat, 
protecting endangered or threatened species, maintaining biological 
diversity, and preserving historically or culturally important 
submerged archaeological resources. These areas have also been 
recognized for their scientific, recreational, and educational values.
    The creation of new MPAs can be a controversial process: supported 
by those who see their benefits, while vigorously opposed by others who 
dislike the limitations MPAs impose on ocean uses. Thus, it is 
important to engage local and regional stakeholders in the design and 
implementation of marine protected areas to build support and ensure 
compliance with any restrictions. Because marine protected areas also 
have national implications, such as possible impacts on freedom of 
navigation, federal involvement and oversight will still be needed.
    With its multiple use, ecosystem-based perspective, the National 
Ocean Council should oversee the development of a flexible process--
which is adaptive and based on best available science--to design and 
implement marine protected areas. Regional ocean councils, or other 
appropriate entities, can provide a forum for applying the process 
developed by the NOC, with broad stakeholder participation.

Strengthening and Streamlining the Federal Agency Structure

    Although improved coordination is a vital aspect of the new 
National Ocean Policy Framework, changes to the federal agency 
structure itself will also be needed. The proliferation of federal 
agencies with some element of responsibility for ocean and coastal 
activities immediately suggests that some consolidation is possible. 
Combining similar ocean and coastal functions and programs could 
improve government performance, reduce unnecessary overlaps, facilitate 
local, State, and regional interactions with the Federal Government, 
and begin to move the Nation toward a more ecosystem-based management 
approach.
    However, the complex Legislative and Executive Branch process for 
making such changes compels a cautious, methodical, multi-phased 
approach for improving the federal structure.
Strengthening NOAA--Phase I
    NOAA's mission is to understand and predict changes in the Earth's 
environment and to conserve and manage ocean and coastal resources to 
meet the Nation's economic, social, and environmental needs. Since its 
creation, NOAA has made significant strides in many areas, despite 
programmatic and functional overlaps and frequent disagreements and 
disconnects among its five line offices. Although the organization has 
evolved over time, including the recent creation of a sixth line office 
to improve integration on specific issues, these changes take time and 
results can be hard to quantify.
    There is widespread agreement that NOAA needs to manage its current 
activities more effectively. Moreover, if the recommendations in the 
Commission's preliminary report are implemented, NOAA will be required 
to handle a number of new responsibilities. A stronger, more effective, 
science-based and service-oriented ocean agency--one that contributes 
to better management of oceans and coasts through an ecosystem-based 
approach--is needed.
    NOAA's three primary functions can be summarized as follows:

        1)  Assessment, prediction, and operations for ocean, coastal, 
        and atmospheric environments, including mapping and charting, 
        satellite-based and in situ data collection, implementation of 
        the Integrated Ocean Observing System, data information 
        systems, and weather services and products.

        2)  Marine resource and area management, including fisheries, 
        ocean and coastal areas, vulnerable species and habitats, and 
        protection from pollution and invasive species.

        3)  Scientific research and education, including a focus on 
        applied research, the availability of scientifically valid 
        data, and promotion of educational activities.

    One of the critical objectives for a strengthened NOAA is improved 
performance within these categories and smoother interactions among 
them. For example, resource management decisions should be based on the 
best available science, research itself should be planned to support 
the agency's management missions, and research in different areas--sea, 
land, and air--should be connected and coordinated. Changes of this 
nature will likely require adjustments to the internal operation of the 
agency, including possible additional changes to the current line 
office structure.
    These changes can be promoted by codifying the establishment and 
functions of the National Oceanic and Atmospheric Administration 
through passage of an organic act for the agency. The act should ensure 
that NOAA's structure is consistent with the principles of ecosystem-
based management and with its primary functions: assessment, 
prediction, and operations; management; and research and education. 
NOAA will require budget support commensurate with its important, 
varied, and growing responsibilities.
Reviewing NOAA's Budget
    NOAA's placement within the Department of Commerce has an unusual 
history and continues to be questioned by many observers. If nothing 
else, this affiliation has distinct budgetary implications. As part of 
DOC, NOAA's budget is reviewed within the Office of Management and 
Budget's General Government Programs, along with other DOC programs 
with fundamentally different characteristics and missions. NOAA's OMB 
review also fails to consider its ocean and atmospheric programs in 
context with other federal resource management and science programs. To 
support the move toward a more ecosystem-based management approach, 
NOAA's budget should be reviewed within OMB's Natural Resources 
Programs, along with the budgets of more similar departments and 
agencies.
Consolidating Ocean and Coastal Programs--Phase II
    As I have said, many agencies across the Federal Government--in 
addition to NOAA--administer ocean- and coastal-related programs. 
Although I have focused on NOAA as the primary ocean agency, the other 
agencies should also be strengthened in similar ways.
    However, even solid performance within each agency will not 
eliminate the many similar or overlapping activities. In some cases, 
programmatic overlap can provide useful checks and balances as agencies 
bring different perspectives and experiences to the table. In other 
cases, the number of separate agencies addressing a similar issue is 
not helpful. Such fragmentation diffuses responsibility, introduces 
unnecessary overlap, raises administrative costs, inhibits 
communication, and interferes with the development of a comprehensive 
management regime that addresses issues within an ecosystem-based 
context.
    The Commission's preliminary report presents specific 
recommendations on program consolidation in areas such as nonpoint 
source pollution, area-based ocean and coastal resource management, 
vessel pollution, invasive species, marine mammals, aquaculture, and 
satellite-based Earth observing. Using these recommendations as a 
starting point, the Assistant to the President, with advice from the 
National Ocean Council and the Presidential Council of Advisors on 
Ocean Policy, should review federal ocean, coastal and atmospheric 
programs, and recommend further opportunities for consolidation.
    Programs not suitable for consolidation--such as security-related 
programs that cannot be transferred without harm to the overall 
enterprise--should continue to be coordinated through the National 
Ocean Council and the regional ocean councils. However, in most cases, 
judicious consolidation of ocean- and coastal-related functions will 
improve policy integration and program effectiveness.
Presidential Reorganization Authority
    The recommended program consolidation will not be easy within the 
current legislative process. The creation and reorganization of 
agencies is often contentious, lengthy, and uncertain, involving 
multiple committees in both houses of Congress. Recognizing this 
shortcoming, Congress has several times in the past chosen to give the 
President limited reorganization authority. Renewing this authority by 
allowing the President to propose agency reorganization, with an 
expedited and limited congressional review and approval process, would 
provide an excellent mechanism to achieve reorganization of federal 
ocean- and coastal-related agencies in a timely fashion.
Managing all Natural Resources in an Ecosystem-based Management 
        Context--Phase III
    Strengthening the performance of ocean, coastal, and atmospheric 
programs through coordination and consolidation are important steps in 
moving toward an ecosystem-based management approach. By immediately 
establishing the National Ocean Council and strengthening NOAA, 
followed by the consolidation of suitable ocean and coastal programs 
and functions, the Nation will be poised to take a further step in 
strengthening the Federal Government structure.
    Based on a growing understanding of ecosystems, including 
recognition of the inextricable links among the sea, land, air, and all 
living things, a more fundamental reorganization of federal resource 
agencies will eventually be needed. Consolidation of all natural 
resource functions, including those involving oceans and coasts, would 
enable the Federal Government to move toward true ecosystem-based 
management. This could be implemented through the establishment of a 
Department of Natural Resources or some other structural unification 
that brings together all of the Nation's natural resource programs.

SCIENCE-BASED DECISIONS: ADVANCING OUR UNDERSTANDING OF THE OCEANS

    Ecosystem-based management provides many potential benefits, but 
also imposes new responsibilities on managers. The need to collect good 
information and to improve understanding is perhaps foremost among 
these new responsibilities. Despite considerable progress over the last 
century, the oceans remain one of the least explored and most poorly 
understood environments on the planet.
    Greater knowledge can enable policy-makers and managers to make 
wise, science-based decisions at the national, regional, State, and 
local levels. However, existing research and monitoring programs, which 
tend to be agency-specific and single issue oriented, will need to be 
reorganized to support ecosystem-based management. The current mismatch 
between the size and complexity of marine ecosystems and the fragmented 
research and monitoring programs for coastal and ocean ecosystems must 
be resolved.
    The Nation also lacks effective mechanisms for incorporating 
scientific information into decision-making in a timely manner. As 
knowledge improves, it must be translated into useful terms and 
actively incorporated into policy through an adaptive process. To make 
the translation effective, local, State, regional, and national 
managers need avenues to communicate their information needs and 
priorities to the research community.
    In addition to these practical needs, ocean science and technology 
will continue to be an integral part of the overall U.S. basic research 
enterprise and future discoveries will undoubtedly contribute greatly 
to society. Fundamental knowledge about the oceans is essential to 
understanding the Earth's environment and how it changes over time, 
assessing and predicting the status of marine resources, finding 
beneficial new uses of ocean resources, and protecting national 
security.

Federal Leadership in Ocean Science and Technology

    Our Commission defines ocean science and technology broadly to 
include: exploration of new ocean environments; basic and applied 
research to increase understanding of the biology, chemistry, physics, 
and geology of the oceans and coasts, their interactions with 
terrestrial, hydrologic, and atmospheric systems, and the interactions 
between ocean and coastal regions and humans; and the development of 
new methodologies and instruments.
    Today, 15 federal agencies support or conduct diverse activities in 
ocean science, technology, assessment, and management. The heads of 
these agencies direct the National Oceanographic Partnership Program 
(NOPP), which coordinates national oceanographic research and 
education. NOPP has provided a useful venue for agencies to support a 
small number of ocean science and technology projects, but it has not 
realized its full potential as an overarching mechanism for 
coordination among federal agencies and State, local, academic, and 
private entities.
    Under the proposed National Ocean Policy Framework, the National 
Ocean Council's Committee on Ocean Science, Education, Technology, and 
Operations (COSETO) will assume leadership of NOPP to implement a broad 
national strategy for ocean research, education, observation, 
exploration, and marine operations. NOPP's existing offices and 
committees will be incorporated within this structure. Ocean.US, the 
lead office for planning the Integrated Ocean Observing System (IOOS), 
and the Federal Oceanographic Facilities Committee which provides 
advice on oceanographic facilities, will both report to COSETO.

Creating a National Strategy for Ocean Science and Technology

    The United States needs a national strategy for ocean and coastal 
research, exploration, and marine operations that can help meet the 
ocean resource management challenges of the 21st century and ensure 
that useful products result from federal investments in ocean research. 
Much more needs to be known about how marine ecosystems function on 
varying spatial scales, how human activities affect marine ecosystems 
and how, in turn, these changes affect human health. Coordinated and 
enhanced research activities and marine operations are needed to:

        <bullet>  understand biological, physical, and chemical 
        processes and interactions

        <bullet>  maintain overall ecosystem health and biological 
        diversity

        <bullet>  observe, monitor, assess, and predict environmental 
        events and long-term trends

        <bullet>  explore the ocean depths for new resources

        <bullet>  map ocean and coastal areas for safe navigation and 
        resource management

    Furthermore, the ocean and coastal environment is rife with 
conflicts among competing users and between groups of people applying 
different sets of values to the same issues. To resolve these 
conflicts, information is needed not only about the natural environment 
but also about relevant social, cultural, and economic factors.
    Better coordination and increased support of ocean science and 
technology activities nationwide will help the United States to address 
numerous management challenges, and will position the Nation to quickly 
tackle new issues as they emerge.
Advancing Ocean and Coastal Research
    The United States has a wealth of ocean research expertise spread 
across a network of government and industry laboratories and world-
class universities, colleges, and marine centers. With strong federal 
support, these institutions made the United States the world leader in 
oceanography during the 20th century. However, a leader cannot stand 
still. Ocean and coastal management issues continue to grow in number 
and complexity, new fields of study have emerged, new interdisciplinary 
approaches are being tried, and there is a growing need to understand 
the ocean on a global and regional scale. All this has created a 
corresponding demand for high-quality scientific information. And while 
the need for increased information continues to grow, the federal 
investment in ocean research has stagnated in recent decades.
    The current annual federal investment in marine science is well 
below the level necessary to address adequately the Nation's needs for 
coastal and ocean information. Unless funding increases sharply, the 
gap between requirements and resources will continue to grow and the 
United States will lose its position as the world's leader in ocean 
research.
    Congress should double the federal ocean and coastal research 
budget over the next five years, from the 2004 level of approximately 
$650 million to $1.3 billion per year. As part of this increase, the 
National Ocean Council or Congress should:

        <bullet>  fund the research component of the regional ocean 
        information programs to provide practical, management-oriented 
        information at regional, State, and local levels;

        <bullet>  create a national program for social science and 
        economic research to examine the human dimensions and economic 
        value of the Nation's oceans and coasts, with funding of at 
        least $8-$10 million a year;

        <bullet>  establish a joint Oceans and Human Health Initiative 
        funded at $28 million a year;

        <bullet>  significantly increase the budget of the National Sea 
        Grant College Program.

    To ensure that increased investments are used wisely and that 
important research activities continue, federal agencies will need to 
create long-term strategic plans. A mechanism is required to coordinate 
federally-funded ocean research, support long-term projects, and create 
partnerships throughout all agencies and sectors. Transparent and 
comprehensive research plans would achieve these goals and ensure that 
research results can be translated into operational products in a 
timely manner. The National Ocean Council should develop a national 
ocean research strategy that reflects a long-term vision, promotes 
advances in basic and applied ocean science and technology, and guides 
relevant agencies in developing ten-year science plans and budgets.
Ocean Exploration
    About 95 percent of the ocean floor remains unexplored, much of it 
located in harsh environments such as the polar latitudes and the 
Southern Ocean. Experience teaches us, however, that these vast and 
remote regions teem with undiscovered species and resources. On 
virtually every expedition, oceanographers discover fascinating new 
creatures. Advances in deep-sea technologies have also made it easier 
to locate shipwrecks and historical artifacts lost in the ocean depths, 
such as the stunning discovery of the RMS Titanic in 1985. The 
continued exploration of marine archaeological sites will help us to 
better understand human history and our global cultural heritage.
    Very little is known about the ocean depths due primarily to the 
lack of a long-term, large-scale national commitment to ocean 
exploration. In 2000, recommendations from the President's Panel on 
Ocean Exploration led to the establishment of the Office of Exploration 
within NOAA, at a modest funding level of $4 million in fiscal year 
2001, and $14 million in each of fiscal years 2002 and 2003. This 
program is helping NOAA to fulfill its applied science, environmental 
assessment, and technology development responsibilities; although the 
program's small budget and agency-specific focus limit its 
effectiveness.
    NOAA and NSF, by virtue of their missions and mandates, are well 
positioned to lead a global U.S. ocean exploration effort. NOAA 
currently runs the Office of Ocean Exploration, but NSF's focus on 
basic research provides an excellent complement to NOAA's more applied 
mission. Working together, the two agencies have the capacity to 
systematically explore and conduct research in previously unexamined 
ocean environments. To succeed, coordination, joint funding, and 
interactions with academia and industry will be essential. Congress 
should appropriate significant funding for an expanded national ocean 
exploration program and the National Oceanic and Atmospheric 
Administration and the National Science Foundation should be designated 
as the lead agencies. An expanded national ocean exploration program 
will require a budget of approximately $110 million annually, plus 
additional funds for required infrastructure.
Mapping, Charting, and Assessments
    The need for routine mapping, monitoring, and assessment of U.S. 
waters has grown significantly in the past two decades. Accurate, up-
to-date maps and charts of harbors, coastlines, and the open ocean are 
necessary for many activities, including shipping, military operations, 
and scientific research. In addition, expanded regulatory regimes rely 
heavily on routine assessments of living and nonliving marine resources 
and water quality. Modern sensor technologies, which can detect new 
variables in greater detail in the water column and sea floor, have 
improved our ability to follow changing ocean and terrestrial dynamics. 
But as these new technologies are implemented, they need to be 
calibrated against previous methods, as well as with each other, to 
provide useful environmental characterizations and ensure the 
consistency of long-term statistical data sets.
    At least ten federal agencies, almost all coastal states, and many 
local agencies, academic institutions, and private companies are 
involved in mapping, charting, and assessing living and nonliving 
resources in U.S. waters. However, different organizations use varying 
methods for collecting and presenting these data, leading to disparate 
products that contain gaps in the information they present. Ideally, a 
variety of information (e.g., bathymetry, topography, bottom type, 
habitat, salinity, vulnerability) should be integrated into maps using 
Global Positioning System coordinates and a common geodetic reference 
frame. In addition, these maps should include living marine resources, 
energy resources, and environmental data when available, to create 
complete environmental characterizations necessary for developing and 
implementing science-based ecosystem-based management approaches.
    Coordination of the many existing federal mapping activities will 
increase efficiency and help ensure that all necessary surveys are 
conducted. Drawing upon the mapping and charting abilities found in the 
private sector and academia will also be necessary to achieve the best 
results at the lowest cost.
    The National Ocean Council should coordinate federal ocean and 
coastal resource assessment, mapping, and charting activities with the 
goal of creating standardized, easily accessible national maps that 
incorporate living and nonliving marine resource data along with 
bathymetry, topography, and other natural features.

Achieving a Sustained, Integrated Ocean Observing System

    About 150 years ago, this nation set out to create a comprehensive 
weather forecasting and warning network and today most people cannot 
imagine living without constantly updated weather reports. Recognizing 
the enormous national benefits that have accrued from the weather 
observing network, it is time to invest in a similar observational and 
forecasting capability for the oceans. This system would gather 
information on physical, geological, chemical, and biological 
parameters for the oceans and coasts, conditions that affect--and are 
affected by--humans and their activities. The United States currently 
has the scientific and technological capacity to develop a sustained, 
national Integrated Ocean Observing System (IOOS) that will support and 
enhance the Nation's efforts for:

        <bullet>  improving the health of our coasts and oceans;

        <bullet>  protecting human lives and livelihoods from marine 
        hazards;

        <bullet>  supporting national defense and homeland security 
        efforts;

        <bullet>  measuring, explaining, and predicting environmental 
        changes;

        <bullet>  providing for the sustainable use, protection, and 
        enjoyment of ocean resources.

    The National Ocean Council should make the development and 
implementation of a sustained, national Integrated Ocean Observing 
System a central focus of its leadership and coordination role. The 
United States simply cannot provide the economic, environmental, and 
security benefits listed above, achieve new levels of understanding and 
predictive capability, or generate the information needed by a wide 
range of users, without implementing the IOOS.
    The IOOS is based on two components: 1) open ocean observations 
conducted in cooperation with the international Global Ocean Observing 
System (GOOS) and 2) a national network of coastal observations 
conducted at the regional level. The coastal component will include the 
U.S. exclusive economic zone, the Great Lakes, and coastal and 
estuarine areas.
    A strong national governance structure is required to establish 
policy and provide oversight for all components of the IOOS and to 
ensure strong integration among the regional, national, and global 
levels. Interagency coordination and consensus through the National 
Ocean Council and Ocean.US will be essential. While regional systems 
will retain a level of autonomy, achievement of the IOOS with 
nationwide benefits will require the regional systems to follow some 
national guidelines and standards. In addition, developers of the IOOS 
must ensure that the global component is not minimized and that the 
connectivity with the GOOS, including U.S. funding and leadership, 
remains strong and viable.
Formalizing Ocean.US
    Ocean.US has made significant progress as the lead organization for 
the design and implementation of the national IOOS. However, a 
fundamental problem current exists in that Ocean.US has a number of 
responsibilities without any real authority or control over budgets. 
Its ephemeral existence under the Memorandum of Agreement which created 
it, its dependence on personnel detailed from the member agencies, and 
its lack of a dedicated budget severely detract from its stature within 
the ocean community and its ability to carry out its responsibilities. 
Congress should formally establish Ocean.US under the National Ocean 
Council structure so that it may effectively advise the NOC and achieve 
its coordination and planning mandates. The office requires consistent 
funding and dedicated full-time staff with the expertise and skills 
needed to ensure professional credibility. In addition, outside experts 
on rotational appointments could help Ocean.US better meet its 
responsibilities.
Coordinating Regional Observing Systems
    Ocean.US envisions the creation of a nationwide network of regional 
ocean observing systems that will form the backbone of coastal 
observations for the IOOS. Although Ocean.US has proposed the creation 
of Regional Associations, coordinated through a national federation, as 
the governing bodies of the regional systems, this concept is 
unnecessarily narrow. To fully address the needs of coastal managers, 
ocean observations need to be integrated into other information 
gathering activities such as regionally-focused research, outreach and 
education, and regional ecosystem assessments. Thus, the proposed 
regional ocean information programs provide a more comprehensive 
mechanism for developing and implementing regional ocean observing 
systems, in coordination with their broader responsibilities. Regular 
meetings among all the regional ocean information programs and Ocean.US 
will be important for providing regional and local input into 
developing requirements of the national IOOS.
Reaching Out to the User Community
    The IOOS must meet the needs of a broad suite of users, including 
the general public. To get the most out of the IOOS, resource managers 
at federal, State, regional, territorial, tribal, and local levels will 
need to supply input about their information needs and operational 
requirements and provide guidance on what output would be most useful. 
Other users, including educators, ocean and coastal industries, 
fishermen, and coastal citizens, must also have a visible avenue for 
providing input. Ocean.US and the regional ocean information programs 
will need to devote significant time and thought to proactively 
approaching users and promoting public awareness of the enormous 
potential of the IOOS.
Planning Space-based Observations
    An integral part of the national IOOS are the space-borne sensors 
that provide comprehensive, real-time, widespread coverage of ocean 
conditions and features. However, implementing sustained observations 
from space requires intense planning with long lead times. Given the 
cost, the time frame for constructing and launching satellites, and the 
inability to modify satellites once in orbit, five- to ten-year plans 
are required to ensure that satellite observations will be available on 
a continuous basis and employ the most useful and modern sensors. 
Ocean.US and NOAA must work with NASA to ensure that ongoing satellite 
operations are fully integrated into the national IOOS.
    Both NOAA and NASA currently operate civilian, space-based, Earth 
observing programs that measure terrestrial, atmospheric, and oceanic 
variables. NOAA's primary mission in this area is to provide sustained, 
operational observations for monitoring and predicting environmental 
conditions and long-term changes, with a focus on weather and climate. 
In contrast, NASA's mission is to advance research efforts and sensor 
development. A NASA project can last from a few days to a few years, 
and NASA has repeatedly asserted that it is not in the business of 
providing data continuity. In many instances, the lifetime of a NASA 
satellite, and its continued ability to collect and transmit data, 
outlasts its funding, resulting in premature termination at odds with 
the pressing demands for data in the operational context. Thus NASA's 
efforts have not, and will not, result in the sustained capabilities 
needed for the national IOOS.
    Congress should transfer the operation of NASA's Earth 
environmental observing satellites, along with associated resources, to 
NOAA to achieve continuous data collection. NOAA and NASA should work 
together to plan future missions and then ensure the smooth transition 
of each Earth environmental observing satellite after its launch. By 
consolidating Earth, and particularly ocean, observing satellite 
missions in NOAA, more seamless, long-term planning will be possible, 
resulting in a smooth concept-to-operations data collection process.
Information Product Development
    To justify large federal investments in the IOOS, the system must 
result in tangible benefits for a broad and diverse user community, 
including the general public, scientists, resource managers, emergency 
responders, policy-makers, private industry, educators, and officials 
responsible for homeland security. National Weather Service and 
commercial meteorological products have applications ranging from 
scientific research to human safety, transportation, agriculture, and 
simple daily forecasts. Similarly, IOOS products should be wide-ranging 
and based on the needs of regional and local organizations and 
communities, as well as national needs. The regional ocean information 
programs should help produce information products of benefit to 
regional, State, and local managers and organizations. These regional 
programs will also provide important feedback to national forecasters 
and modelers about ways to make national IOOS products more useful.
Funding the IOOS
    To fulfill its potential, the IOOS will require stable funding over 
the long haul. The lack of long-term funding for existing regional 
ocean observing systems has contributed to their isolation and 
piecemeal implementation. But consistent funding will help ensure that 
the American public receives the greatest return for its investment in 
the form of useful information, reliable forecasts, and timely 
warnings. The estimated start-up costs for the implementation of the 
national IOOS over the first five years is close to $2 billion.
    Continuous improvements to IOOS observation and prediction 
capabilities will also require sustained investments in technology 
development. Considering the costs of sensor development, 
telecommunications, computer systems, and improvements in modeling and 
prediction capabilities, annual costs for operating, maintaining, and 
upgrading the national IOOS are estimated to be $650-$750 million a 
year.
Whole Earth Observations
    The IOOS cannot exist as a stand-alone system, developed without 
considering associated observations. Rather, it should be integrated 
with other environmental observing systems to link weather, climate, 
terrestrial, biological, watershed, and ocean observations into a 
unified Earth Observing System. The National Ocean Council should 
oversee coordination of the IOOS with other existing and planned 
terrestrial, watershed, atmospheric, and biological observation and 
information collection systems, with the ultimate goal of developing a 
national Earth Observing System. Such a system would improve 
understanding of environmental changes, processes, and interactions, 
making ecosystem-based management possible.

Enhancing Ocean Infrastructure and Technology Development

    A robust infrastructure with cutting-edge technology forms the 
backbone of modern ocean science. It supports scientific discovery and 
facilitates application of those discoveries to the management of ocean 
resources. The nation has long relied on technological innovation, 
including satellites, early-warning systems, broadband 
telecommunications, and pollution control devices to advance economic 
prosperity, protect life and property, and conserve natural resources. 
Ocean research, exploration, mapping, and assessment activities will 
continue to rely on modern facilities and new technologies to acquire 
data in the open ocean, along the coasts, in polar regions, on the sea 
floor, and even from space.
    The three major components of the Nation's scientific 
infrastructure for oceans and coasts are:

        <bullet>  Facilities--land-based laboratories and ocean 
        platforms, including ships, airplanes, satellites, and 
        submersibles, where research and observations are conducted;

        <bullet>  Hardware--research equipment, instrumentation, 
        sensors, and information technology systems used in the 
        facilities; and

        <bullet>  Technical Support--the expert human resources needed 
        to operate and maintain the facilities and hardware as well as 
        participating in data collection, assimilation, analysis, 
        modeling, and dissemination.

    The number and types of assets included in the national ocean 
science infrastructure are extensive and cover a wide range of federal, 
State, academic, institutional, and private-sector entities.
    Together, they represent a substantial public and private 
investment that has made possible great strides in modern oceanography 
over the last 50 years. But a recent assessment of these assets 
revealed that significant components of the U.S. ocean infrastructure 
are aged or obsolete and that, in some cases, current capacity is 
insufficient to meet the needs of the ocean science and operational 
community. The National Ocean Council's Committee on Ocean Science, 
Education, Technology, and Operations should develop a national ocean 
and coastal infrastructure and technology strategy to achieve and 
maintain an appropriate mix of federally-supported, modern ocean 
facilities that meet the Nation's needs for quality resource 
management, science, and assessment.
Funding Needed Assets
    There are currently several critically needed components of the 
ocean science and technology infrastructure, including:

        <bullet>  Surface vessels, such as new University National 
        Oceanographic Laboratory System vessels and fishery research 
        ships

        <bullet>  Undersea vehicles, including an array of manned, 
        remotely operated, and autonomous submersibles

        <bullet>  Aircraft, both manned and unmanned

        <bullet>  Modern laboratories and instrumentation

        <bullet>  Dedicated ocean exploration platforms

        <bullet>  Telecommunications technology

        <bullet>  Environmental and biological sensors

    Congress should establish a modernization fund to support these 
critical ocean infrastructure and technology needs. Such a fund would 
be used to build or upgrade facilities and acquire related 
instrumentation and equipment. It would also provide a mechanism to 
coordinate similar equipment purchases across agencies, where feasible, 
creating significant economies of scale. Current and future spending 
priorities for the fund should be based on the National Ocean Council's 
ocean and coastal infrastructure and technology strategy.
Transferring Technology
    The development of needed ocean technologies--whether identified by 
the national strategy or through interagency communication--requires 
directed funding and coordination. Federal agency programs will benefit 
by having a centralized office responsible for accelerating the 
transition of technological advances made by federal and academic 
laboratories into routine operations.
    NOAA should create, and Congress should fund, an Office of 
Technology to expedite the transition of experimental technologies into 
operational applications. This office should work closely with academic 
institutions, the regional ocean information programs, the National 
Science Foundation, the U.S. Navy, the National Aeronautics and Space 
Administration, and other relevant agencies to achieve this mission.

Modernizing Ocean Data and Information Products

    Ocean and coastal data are essential for understanding marine 
processes and resources. They are the foundation for the science-based 
information on which resource managers depend. But storing and 
processing large amounts of data, and converting them into information 
products useful to a broad community of end users, remains a huge 
challenge.
    There are two major challenges facing data managers today: the 
exponentially growing volume of data, which continually strains data 
ingestion, storage, and assimilation capabilities; and the need for 
timely access to these data by the user community in a variety of 
useful formats. Meeting these challenges will require a concerted 
effort to integrate and modernize the current data management system. 
The ultimate goal of improved ocean data management should be to 
effectively store, access, integrate, and utilize a wide and disparate 
range of data needed to better understand the environment and to 
translate and deliver scientific results and information products in a 
timely way.
Interagency Coordination
    An interagency group, dedicated to ocean data and information 
planning, is needed to enhance coordination, effectively use existing 
resources for joint projects, schedule future software and hardware 
acquisitions and upgrades, and oversee strategic funding.
    Congress should amend the National Oceanographic Partnership Act to 
create and fund Ocean.IT as the lead federal interagency planning 
organization for ocean and coastal data and information management. 
Ocean.IT should consist of representatives from all federal agencies 
involved in ocean data and information management, be supported by a 
small office, and report to the National Ocean Council's Committee on 
Ocean Science, Education, Technology, and Operations.
    Ocean.IT should coordinate the development of a viable, long-term 
data management strategy which includes:

        <bullet>  The implementation of an interagency plan to improve 
        access to data at the national data centers, Distributed Active 
        Archive Centers, and other discipline-based centers. This plan 
        will need to be appropriately integrated with other national 
        and international data management plans, including those for 
        the Integrated Ocean Observing System and Global Ocean 
        Observing System.

        <bullet>  Opportunities to partner with the private sector to 
        enhance environmental data and information management 
        capabilities.

    This organization should not have an operational role, but instead 
should be responsible solely for interagency planning and coordination, 
similar to the role of Ocean.US for the IOOS.
Informational Product Development
    Compared to a few decades ago, an impressive array of data and 
information products for forecasting ocean and coastal conditions is 
now available from a wide range of sources. A mechanism is now needed 
to bring these data together, including the enormous amounts of 
information that will be generated by the national IOOS, and use these 
data to generate and disseminate products beneficial to large and 
diverse audiences.
    The National Oceanic and Atmospheric Administration and the U.S. 
Navy should establish a joint ocean and coastal information management 
and communications program to generate information products relevant to 
national, regional, State, and local needs on an operational basis. 
This program should build on the Navy's model for operational 
oceanography and take advantage of the strengths of both agencies to 
reduce duplication and more effectively meet the Nation's information 
needs. This partnership will also allow for the prompt incorporation of 
classified military data into informational products without publicly 
releasing the raw data. A NOAA-Navy joint program would rapidly advance 
U.S. coastal and ocean analyses and forecasting capabilities using all 
available physical, biological, chemical, and socioeconomic data.
    Interactions between private companies and the NOAA-Navy national 
ocean and coastal information management and communications program 
could lead to the production of a wide range of general and tailored 
forecast and warning products. An interface between national 
forecasters at the NOAA-Navy program and the regional ocean information 
programs would also help identify ocean and coastal informational 
products of particular value at the regional and local levels.

PROMOTING LIFELONG OCEAN EDUCATION

    Education has provided the skilled and knowledgeable workforce that 
made America a world leader in technology, productivity, prosperity, 
and security. However, the emergence of rampant illiteracy about 
science, mathematics, and the environment now threaten the future of 
America, its people, and the oceans on which we rely.
    Testing results suggest that, after getting off to a good start in 
elementary school, by the time U.S. students graduate from high school 
their achievement in math and science falls well below the 
international average. Ocean-related topics offer an effective tool to 
keep students interested in science, increase their awareness of the 
natural world, and boost their academic achievement in many areas. In 
addition, the links between the marine environment and human experience 
make the oceans a powerful vehicle for teaching history, culture, 
economics, and other social sciences. Yet teachers receive little 
guidance on how they might use exciting ocean subjects to engage 
students, while adhering to the national and State science and other 
education standards that prescribe their curricula.
    In addition, a 1999 study indicated that just 32 percent of the 
Nation's adults grasp simple environmental concepts, and even fewer 
understand more complex issues, such as ecosystem decline, loss of 
biodiversity, or watershed degradation. It is not generally understood 
that nonpoint source pollution threatens the health of our coastal 
waters, or that mercury in fish comes from human activities via the 
atmosphere. Few people understand the tangible value of the ocean to 
the Nation or that their own actions can have an impact on that 
resource. From excess applications of fertilizers, pesticides, and 
herbicides on lawns, to the trash washed off city streets into rivers 
and coastal waters, ordinary activities contribute significantly to the 
degradation of the marine environment. Without an acknowledgement of 
the impacts associated with ordinary behavior and a willingness to take 
the necessary action--which may incur additional costs--achieving a 
collective commitment to more responsible lifestyles and new policies 
will be difficult.
    Excellent lifelong education in marine affairs and sciences is 
essential to raising public awareness of the close connection between 
the oceans and humans, including our history and culture. This 
awareness will result in better public understanding of the connections 
among the ocean, land, and atmosphere, the potential benefits and costs 
inherent in resource use, and the roles of government and citizens as 
ocean stewards.
Ocean Stewardship
    To successfully address complex ocean- and coastal-related issues, 
balance the use and conservation of marine resources, and realize 
future benefits from the ocean, an interested, engaged public will be 
needed. The public should be armed not only with the knowledge and 
skills needed to make informed choices, but also with a sense of 
excitement about the marine environment. Individuals should understand 
the importance of the ocean to their lives and should realize how 
individual actions affect the marine environment. Public understanding 
of human impacts on the marine environment should be balanced with 
recognition of the benefits to be derived from well-managed ocean 
resources. Because of the connection among the ocean, the atmosphere, 
and the land, inland communities need to be just as informed as seaside 
communities.
Science Literacy
    Ocean-related education has the potential to stem the tide of 
science illiteracy threatening to undermine the Nation's health, 
safety, and security. Children have a natural curiosity about the world 
around them and this allure could be parlayed into higher achievement 
in other subjects as well. The influence of the ocean on nearly every 
aspect of daily life, and the central role it plays in the development 
of the Nation, make ocean-based studies ideal for enhancing student 
performance in areas such as geography, history, economics, policy, and 
law. Strengthening science literacy, therefore, encompasses not only 
natural sciences, but a full suite of social sciences.
Future Ocean Leaders
    The nation needs a diverse, knowledgeable, and adequately prepared 
workforce to enhance understanding of the marine environment and make 
decisions regarding complex ocean- and coastal-related issues. The 
education of the 21st century ocean-related workforce will require not 
only a strong understanding of oceanography and other disciplines, but 
an ability to integrate science concepts, engineering methods, and 
socio-political considerations. Resolving complex ocean issues related 
to economic stability, environmental health, and national security will 
require a workforce with diverse skills and backgrounds. Developing and 
maintaining such a workforce will rely, in turn, on programs of higher 
education that prepare future ocean professionals at a variety of 
levels and in a variety of marine-related fields.

Coordinating Ocean Education

    Although not all ocean-related federal agencies have a specific 
education mission, most have made efforts to reach out to students, 
teachers, and the public to inform them about ocean issues, sometimes 
by adding ocean-related components to larger science and environmental 
education efforts. And while it is valuable for ocean-related 
information to be included as part of broader environmental and science 
education efforts, it is also important to support educational efforts 
that focus specifically on oceans, coasts, and the human relationship 
with them.
    Federal programs can provide many opportunities for ocean-related 
education, but ultimately education is a State responsibility, and 
control is exerted primarily at the local level. Therefore, the 
interaction between education administrators at the State, district, 
and individual school levels and federal agencies will be fundamental 
to the success of any effort to use ocean-based examples to enhance 
student achievement. Aquariums, zoos, and other informal education 
centers also provide the public with opportunities to learn about the 
marine environment and should be integral components of a national 
effort to increase ocean-related education.
    Despite the existence of many positive efforts, ocean education 
remains a patchwork of independently conceived and implemented programs 
and activities. These efforts cannot provide the nationwide momentum 
and visibility needed to promote sustained ocean education for 
students, teachers, and the general public. Within the Federal 
Government, there is little discussion of ocean education, even among 
those agencies with the greatest responsibility for ocean issues. 
Different programs and funding mechanisms are not coordinated and 
resources are seldom leveraged. Even within individual agencies, 
offices that have education components often do not collaborate or 
communicate.
    To strengthen ocean education and coordinate federal education 
efforts, the National Ocean Council should establish a national ocean 
education office (Ocean.ED) under its Committee on Ocean Science, 
Education, Technology, and Operations. This office should coordinate 
and integrate federal agency programs and leverage resources; serve as 
a central, visible point of contact for K-12, university-level, and 
informal education partners; and work with all parties to develop 
coherent, comprehensive planning for ocean education efforts.
    To fulfill its coordination activities, Congress should provide 
dedicated funding for Ocean.ED operations and program implementation. 
However, this national effort is not meant to replace other successful 
programs and activities, but rather provide a mechanism for 
communication, coordination, and joining of forces.
Developing Ocean Curricula
    The value of ocean-based learning must be recognized within local 
school districts to create a demand for ocean-related education 
products. Federal, regional, State, and local education professionals 
need to advocate for the inclusion of ocean-based examples in State and 
local education requirements and testing. Collaborative efforts will be 
needed to develop research-based, ocean-related curricular materials 
that are aligned with State and national educational standards and meet 
the needs of teachers. Ocean.ED, working with State and local education 
authorities and the research community, should coordinate the 
development and adoption of ocean-related materials and examples that 
meet existing education standards.
Teaching the Teachers
    Higher expectations for our youth mean higher expectations for 
teachers as well. Students cannot achieve without instruction by 
capable teachers who are knowledgeable in the topics being presented. 
Thus, improving the quality of science and math education must begin 
with improving preparation of undergraduates studying to be teachers 
(referred to as pre-service teachers) and professional development for 
certified teachers in the classroom (referred to as in-service 
teachers).
    The ocean research community is brimming with potential for 
engaging K-12 educators in the excitement and satisfaction of the 
scientific enterprise, and the Nation's research infrastructure 
provides significant opportunities for formal preparation, hands-on 
involvement, and teacher certification. Although several public and 
private sector programs can provide teachers with research experience 
in ocean-related topics, access to these programs is quite limited, 
very few have long-term, stable funding, and the different efforts are 
poorly coordinated. Ocean.ED, working with academic institutions and 
local school districts, should help establish stronger and more 
effective relationships between the research and education communities 
to expand professional development opportunities for teachers and 
teacher educators.
Bringing Oceans Education to All Students
    Through field and laboratory experiments, oceans offer a natural 
avenue for students to gain first-hand exposure to science while 
developing an awareness of the importance of the ocean. Not all 
students are near, or able to travel to, the shore, but new ocean 
research technologies represent a tremendous and virtually untapped 
avenue to overcome this limitation, allowing students anywhere to be 
involved in real oceanographic investigations. The same remote-access 
technologies that make advanced ocean research possible can also help 
students and teachers participate in collecting, analyzing, and 
distributing ocean data. Enabling students to interact with practicing 
scientists, even if they are thousands of miles away, can help create a 
lifelong affinity for learning.
    Social, economic, and cultural factors can also play an influential 
role in inhibiting a student's access to education opportunities, 
especially science-based opportunities. These factors are unusually 
strong among minority students and other groups that have been 
traditionally under-represented and under-served in scientific fields, 
including marine sciences. Repairing this broken link will depend on 
exposing minority students to ocean-related studies early in their 
education, continuing that exposure throughout their school years, and 
demonstrating the possibilities and rewards of a career in ocean-
related fields.
    Federal agencies and academic institutions should find ways to 
provide all students with opportunities to participate in ocean 
research and exploration, virtually or in person, including summer 
programs, field trips, remote participation in ocean expeditions, and, 
most important, after-school activities. Mentoring, especially near-
peer guidance, is critical and should be a component of any student-
oriented program. Ocean.ED should promote partnerships among school 
districts, institutions of higher learning, aquariums, science centers, 
museums, and private laboratories to develop more opportunities for 
students to explore the marine environment, both through virtual means 
and hands-on field, laboratory, and at-sea experiences. Ocean.ED should 
also ensure that ocean-based educational programs and materials 
acknowledge cultural differences and other aspects of human diversity, 
resulting in programs that expose students and teachers from all 
cultures and backgrounds to ocean issues.
Drawing Students into the Field of Ocean Science and Management
    The ocean community must compete with countless other professions 
in attracting the talent it needs. Success lies, in part, in promoting 
marine-related career opportunities among undergraduate students from a 
broad range of disciplines. First-hand experiences in marine fields can 
be influential in demonstrating the possibilities and rewards of an 
ocean-related career.
    Intellectually stimulating and financially attractive options for 
pursuing graduate studies in an ocean-related field must follow, so a 
student's developing interest in ocean studies is not overshadowed by 
other professions that actively pursue, encourage, and support their 
future leaders. Ocean sciences have another potentially important role 
to play at the undergraduate level. Marine science courses can be 
attractive options for non-science majors who need to fulfill science 
requirements for graduation, presenting an excellent opportunity to 
raise general ocean awareness.
    The National Oceanic and Atmospheric Administration, National 
Science Foundation, and Office of Naval Research should support 
colleges and universities in promoting introductory marine science 
courses to expose students, including non-science majors, to these 
subjects.
Training Ocean Professionals
    Because ocean science is fundamentally interdisciplinary, well-
trained ocean professionals can find excellent careers in many areas 
including engineering, economics, education, law, management, policy, 
science, and technology. Individuals considering or pursuing graduate 
studies in a marine field should be aware of these options, and 
exploration of nontraditional marine areas should be encouraged. 
Equally important, professionals educated and trained in other fields 
should be made aware of the exciting opportunities available to them in 
marine-related fields.
    Ocean.ED should guide and promote the development of the Nation's 
ocean-related workforce by:

        <bullet>  promoting student support, diversified educational 
        opportunities, and investment in innovative approaches to 
        graduate education that prepare students for a broad range of 
        careers in academia, government, and industry;

        <bullet>  encouraging graduate departments of ocean sciences 
        and engineering to experiment with new or redesigned programs 
        that emphasize cross-disciplinary courses of study.

    Complementing the need to create an adequate workforce is the need 
to sustain and enhance that workforce through professional development 
and continuing education opportunities. Learning does not stop once the 
formal education process is complete; ocean professionals in all fields 
must be provided the means and liberty to continually build upon their 
knowledge and skills throughout their careers.
Informing the Public
    Public information needs are as varied as our population is 
diverse. Some individuals will benefit from detailed information on how 
specific issues directly affect their jobs or business. Others may need 
information presented in a language and media tailored to their culture 
and community. Still others seek advice on how to alter their own 
activities to support responsible ocean stewardship. This information 
is as critical for those who live in the heartland as for those who 
live near the shore.
    Informal education requires outreach programs, in partnership with 
local communities, to make contact with individuals where they live and 
work, regarding issues that affect how they live and work, in a style 
that speaks to them. Information supplied to the public should be 
timely and accurate. It should also be supported by a system that 
allows for follow-up and the acquisition of additional information or 
guidance. Ocean.ED, working with other appropriate entities, should 
enhance existing and establish new mechanisms for developing and 
delivering relevant, accessible information and outreach programs to 
enhance community education.

Regional Outreach--Connecting the Research and Education Communities

    Collaboration between the research and education communities must 
be improved if ocean-based information, including ocean data and new 
discoveries, is to be transformed into exciting and accessible 
materials to stimulate student achievement and enhance public 
awareness. Some efforts do exist to make these connections, most 
notably through the Centers for Ocean Sciences Education Excellence 
(COSEE) and National Sea Grant College Program.
COSEE
    The COSEE network, supported primarily through NSF, includes 
regional centers and a central coordinating office that work to 
integrate oceanographic data and information into high-quality 
curricular materials, to provide ocean scientists with opportunities to 
learn more about educational needs and requirements, to provide K-12 
teachers with the knowledge and skills they need to effectively 
incorporate ocean-related information into their lessons, and to 
deliver ocean-related information to the public. Though recognized as a 
model for enhancing education and bringing accessible ocean-related 
information to the public, COSEE currently has only seven regional 
centers, each serving a limited number of schools in its area. The 
program does not have the level of committed, long-term support 
required to fully realize it's potential.
    While COSEE is currently a National Science Foundation program, 
placing it within the National Ocean Council (NOC) structure would 
capitalize on the tremendous potential to enhance and expand the 
program. The NOC and the NSF should relocate COSEE within the larger 
NOC structure as a program to be organized, overseen, and funded 
through Ocean.ED. In addition, the number of COSEE regional offices 
should be tripled to 21 with each center receiving at least $1.5 
million a year for an initial five-year period.
National Sea Grant College Program
    The National Sea Grant College Program was created by Congress in 
1966 as a partnership between the Nation's universities and NOAA. Sea 
Grant programs sponsor research, education, outreach, and technology 
transfer through a network of Sea Grant Colleges and research 
institutions.
    Sea Grant has forged connections between the research and education 
communities since its inception. Its programs provide K-12 teacher 
preparation and professional development programs consistent with State 
education standards, offer hands-on educational experiences for 
students, and develop research-based curricular and communications 
materials for students and the public. The Sea Grant network relies on 
longstanding local partnerships, with many connections to populations 
that have been traditionally under-represented and under-served by the 
ocean community.
    Despite its successes, however, Sea Grant is currently an under-
utilized resource. The existing Sea Grant network requires increased 
funding to expand its roles and responsibilities, particularly in 
education and outreach. In particular, Sea Grant extension and 
communications programs, familiar to many resource managers and others 
in coastal communities, should become the primary mechanisms for 
delivering and interpreting information products developed through the 
regional ocean information programs

Specific Federal Responsibilities

    Each federal agency with ocean-related responsibilities--most 
notably NOAA, NSF, and Office of Naval Research--has a responsibility 
to help ensure a vibrant ocean-related workforce. These agencies need 
to develop interrelated and crosscutting educational opportunities at 
the undergraduate, graduate, and postdoctoral levels.
National Oceanic and Atmospheric Administration
    NOAA should be particularly concerned with creating a pipeline of 
students in areas it identifies to be of critical importance to the 
agency. Opportunities should include both research experiences, 
especially exposure to mission-oriented research, and experiences 
beyond the research arena. Student exposure can begin as early as the 
junior or senior level in high school, continuing through postdoctoral 
education. A range of programs will help identify and recruit the best 
and brightest to careers in marine-related fields and ensure a 
continuing source of essential human capital. At the graduate and 
postdoctoral levels, NOAA should support fellowships and traineeships 
that emphasize interdisciplinary approaches and real-world experiences 
beyond the university setting.
    NOAA should establish a national ocean education and training 
program, patterned after the National Institutes of Health model, 
within its Office of Education and Sustainable Development to provide 
diverse, innovative ocean-related education opportunities at the 
undergraduate, graduate, and postdoctoral levels.
    In addition, NOAA should establish competitive ``Distinguished 
Professorships in Marine Studies'' within Sea Grant Colleges or other 
leading institutions of higher education with a demonstrated commitment 
to marine programs. Disciplines of interest to NOAA for such 
professorships could include fisheries science, climate research, 
atmospheric studies, and marine resource economics, policy, 
aquaculture, genomics, education, and ecosystem studies. The intent 
would be to create a cadre of distinguished NOAA endowed chairs at 
universities around the Nation.
National Science Foundation
    At the undergraduate level, NSF's Research Experience for 
Undergraduates program could be expanded to include more marine-related 
experiences. At the graduate and postdoctoral levels, opportunities 
could include fellowships that encourage cross-disciplinary research, 
interdisciplinary traineeships, and master's degree fellowships. 
Programs such as NSF's Integrative Graduate Education and Research 
Training program, Centers for Learning and Teaching, and Graduate 
Teaching Fellows in K-12 Education should be supported and enhanced 
both within NSF and adopted by other federal ocean agencies. The 
National Science Foundation's Directorates of Geosciences, Biological 
Sciences, and Education and Human Resources should develop cooperative 
programs to provide diverse educational opportunities at the 
undergraduate, graduate, and postdoctoral levels in a range of ocean-
related fields.
Office of Naval Research
    The success of the Navy depends on a well-developed understanding 
of the environment in which it operates. Understanding the ocean 
environment--including the atmosphere above it, the sea floor beneath 
it, and the coastlines that encircle it--will always be a core naval 
requirement. Thus the Navy should play a central role in ensuring 
support for the education of future generations of ocean professionals. 
The Office of Naval Research should reinvigorate its support of 
graduate education in ocean sciences and engineering. This could be 
partly accomplished by increasing the number of ocean-related awards 
made under ONR's National Defense Science and Engineering Graduate 
Fellowship Program.

SPECIFIC MANAGEMENT CHALLENGES

    Although the areas I discussed--improved governance through a new 
National Ocean Policy Framework, the incorporation of scientific 
information in decision-making, and broad public education--represent 
the overarching areas that this nation must address using the guiding 
principles I mentioned earlier, the U.S. Commission on Ocean Policy did 
not stop there in its deliberations and recommendations. The Commission 
also addressed a wide range of specific ocean management challenges--
challenges that will continue to be addressed individually, but which 
now must also become part of more ecosystem based management approach, 
applying the guiding principles throughout the management process. 
These individual ocean and coastal management challenges include: 
Linking the management of coasts and watersheds; Protecting life and 
property from natural hazards; Restoring and conserving habitat; Better 
managing sediments and shorelines; Supporting marine commerce and 
transportation; Reducing water pollution from all sources, including 
from vessels and through the introduction of marine debris; Preventing 
the introduction of invasive species; Sustainably managing our 
fisheries; Protecting marine mammals and other marine species; 
Conserving corals and corals reefs; Enabling the environmentally-sound 
development of marine aquaculture; Understanding and safeguarding 
Oceans and Human Health; and, developing offshore energy resources and 
marine minerals.

IMPROVING MANAGEMENT OF COASTS AND WATERSHEDS

    Let me begin by addressing some of the issues in our coastal areas. 
While coastal counties (located entirely or partially within coastal 
watersheds) comprise only 17 percent of the land area in the contiguous 
United States, they are home to more than 53 percent of the total U.S. 
population. Coastal population trends indicate average increases of 
3,600 people a day moving to coastal counties, reaching a total 
population of 165 million by 2015. These figures do not include the 180 
million people who visit the coast every year.
    Population growth and tourism bring many benefits to coastal 
communities, including new jobs and businesses and enhanced educational 
opportunities. The popularity of ocean and coastal areas increases 
pressures on these environments, creating a number of challenges for 
managers and decision-makers. Increased development puts more people 
and property at risk from coastal hazards, reduces and fragments fish 
and wildlife habitat, alters sedimentation rates and flows, and 
contributes to coastal water pollution.
    The pattern of coastal growth--often in scattered and unplanned 
clusters of homes and businesses--is also significant. Urban sprawl 
increases the need for infrastructure such as roads, bridges, and 
sewers, degrading the coastal environment while making fragile or 
hazard-prone areas ever more accessible to development. Because of the 
connections between coastal and upland areas, development and sprawl 
that occur deep within the Nation's watersheds also affect coastal 
resources.
    To reap economic benefits and mitigate pressures associated with 
growing coastal development, State and local governments needs more 
federal support to enhance their capacity to plan for and guide growth, 
and to employ watershed management approaches.
    A complex combination of individuals and institutions at all levels 
of government make decisions that cumulatively affect the Nation's 
ocean and coastal areas. These institutional processes determine where 
to build infrastructure, encourage commerce, extract natural resources, 
dispose of wastes, and protect or restore environmental attributes.
    Although most coastal management activities take place at State and 
local levels, coastal decision-making is also influenced by federal 
actions, including funding decisions and standard setting. Of the many 
federal programs that provide guidance and support for State and local 
decision-making, some address the management of activities and 
resources within designated geographic areas, while others address the 
management of specific resources, such as fisheries or marine mammals.
    The Coastal Zone Management Act (CZMA) is the Federal Government's 
principal tool for fostering comprehensive coastal management. The CZMA 
created the Coastal Zone Management Program CZM Program, a unique 
partnership between the Federal and coastal State governments, whose 
goal is to balance the conservation of the coastal environment with the 
responsible development of economic and cultural interests. The tools, 
assistance, and resources provided by the CZMA have enabled States and 
territories to increase their management capacity and improve decision-
making to enhance the condition of their coastal areas.
    However, the CZM Program can be strengthened in a number of ways, 
including by developing strong, specific, measurable goals and 
performance standards that reflect a growing understanding of the ocean 
and coastal environments and the need to manage growth in regions under 
pressure from coastal development. A large portion of federal funding 
should be linked to program performance with additional incentives 
offered to States that perform exceptionally well. In addition, a fall-
back mechanism is needed to ensure that national goals are realized 
when a State does not adequately participate or perform. Finally, the 
land-side boundaries of State coastal management programs should also 
be reconsidered. At a minimum, each State should set the inland extent 
of its coastal zone based on the boundaries of coastal watersheds.
    In addition to the CZM Program, other federal area-based coastal 
programs include NOAA's National Estuarine Research Reserve System and 
National Marine Sanctuaries Program; EPA's National Estuary Program; 
and Fish and Wildlife Service's Coastal Program and Coastal Barrier 
Resources System. These programs have made significant progress in 
managing coastal resources in particular locations, working with 
communities and decision-makers in those areas, and fostering improved 
coordination between different levels of government. However, because 
these programs generally operate in isolation from one another, they 
cannot ensure effective management of all ocean and coastal resources 
or achievement of broad national goals. As NOAA is strengthened through 
the multi-phased approach described earlier, consolidation of area-
based coastal resource management programs will result in more 
effective, unified strategies for managing these areas, an improved 
understanding of the ocean and coastal environment, and a basis for 
moving toward an ecosystem-based management approach.
    Federal programs related to transportation, flood insurance, 
disaster relief, wetlands permitting, dredging, beach nourishment, 
shoreline protection, and taxation also exert a profound influence on 
the coast. While these laws and policies address specific issues, and 
have each provided societal benefits, in many cases federal activities 
under their purview have inadvertently led to degradation of coastal 
environments. For this reason, policies should be re-evaluated to 
ensure consistency with national, regional, and State goals aimed at 
achieving economically and environmentally sustainable development.

Linking Coastal and Watershed Management

    For well over a decade there has been a growing interest in 
watershed management. This approach addresses water quality and 
quantity issues by acknowledging the hydrologic connections between 
upstream and downstream areas and considering the cumulative impacts of 
all activities that take place throughout a watershed. Watersheds are 
optimal organizing units for dealing with the management of water and 
closely related resources. The benefits of a watershed focus have also 
been recognized at the State, regional, national, and international 
levels through successful efforts such as the Chesapeake Bay Program, 
the Delaware River Basin Commission, and the bi-national Great Lakes 
Commission. At the federal level, EPA has supported efforts to address 
a variety of problems at the watershed level.
    Many watershed groups are formed at the local level by community 
members concerned about water quality or the health of fish and 
wildlife populations. Often, these groups work to improve watershed 
health through partnerships among citizens, industry, interest groups, 
and government. However, the environmental and political 
characteristics of the Nation's watersheds vary tremendously, and 
watershed management initiatives can differ widely in size and scope. 
As interest in watershed management continues to grow, so does the need 
for a framework to guide such initiatives and evaluate their 
effectiveness.
    The Federal Government can play an important role by helping to 
develop this framework and by providing assistance to States and 
communities for watershed initiatives. Congress should amend the 
Coastal Zone Management Act, the Clean Water Act, and other federal 
laws where appropriate, to provide better financial, technical, and 
institutional support for watershed initiatives and better integration 
of these initiatives into coastal management.

Assessing the Growing Cost of Natural Hazards

    The nation has experienced enormous and growing losses from natural 
hazards. Conservative estimates, including only direct costs such as 
those for structural replacement and repair, put the nationwide losses 
from all natural hazards at more than $50 billion a year, though some 
experts believe this figure represents only half or less of the true 
costs. More accurate figures for national losses due to natural hazards 
are unavailable because the United States does not consistently collect 
and compile such data, let alone focus on specific losses in coastal 
areas. Additionally, there are no estimates of the costs associated 
with destruction of natural environments.
    Many federal agencies have explicit operational responsibilities 
related to hazards management, while numerous others provide technical 
information or deliver disaster assistance. The nation's lead agencies 
for disaster response, recovery, mitigation, and planning are the 
Federal Emergency Management Agency (FEMA) and the U.S. Army Corps of 
Engineers (USACE). These agencies implement programs that specifically 
target the reduction of risks from natural hazards. NOAA and USFWS also 
have a significant influence on natural hazards management.
    Opportunities for improving federal natural hazards management, 
include: Amending federal infrastructure policies that encourage 
inappropriate development; Augmenting hazards information collection 
and dissemination; Improving the National Flood Insurance Program 
(NFIP); and Undertaking effective and universal hazards mitigation 
planning.

Conserving and Restoring Coastal Habitat

    The diverse habitats that comprise the ocean and coastal 
environment provide tangible benefits such as buffering coastal 
communities against the effects of storms, filtering pollutants from 
runoff, and providing a basis for booming recreation and tourism 
industries. These habitats also provide spawning grounds, nurseries, 
shelter, and food for marine life, including a disproportionate number 
of rare and endangered species.
    As more people come to the coast to live, work, and visit, coastal 
habitats face increasing pressures. Most human activities in coastal 
areas provide distinct societal benefits, such as dredging rivers and 
harbors to facilitate navigation, converting forests and wetlands for 
agriculture and development, and building dams for flood control and 
hydropower. But these activities can also degrade coastal habitats and 
compromise their ability to adapt to environmental changes.
    Conserving valuable ocean and coastal areas protects significant 
habitat and other natural resources. Millions of coastal acres have 
been designated for conservation by various levels of government, and 
the tools for implementing conservation programs are found in a 
multitude of statutes. A number of federal programs aim to preserve the 
natural attributes of specific areas while providing varying levels of 
access to the public for educational, recreational, and commercial 
purposes. In addition, nonregulatory conservation techniques--including 
fee simple land acquisition, the purchase or donation of easements, tax 
incentives and disincentives, and tradable development rights--play a 
special role in enabling willing landowners to limit future development 
on their land for conservation purposes. Land acquisition and easements 
are often implemented through partnerships among governments, 
nongovernmental organizations such as land trusts, and the private 
sector. Funding and support for continued conservation of coastal and 
estuarine lands is important to ensure the ability to maintain critical 
habitats and the benefits they provide.
    Conservation is cost-effective, avoiding the much larger expense 
and scientific uncertainties associated with attempting to restore 
habitats that have been degraded or lost. Even so, once critical 
habitat has been lost, or the functioning of those areas diminished, 
restoration is often needed. Habitat restoration efforts are 
proliferating in response to heightened public awareness of and concern 
for the health of the Nation's oceans and coasts.
    Restoration efforts, particularly large-scale projects, are 
challenging in a number of ways. First, the success of these efforts 
requires an understanding about how to recreate natural systems and 
restore historical ecosystem functions, a field still in its infancy. 
Second, these efforts cross political boundaries and affect a broad 
range of human activities, requiring support and intense coordination 
among a wide range of governmental and nongovernmental stakeholders. 
While some restoration projects have been successful, continued 
progress will depend on sustained funding, government leadership and 
coordination, scientific research, and stakeholder support.
    In addition to the large-scale, regional restoration efforts, there 
are numerous small-scale efforts that collectively make significant 
contributions. These activities often demonstrate the power of public--
private partnerships, bringing together community members, government 
agencies, and businesses to solve common problems. However, as long as 
each project continues to be planned and implemented in isolation, its 
overall impact will be constrained.
    Currently the many entities that administer conservation and 
restoration activities operate largely independently of one another, 
with no framework for assessing overall benefits in an ecosystem-based 
context. The multitude of disjointed programs prohibits a comprehensive 
assessment of the progress of conservation and restoration efforts and 
makes it difficult to ensure the most effective use of limited 
resources. An overarching national strategy that sets goals and 
priorities can also enhance the effectiveness of individual efforts and 
provide a basis for coordinating measures and evaluating progress of 
both habitat conservation and restoration activities.

Managing Sediment and Shorelines

    Sediment in Great Lakes, coastal, and ocean waters is composed of 
inorganic and organic particles created through erosion, decomposition 
of plants and animals, and human activities. Sediment may be carried by 
wind or water from upland areas down to coastal areas, or may originate 
in the marine environment. Once sediment arrives at the ocean, it is 
transported by wind, waves, and currents in dynamic processes that 
constantly build up and wear away cliffs, beaches, sandbars, inlets, 
and other natural features.
    From a human perspective, sediment has a dual nature--desirable in 
some locations and unwanted in others. Sediment can be used to create 
or restore beaches and to renew wetlands and other coastal habitats. 
Such activities are referred to as beneficial uses. Undesirable 
sediment can cloud water and degrade wildlife habitat, form barriers to 
navigation, and contaminate the food chain for marine plants, animals 
and humans.
    The dual nature of sediment as both a threat and a resource to 
humans and the environment makes its management particularly 
challenging. To complicate matters further, the natural processes that 
create, move, and deposit sediment operate on regional scales, while 
management tends to focus on discrete locations--a single beach, 
wetland, or port. In addition, the policies that affect sediment 
location, transport, and quality fall under the jurisdiction of diverse 
programs within multiple agencies at all levels of government. This 
complex governance approach makes it difficult to manage sediment at 
the appropriate scale and in consonance, rather than in conflict, with 
natural processes.
    Coastal stakeholders have increasingly recognized the need to 
develop more proactive and preventive strategies. However, their 
absence from broad watershed planning efforts--where decisions about 
land use and water management could reduce excess and contaminated 
sediments at their source--makes such change difficult to realize. The 
nation needs both a better understanding of the interactions between 
human activities and sediment flows, and a better mechanism for 
involving all potentially affected parties.
    Moving toward an ecosystem-based management approach is a critical 
step. Participation by federal, State, and local entities in watershed 
management efforts, along with key stakeholders such as coastal 
planners and port managers, is one way to diminish upland sources of 
excess and contaminated sediment that harm the marine environment. 
Ecosystem considerations should be included in the process for 
permitting any activity that alters sediment flows.
    Dredged materials have long been used to create new land for 
commercial, residential, and infrastructure developments, as well as to 
bolster beaches and barrier islands to protect against storm and 
erosion hazards and enhance tourism and recreation. Since the 1970s, 
these beneficial uses of dredged materials have also included 
environmental enhancement, such as restoration of wetlands, creation of 
wildlife habitat, and improvement of fish habitat. Surprisingly, 
navigation-related dredged materials do not find their way into 
beneficial use projects as often as perhaps they should. This is due in 
part to sediment contamination, but also to USACE policies that favor 
disposal in open waters or in upland dump sites. These policies may be 
unnecessarily foregoing opportunities to support economic growth or 
environmental protection and may have serious unintentional 
consequences for aquatic ecosystems. A more accurate system for 
selecting and ranking projects would be based on a comparative net 
economic and environmental return for the United States rather than a 
narrow cost-benefit analysis for a specific project.
    Finally, the characterization, containment, removal, and treatment 
of contaminated sediment continue to be technically difficult and 
prohibitively expensive, and point to the importance of adopting an 
adaptive management approach to the problem. Scientifically sound 
methods for identifying contaminated sediment and developing innovative 
technologies to improve dredging and treatment of this material are 
critical steps toward improving the economic and ecological health of 
coastal areas. To be successful, these efforts will require new 
resources and effective regional planning.

Supporting Marine Commerce and Transportation

    As the world's largest trading nation, the United States imports 
and exports more merchandise than any other country and has one of the 
most extensive marine transportation systems in the world. U.S. marine 
import-export trade is an essential and growing component of the 
national economy, accounting for nearly seven percent of the Nation's 
gross domestic product. Domestically, coastal and inland marine trade 
amounts to roughly one billion tons of cargo, worth more than $220 
billion a year. The marine transportation system itself is a highly 
complex public-private sector partnership consisting of an 
interconnected mix of waterways, ports and terminals, water-based and 
land-based intermodal connections, vessels, vehicles, equipment, 
personnel, support service industries, and users.
    For the Nation's marine transportation system to meet current and 
future demands, ongoing maintenance, improvement, and expansion will be 
required. A key prerequisite for a robust system is better 
coordination, planning, decision-making and allocation of resources at 
the federal level. In particular it will be essential to enhance the 
connections between this system and other modes of transportation, such 
as highways, railways, and airports. At the same time, in moving toward 
an ecosystem-based management approach, planning for the movement of 
cargo and passengers should be coordinated with the management of many 
other ocean and coastal uses and activities, and with efforts to 
protect the marine environment.
    Within the Federal Government, responsibilities for marine commerce 
and transportation are spread among numerous agencies, primarily the 
U.S. Department of Transportation (DOT), U.S. Coast Guard, USACE, NOAA, 
U.S. Customs Service, and EPA. These agencies have many roles, 
including vessel traffic management, national security, marine safety, 
waterway maintenance, environmental protection, and customs. These 
responsibilities are poorly coordinated and do not mesh well with the 
structure and function of such system. Statutory, regulatory, and 
policy differences among federal agencies with roles in marine 
transportation lead to fragmentation, competition, and in some cases, 
an inability to work collaboratively due to conflicting mandates. 
National leadership and support will be needed to achieve better 
integration within the Federal Government, better links with the rest 
of the Nation's transportation infrastructure, and coordination between 
marine transportation and other important ocean and coastal uses and 
activities. The logical agency to assume this responsibility, as it 
does for the highway, aviation, and railway systems, is DOT.
    Even with one clearly mandated lead federal agency, coordination 
will be needed among the federal and non-federal participants in the 
marine transportation system. Given the significance of domestic and 
international trade to the Nation and the complexity of the components 
that make up the system the Interagency Committee for the Marine 
Transportation System (ICMTS) should be strengthened, codified and 
placed under the oversight of the National Ocean Council. And because 
marine transportation involves many actors outside the Federal 
Government, the Marine Transportation System National Advisory Council 
should be maintained to coordinate among non-federal participants in 
the marine transportation system and a venue for providing input to the 
Federal Government on important national issues.
    An important step in allowing the U.S. marine transportation system 
to grow, while minimizing increased congestion, delays, and costs to 
U.S. businesses and consumers, is to improve the movement of cargo into 
and out of ports. Existing intermodal connections are inadequate to 
meet the expected increase in foreign and domestic trade. The nation's 
transportation infrastructure is largely an agglomeration of competing 
transportation modes, each focusing on its own priorities. While this 
approach has produced an extensive infrastructure, a national strategy 
is needed to enhance the connections among these modes, including the 
Nation's ports, and ensure greater overall effectiveness.
    DOT, working with the ICMTS, should draft a new national freight 
transportation strategy to support continued growth of the Nation's 
economy and international and domestic trade. Based on the new 
strategy, investments should be directed toward planning and 
implementation of intermodal projects of national significance. In 
developing the national freight transportation strategy, DOT should 
emphasize strategic planning with States, regions, and the public 
sector as is already being carried out for the U.S. highway system.
    Planning for the future of the U.S. marine transportation system 
requires accurate and timely information, including estimates of the 
volume of current and future cargo transportation, their origins and 
destinations, and the capacity of the various transportation modes. 
Such information is essential to understand the strengths and 
weaknesses of the current system and the challenges and opportunities 
for improving its effectiveness. DOT, working with other appropriate 
entities, should establish a national data collection, research, and 
analysis program to provide a comprehensive picture of freight flows in 
the United States and to enhance the performance of the Nation's 
intermodal transportation system. DOT should periodically assess and 
prioritize the Nation's future needs for ports and intermodal 
transportation capacity to meet expected growth in marine commerce.
    Finally, natural disasters, labor disputes, terrorist attacks, ship 
collisions, spills of hazardous materials, and many other human and 
naturally caused events can disrupt the flow of marine cargo and 
passenger services, causing severe economic and social ramifications 
nationally and internationally. Diminished port capacity could also 
affect vital military operations. In developing a national freight 
transportation strategy, DOT should work closely with the U.S. 
Department of Homeland Security and the FEMA to incorporate port 
security and other emergency preparedness requirements. The strategy 
should focus on preventing threats to national security and port 
operations and on response and recovery practices that limit the 
impacts of such events, including an assessment of the availability of 
alternative port capacity.

COASTAL AND OCEAN WATER QUALITY

    Coastal and ocean water quality is threatened by multiple sources 
of pollution, including point and nonpoint source pollution, 
atmospheric deposition of pollutants, vessel pollution, invasive 
species, and trash being washed into the ocean and onto beaches. 
Addressing these multiple pollutants will require development of an 
ecosystem-based and watershed management approach that includes a 
variety of management tools, coordination, and ongoing monitoring.

Addressing Coastal Water Pollution

    Coastal waters are one of the Nation's greatest assets, yet they 
are being bombarded with pollution from all directions. The heavy 
concentration of activity in coastal areas, combined with pollutants 
flowing from streams far inland and others carried through the air 
great distances from their source, are the primary causes of nutrient 
enrichment, hypoxia, toxic contamination, sedimentation, and other 
problems that plague coastal waters.
    Any solution must be founded on an ecosystem-based and watershed 
management approach involving a broad range of agencies, programs, and 
individuals. The complex array of laws, agencies, and programs that 
address water pollution, and the number of parties involved, will 
require greatly enhanced coordination among federal agencies, primarily 
EPA, NOAA, USDA, and USACE. Greater coordination is also needed between 
the Federal Government and managers at the State, territorial, tribal, 
and local levels, watershed groups, nongovernmental organizations, 
private stakeholders, and the academic and research communities. 
Solutions will also require a substantial financial investment and will 
take time.
Reducing Point Sources of Pollution
    Over the last few decades, great strides have been made in 
controlling water pollution from point sources, although further 
improvements could be realized through increased funding, strengthened 
enforcement, and promotion of innovative approaches such as market-
based incentives. The Commission also addresses several specific point 
sources of pollution, including wastewater treatment plants, sewer 
system overflows, septic systems, industrial facilities, and animal 
feeding operations.
Increasing the Focus on Nonpoint Sources of Pollution
    While considerable progress has been made in reducing point sources 
of pollution, further progress toward improving coastal water quality 
will require significant reductions in nonpoint sources as well. This 
pollution occurs when rainfall and snowmelt carry pollutants over land, 
into streams and groundwater, and down to coastal waters. Ninety 
percent of impaired water bodies do not meet water quality standards at 
least in part because of nonpoint source pollution. The majority of the 
nonpoint source pollution entering rivers, estuaries, coastal waters, 
and ultimately the oceans is from agricultural and storm water runoff.
    To address nonpoint source pollution, the NOC should establish 
significant reduction of nonpoint source pollution in all impaired 
coastal watersheds as a national goal, and set measurable objectives to 
meet water quality standards. The nation has a number of opportunities 
to reduce the impacts of nonpoint sources of pollution on coastal 
waters. Because agricultural runoff contributes substantially to 
nonpoint source pollution, USDA should align its conservation programs 
and funding with other programs aimed at reducing nonpoint source 
pollution, such as those of EPA and NOAA. Other opportunities for the 
Nation to reduce nonpoint source pollution include coordination of 
federal nonpoint programs so they are mutually supportive, more 
targeted and aggressive use of State revolving loan funds, broader 
implementation of incentives and disincentives, and improved monitoring 
to assess compliance and overall progress. State and local governments 
also have important roles to play in land use planning and storm water 
management decisions.
    Watersheds are often the appropriate geographic unit for addressing 
water-related problems and collaborative watershed groups have had 
significant successes in addressing nonpoint source pollution. 
Therefore, the NOC and regional ocean councils should strengthen the 
ability of collaborative watershed groups to address problems 
associated with nonpoint source pollution by developing and 
implementing strategies to provide them with adequate technical, 
institutional, and financial support.
Addressing Atmospheric Sources of Pollution
    Atmospheric deposition of pollutants can also harm water quality, 
aquatic resources, and human health. To address atmospheric deposition, 
EPA, States, and watershed groups should explore regional approaches 
for managing atmospheric deposition, particularly when it affects water 
bodies in states far from the source.

Creating a National Water Quality Monitoring Network

    Pollution of the Nation's coastal waters has led to beach closures, 
oxygen depletion, health impacts from toxic contamination, and many 
other problems. Despite these threats to coastal waters, there is no 
national network in place to monitor water quality changes and their 
causes, facilitate estimates of their economic impact, and measure the 
success of management efforts. Increased monitoring is needed not only 
along the Nation's coasts, but also inland where pollutants make their 
way downstream, ultimately impacting coastal waters. A national water 
quality monitoring network is essential to support the move toward an 
ecosystem-based management approach that considers human activities, 
their benefits, and their potential impacts within the context of the 
broader biological and physical environment. An essential step toward 
controlling pollution will be to strengthen and coordinate monitoring 
efforts to provide decision makers with necessary information.
    A number of monitoring efforts are currently conducted by federal 
agencies, State governments, research institutions and academia, 
nongovernmental organizations, and individual volunteers. Existing 
monitoring programs vary in many respects, including sampling design 
and intensity, parameters tested, analytical methodology, data 
management protocols, and funding. Even when the same properties are 
measured, different data management protocols may make the integration 
of that information difficult. Consequently, while a number of 
monitoring programs exist, they are not designed to support a 
comprehensive and coordinated national monitoring network.
Ensuring Comprehensive, Coordinated Coverage
    The nation's coastal margin is the most densely populated and 
developed region of the Nation, and its waters have been significantly 
degraded by pollution. Yet in recent years, due largely to lack of 
funding, monitoring has been extremely sparse along the coasts. Much 
remains unknown about the status of coastal waters, and increased 
monitoring will be required to make informed management decisions about 
this economically and ecologically valuable region. Yet the close 
connections between coastal and upstream waters dictate that any water 
quality monitoring network must be national in scope. NOAA, EPA, and 
USGS should lead the effort to develop a national water quality 
monitoring network that coordinates existing and planned monitoring 
efforts, including federal, State, local, and private efforts. The 
network should include a federally-funded backbone of critical stations 
and measurements needed to assess long-term water quality trends and 
conditions.
    Because of the inherent overlap between inland, coastal, and open-
ocean monitoring and observing, the national water quality monitoring 
network should be closely linked with the Integrated Ocean Observing 
System (IOOS) and ultimately with a broad Earth observing system. NOAA 
should ensure that the water quality monitoring network includes 
adequate coverage in both coastal areas and the upland areas that 
affect them, and that the network is linked to the IOOS, to be 
incorporated eventually into a comprehensive Earth observing system.
Creating an Effective Monitoring Network and Making Data Accessible and 
        Useful
    In addition to coordinating existing monitoring efforts, an 
effective national water quality monitoring network should have 
specific goals and objectives, reflect user needs, and be helpful in 
assessing the effectiveness of management approaches. The overall 
system design should determine what and where to monitor, including 
definition of a set of core variables. Technical expertise will be 
needed to standardize procedures and establish quality control and data 
management protocols. The network should be periodically assessed and 
modified as necessary. Most important, the data collected through the 
National monitoring network should be useful to managers and 
stakeholders in evaluating management measures, determining best 
management practices, and making continual improvements in reaching 
ecosystem goals. This data should also be translated into timely and 
useful information products that are readily accessible to decision 
makers and the public. The design and implementation of the national 
monitoring network will require not only federal coordination, but also 
significant input from the States.

Limiting Vessel Pollution and Improving Vessel Safety

    The benefits from vessel activities are significant--ships carry 
more than 95 percent of the Nation's overseas cargo--but these 
operations also present safety, security and environmental risks that 
must be effectively addressed.
    Success in addressing these concerns will depend on a broad 
domestic and international framework comprised of three key components. 
The first component is a strong voluntary commitment on the part of 
vessel owners and operators to build a workplace ethic that 
incorporates safety, security, and environmental protection as 
important and valued aspects of everyday vessel operations. Reliable 
means of measuring the success of these efforts, as reflected in crew 
and company performance, are essential and should include extensive use 
of third-party audits. The U.S. Coast Guard, through incentives and 
partnership programs, should encourage industry partners to develop 
stronger voluntary measures, particularly those that reward crew member 
contributions, as part of a continuing long-term effort that focuses on 
building a culture of safety, security, and environmental compliance.
    The second key component is effective oversight and control by the 
primary vessel regulator, the vessel's flag state. Foreign flag 
vessels, subject primarily to the jurisdiction and control of other 
governments, carry more than 90 percent of international commercial 
freight entering and departing the United States and account for 95 
percent of passenger ships and 75 percent of cargo ships operating in 
U.S. waters. Although many flag states take their responsibilities 
seriously, oversight and enforcement vary dramatically. Over the past 
decade, the International Maritime Organization has developed 
guidelines to improve flag state oversight and enforcement. However, 
implementation of these measures has met with mixed results. Mounting 
international security concerns have made effective flag state 
oversight and control more urgent today than ever before. The United 
States should work with other nations to accelerate efforts at the 
International Maritime Organization to enhance flag state oversight and 
enforcement. Initiatives should include expeditious promulgation of a 
code outlining flag state responsibilities, and development of a 
mandatory external audit regime to evaluate performance and identify 
areas where additional technical assistance can be used to best 
advantage.
    The third key framework component is effective control over vessels 
visiting U.S. ports. The Coast Guard currently carries out a port State 
control program that allocates limited inspection resources to the 
highest-risk vessels, based on an assessment of the vessel owner, flag 
state, classification society, performance history, and vessel type. 
Performance-based vessel inspections, while the most effective means of 
verifying compliance, are resource intensive. These inspections have 
played a critical role in identifying and correcting potential 
problems, and in assessing the effectiveness of overall efforts to 
improve safety and environmental compliance. Concerns have been 
expressed in Congress and elsewhere about the adequacy of Coast Guard 
resources to meet new security demands while fulfilling other important 
responsibilities. Congress should provide the U.S. Coast Guard with the 
resources necessary to sustain and strengthen the performance-based 
inspection program for marine safety and environmental protection while 
also meeting new vessel security inspection and other maritime security 
requirements. In addition, the Coast Guard should work at the regional 
and international levels to increase effective coordination and vessel 
information sharing among concerned port states.
    In addition to outlining a framework to address vessel safety, 
security and environmental concerns, our report also recommends more 
comprehensive approaches to address waste stream, oil and air pollution 
from commercial and recreational vessels. Recommendations include: 
establishing a uniform national regime to deal with cruise ship waste 
streams; ratifying and working to strengthen MARPOL Annex V1 air 
emission standards; developing comprehensive policy guidance and 
contingency plans for vessels seeking places of refuge in the United 
States; developing a long-term plan that identifies and addresses the 
greatest risks associated with marine oil transportation systems; and 
updating and accelerating efforts to reduce recreational vessel 
pollution. We also place particular emphasis on the use of market-based 
mechanisms and incentives to reduce pollution and encourage appropriate 
voluntary actions.

Preventing the Spread of Invasive Species

    The introduction of non-native marine organisms into ports, coastal 
areas, and watersheds has damaged marine ecosystems around the world, 
costing millions of dollars in remediation, monitoring, and ecosystem 
damage. Invasive species policies are not keeping pace with the problem 
primarily because of inadequate funding, a lack of coordination among 
federal agencies, redundant programs, and outdated technologies.
Making Prevention the First Line of Defense
    The discharge of ballast water is considered a primary pathway for 
introduction of non-native aquatic species. Exchanging ballast water in 
the middle of the ocean to reduce the risk of transferring organisms 
from one ecosystem to another is the primary management tool currently 
available for ships to control the introduction of invasive species.
    To better control the introduction of invasive species, the U.S. 
Coast Guard's national ballast water management program should: apply 
uniform, mandatory national standards; incorporate sound science in the 
development of a biologically meaningful and enforceable ballast water 
treatment standard; include a process for revising the standard to 
incorporate new technologies; ensure full consultation with EPA; and 
include an interagency review, through the NOC, of the policy for ships 
that declare they have no ballast on board.
    While ballast water is considered a primary pathway, there are also 
other important ship-related sources of non-native aquatic species, 
including ships' hulls, anchors, navigational buoys, drilling 
platforms, and floating marine debris. Other pathways include 
intentional and unintentional human introductions of fish and 
shellfish, and illegally released organisms from the aquaculture, 
aquarium, horticulture, and pet industries. There is increasing concern 
that an expanding trade through the Internet and dealers of exotic pets 
is exacerbating the invasive species problem.
    To address these pathways of introduction, the NOC, working with 
the Aquatic Nuisance Species Task Force and the National Invasive 
Species Council, should coordinate public education and outreach 
efforts on aquatic invasive species, with the aim of increasing public 
awareness about the importance of prevention.
Accelerating Detection and Response
    Only the most draconian prevention strategy could hope to eliminate 
all introductions of non-native species and thus prevent the 
possibility of an invasion. Yet no effective mechanism is in place for 
rapidly responding to newly discovered aquatic invasions when they do 
occur. Therefore, the National Invasive Species Council and the Aquatic 
Nuisance Species Task Force, working with other appropriate entities, 
should establish a national plan for early detection of invasive 
species and a system for prompt notification and rapid response.
Improving the Control of Invasive Species
    As biological invasions continue, there is a pressing need to 
improve the control of invasive species by reducing the overlaps and 
redundancies caused by the involvement of so many agencies with 
insufficient interagency coordination. The NOC should review and 
streamline the current proliferation of federal and regional programs 
for managing marine invasive species, and coordinate federal, regional 
and State efforts.
    The study of marine biological invasions is a relatively new 
research area and little is understood about how or why certain species 
become invasive, what pathways of introduction are most important, and 
whether certain factors make an ecosystem more susceptible to 
invasions. To better understand marine biological invasions, the NOC 
should coordinate the development and implementation of an interagency 
plan for research and monitoring to understand and prevent aquatic 
species invasions.

Reducing Marine Debris

    The trash and other waste that drifts around the global ocean and 
washes up on the Nation's shores poses a serious threat to fishery 
resources, wildlife, and habitat, as well as human health and safety. 
Approximately 80 percent of debris is washed off the land, blown by 
winds, or intentionally dumped from shore, while 20 percent comes from 
vessels and offshore platforms.
    NOAA currently addresses marine debris as a part of several other 
efforts, but there is a need to coordinate, strengthen, and increase 
the visibility of the marine debris efforts within NOAA by creating a 
centralized marine debris program within the agency. This program 
should be coordinated with EPA's marine debris activities, as well as 
with the significant efforts conducted by private citizens, State, 
local, and nongovernmental organizations.
Interagency Coordination
    Although strengthening NOAA's work on marine debris through 
establishment of an office within the agency is an important step, an 
interagency committee under the NOC is needed to unite all appropriate 
federal agencies around the issue. Such a committee could support 
existing marine debris efforts by agencies and nongovernmental 
organizations, and should expand and better coordinate national and 
international marine debris efforts, including: public outreach and 
education; partnerships with State and local governments, community 
groups, nongovernmental organizations, and industry; and monitoring, 
identification and research.
Eliminating Derelict Fishing Gear
    Whether intentionally discarded or unintentionally lost during 
storms or fishing operations, derelict fishing gear poses serious 
threats, entrapping marine life, destroying coral reefs and other 
habitat, and even posing danger to humans. Although derelict fishing 
gear is a worldwide problem, currently no international treaties or 
plans of action address it. A strong need exists for the U.S. 
Department of State and NOAA, working with the United Nations Food and 
Agriculture Organization, to develop a plan of action to address 
derelict fishing gear, to be implemented on a regional, multi-national 
basis. In addition, within the United States, a public-private 
partnership program is needed to prevent, remove, and dispose of 
derelict fishing gear.
Ensuring Appropriate Port Reception Facilities
    Under requirements for port reception facilities in Annex V of 
MARPOL, member nations must provide waste disposal facilities in their 
ports to receive waste from ships. Despite this requirement, many ports 
do not have adequate facilities. In addition, Annex V calls for the 
designation of Special Areas that receive a higher level of protection 
than is required in other ocean areas. Special Areas have been 
designated for many parts of the world, however, for a Special Area to 
receive extra protection, there must first be a demonstration of 
adequate port reception facilities. Some important Special Areas, such 
as the Wider Caribbean, are not yet eligible to receive extra 
protection because of inadequate port reception facilities. Therefore, 
the U.S. Department of State should increase efforts to ensure that all 
port reception facilities meet the criteria necessary to allow 
implementation of Special Areas protections.

ENHANCING THE USE AND PROTECTION OF OCEAN RESOURCES

    The ocean's biological and mineral resources are of enormous value 
to the Nation, not only for their direct economic output, but also for 
their incalculable aesthetic importance.
    The commercial fishing industry's total value exceeds $28 billion 
annually, with the recreational saltwater fishing industry valued at 
around $20 billion. NOAA estimates that U.S. coral reefs cover 
approximately 7,600 square miles. In 2001, coral reefs in the Florida 
Keys alone supported $105 million in income and more than 8,000 jobs. 
Further, approximately one half of all federally managed commercial 
fish species depend on coral reefs for at least part of their life 
cycle. Currently, energy development in federal waters accounts for 
more than 30 percent of domestic oil production and 25 percent of 
natural gas, with a total annual value of between $25-$40 billion, and 
a contribution of about $5 billion in royalties to the U.S. Treasury.
    In order to provide for sustainable use, management needs to be 
strengthened in a broader context that looks at impacts of management 
decisions on the ecosystem as a whole.

Fisheries Management

    The last 30 years has seen the evolution of an industry from being 
largely unregulated but with seemingly boundless potential, to one that 
is highly regulated and struggling to regain its potential as we move 
toward a sustainable, ecosystem-based fisheries management regime.
    In 1976, based in part on the recommendations of the Stratton 
Commission, Congress approved the Magnuson-Stevens Fishery Conservation 
and Management Act to manage and assert U.S. control over fishery 
resources within 200 nautical miles of the coast. Eight Regional 
Fishery Management Councils (RFMCs) were created to develop management 
plans for fisheries in federal waters. The Act required regional plans 
to be consistent with broad national guidelines, but otherwise granted 
considerable flexibility to the RFMCs. The regional flexibility that 
had been seen as a great strength of the new law now showed its 
downside as some RFMCs set unsustainable harvest levels, leading to the 
collapse or near-collapse of several important fisheries.
    In the over 30 years since the Stratton report, some fishery 
management bodies have revealed fundamental weaknesses in the system 
that led to over-exploited stocks and ecosystem degradation in some 
regions. However, the management practices in some regions, 
particularly the North Pacific, protected fisheries from over-
exploitation and served as a model for many of the Commission's 
fisheries recommendations. The Commission fishery recommendations can 
be grouped into six areas: strengthening the link between science and 
management, clarifying jurisdiction representation, expanding the use 
of dedicated access privileges, improving enforcement, and 
strengthening international management.
    The link between fishery management decisions and peer-reviewed 
scientific info must be strengthened, including developing an expanded 
research program that is more responsive to managers' needs. To 
accomplish this, a number of management improvements are needed. RFMCs 
should be required to rely on the advice of their Scientific and 
Statistical Committees (SSCs), especially when setting harvest levels. 
RFMCs should not be allowed to approve measures less conservative than 
recommended by the SSC. SSC members should be nominated by the RFMCs 
and appointed by the NOAA Administrator. To ensure that SSC members are 
of the highest quality, their credentials and potential conflicts of 
interest should be reviewed by an external organization. To ensure 
sufficient external review of the scientific advice of the SSCs, NOAA 
should develop a standardized, independent peer-review process for 
implementation by all RFMCs. To ensure that needed conservation 
measures are implemented in a timely manner, default measures should be 
developed that would go into effect with a lack of action on the part 
of the RFMCs. Finally, to ensure that manager's have the information 
they require, NOAA's process for developing research plans should 
incorporate manager's priorities to the extent practicable. An expanded 
cooperative research program and increased emphasis on in-season 
recreational fishery data collection should be an important component 
of this effort.
    Responsibilities and jurisdiction of the various federal and 
interstate fishery management entities need to be clarified, and the 
representation on the federal regional fishery management councils need 
to be broadened. To ensure that jurisdictional confusion does not lead 
to delaying conservation measures, Congress should assign a lead 
management authority among the various federal and interstate 
management authorities, based primarily on proportion of catch 
occurring within each entities jurisdiction. To ensure that the RFMCs 
have appropriate representation, particularly as we move toward 
ecosystem-based management, the governors should be required to submit 
a broader slate of candidates to be appointed by the NOAA 
Administrator. To ensure that RFMCs members have the necessary 
knowledge to properly manage fisheries, members should be required to 
take a training course. Finally, to ensure that all interstate fishery 
commissions have the necessary means to manage the fisheries under 
their jurisdiction, Congress should grant authority similar to the 
Atlantic Coastal Fisheries Cooperative Management Act to the Gulf and 
Pacific States Commissions.
    To reverse existing incentives that create an unsustainable ``race 
for the fish,'' fishery managers should explore widespread adoption of 
dedicated access privileges to promote conservation and help reduce 
over-capitalization. Congress should amend the Magnuson-Stevens Fishery 
Conservation and Management Act to affirm that fishery managers are 
authorized to institute dedicated access privileges, subject to meeting 
national guidelines; and every federal, interstate, and State fishery 
management entity should consider the potential benefits of adopting 
dedicated access programs. In addition, Congress should directly 
address over-capitalization by revising federal programs that subsidize 
over-capitalization, as well as work with NOAA to develop programs that 
permanently address over-capitalization in fisheries.
    Fishery enforcement must be improved through adoption of better 
technology, such as Vessel Monitoring Systems (VMS) and better 
cooperation among federal agencies and States. Funding should be 
increased for Joint Enforcement Agreements between NOAA's National 
Marine Fisheries Service and coastal states as the best method of 
restoring the enforcement presence of the Coast Guard diminished 
because of the increased need for maritime security following the 9/11 
terrorist attacks. The expanded use of VMS is another cost effective 
way of increasing enforcement capabilities.
    Fishery management needs to continue the move toward ecosystem-
based management in order to improve management, reduce conflicts 
between socio-economic impacts and biological sustainability, and 
provide a proper forum to address difficult management issues. In 
particular, issues such as habitat damage and bycatch should be 
approached from an ecosystem basis and management plans should be 
designed to reduce impacts from these factors.
    Because many of the stocks targeted by U.S. fishermen traverse 
international waters, it will be impossible to conserve some stocks 
without the aid of other countries. In addition, many endangered 
species such as sea turtles and whales travel the high seas. To promote 
international cooperation to conserve living marine resources, the 
Commission makes the following recommendations. The U.S. should work to 
encourage other countries to adopt and enforce existing international 
agreements to promote worldwide adoption of sustainable fisheries 
practices, in particular the Fish Stocks Agreement and the United 
Nations Food and Agriculture Organization's Compliance Agreement. The 
National Ocean Council should recommend effective methods to promote 
adoption of other important international conservation agreements, such 
as the Code of Conduct for responsible fisheries. In addition, the 
United States should continue to press for the inclusion of 
environmental objectives--particularly those specified in international 
environmental agreements--as legitimate elements of trade policy.

Marine Mammals and Endangered Species

    Because of their intelligence, visibility and frequent interactions 
with humans, marine mammals hold a special place in the minds of most 
people and are afforded a higher level of protection than fish or other 
marine organisms. The American public has also consistently been 
supportive of efforts to prevent species from becoming endangered or 
extinct from human-caused activities. Because of the concern that the 
American public has shown for marine mammals and endangered species, 
specific legislation was enacted to provide them greater protection. 
The Marine Mammal Protection Act and the Endangered Species Act are 
landmark laws that have protected marine mammals and populations in 
danger of extinction since their passage. However, both Acts need to 
move toward a more ecosystem-based regime to improve protections for 
these populations.
    The biggest threat to marine mammals worldwide today is their 
accidental capture or entanglement in fishing gear (known as 
``bycatch''), killing hundreds of thousands of animals a year. 
Commercial harvesting contributed to major declines in the populations 
of marine mammals but only a few nations still allow hunting for 
purposes other than subsistence. Hunters from those nations continue to 
kill hundreds of thousands of seals, whales, dolphins, and other marine 
mammals each year while legal subsistence hunting accounts for 
thousands more. Other potential causes of death and injury to marine 
mammals, such as ships strikes, pollution and toxic substances, and 
noise from ships and sonar, cause many fewer deaths than bycatch and 
hunting.
    The threats to endangered marine species such as sea turtles and 
sea birds are myriad and not easily categorized. One factor that is 
common to declines in many species is the destruction or degradation of 
their natural habitat. Thus the successful recovery of a species 
depends to a large degree on protection or restoration of this habitat.
    One of the critical components to improving protections for 
protected species is expanding the knowledge base. We know very little 
about the basic biology for these species, particularly marine mammals. 
The lack of basic scientific information has perhaps contributed to the 
frequent mismatch between causes of impacts to marine mammal 
populations and the amount of management attention paid to them. For 
example, the top two impacts to marine mammals by orders of magnitude 
are bycatch and hunting, yet most recent attention is being paid to 
other causes. Under ecosystem-based management, the most critical 
impacts should be addressed first. However, our overwhelming lack of 
knowledge of marine mammal and endangered species makes it difficult to 
properly rank and address impacts to these species. As the foundation 
to improving management, the Commission recommends an expanded 
research, technology, and engineering program, coordinated through the 
National Ocean Council, to examine and mitigate the effects of human 
activities on marine mammals and endangered species. In particular, 
Congress should expand federal funding for research into ocean 
acoustics and the potential impacts of noise on marine mammals. The 
U.S. should increase efforts to extend the benefits of the expanded 
research program to other countries.
    Another important component to improving protections for protected 
species will be to clarify and coordinate federal agency actions. The 
Commission recommends that jurisdiction for marine mammals be 
consolidated within NOAA, and that the NOC improve coordination between 
NOAA and the Fish and Wildlife Service with respect to the 
implementation of the Endangered Species Act, particularly for 
anadromous species or when land-based activities have significant 
impacts on marine species.
    The MMPA, with limited exceptions, prohibits the hunting, killing, 
or harassment of marine mammals. One of the exceptions authorizes the 
issuance of permits for the unintentional and incidental taking of 
small numbers of marine mammals provided it has only a negligible 
impact on the species. This provision has been problematic because 
terms such as small numbers and negligible impact are not defined in 
the Act, resulting in a lack of clarity about when a permit is 
necessary and under what circumstances it should be granted. Congress 
should amend the Marine Mammal Protection Act to require the NOAA to 
more clearly specify categories of activities that are allowed without 
a permit, those that require a permit, and those that are prohibited. 
Specifically, Congress should amend the Marine Mammal Protection Act to 
revise the definition of harassment to cover only activities that 
meaningfully disrupt behaviors that are significant to the survival and 
reproduction of marine mammals.
    As an adjunct to clarifying allowed and permitted activities, the 
permitting process itself should be streamlined. Specifically, 
programmatic permitting should be used where possible to simplify 
agency permitting.

Coral Communities

    Tropical and deep water coral communities are among the oldest and 
most diverse ecosystems, rivaling tropical rain forests in biodiversity 
and economic value. But, tropical coral reef health is rapidly 
declining, with pristine reefs being rare or nonexistent and possibly 
one-third of the world's reefs severely damaged. The existing 
management structure is inadequate and agencies and laws overseeing 
coral reef management have made little progress in actually protecting 
corals. Immediate action is needed to avoid irreversible harm.
    In the short-term, the Coral Reef Task Force (CRTF) should be 
strengthened by placing it under the NOC, and adding the U.S. 
Department of Energy and the U.S. Army Corps of Engineers. The 
strengthened CRTF should begin immediate development of actions to 
reverse impacts of coastal pollution and fishing on coral communities. 
The EPA and USDA, at the minimum, should be charged with implementing 
the coastal pollution reduction plan and NOAA should be charged with 
implementing the plan for reversing impacts from fishing. In addition, 
the CRTF's area of responsibility should be expanded to include deep 
water coral communities as well.
    In the long-term, the Congress should enact a ``Coral Protection 
and Management Act'' that provides direct authority to protect and 
manage corals, and provides a framework for research and cooperation 
with international protections efforts. This legislation should include 
the following elements: support for mapping, monitoring, and research 
programs; support for new research and assessment activities to fill 
critical information gaps; liability provisions for damages to coral 
reefs similar to those in the Marine Protection, Research, and 
Sanctuaries Act; support for outreach activities to educate the public 
about coral conservation and reduce human impacts; and, support for 
U.S. involvement, particularly through the sharing of scientific and 
management expertise, in bilateral, regional, and international coral 
reef management programs.
    As the world's largest importer of ornamental coral reef resources, 
the United States has a particular responsibility to help eliminate 
destructive harvesting practices and ensure the sustainable use of 
these resources. Many of these resources are harvested by methods that 
destroy reefs and over-exploit ornamental species. A balance is needed 
between sustaining the legitimate trade in ornamental resources and 
sustaining the health and survival of the world's coral reef resources. 
The U.S. should develop domestic standards for the importation of coral 
species, to ensure that U.S. citizens do not indirectly promote 
unsustainable practices in coral harvesting countries.

Aquaculture

    Marine aquaculture has the potential to supply part of the ever 
increasing domestic and worldwide demand for seafood. However, there 
are two major concerns that need to be addressed: environmental 
problems with existing aquaculture operations, particularly net-pen 
facilities, and a confusing, inconsistent array of State and federal 
regulations that hinder private sector investment.
    To oversee a comprehensive and environmentally sound management 
regime, Congress should amend the National Aquaculture Act to designate 
NOAA as the lead federal agency for implementing a national policy for 
environmentally and economically sustainable marine aquaculture and 
create an Office of Sustainable Marine Aquaculture in NOAA.
    This new NOAA office should develop a single, multi-agency federal 
permit for the aquaculture industry and ensure aquaculture facilities 
meet State and national environmental standards to lessen impacts from 
escapement and disease and protect the sustainability and diversity of 
wild stocks.
    Furthermore, the permitting and leasing system and implementing 
regulations should: reflect a balance between economic and 
environmental objectives consistent with national and regional goals; 
be coordinated with guidelines and regulations developed at the State 
level; include a system for the assessment and collection of a 
reasonable portion of the resource rent generated from marine 
aquaculture projects that use ocean resources held in public trust; 
require applicants to post a bond to ensure that any later performance 
problems will be remedied and that abandoned facilities will be safely 
removed at no additional cost to the taxpayers; and, require the 
development, dissemination, and adoption by industry of best management 
practices that are adaptable to new research and technology advances.
    Enhanced investments in research, demonstration projects, and 
technical assistance can help the industry address environmental 
issues, conduct risk assessments, develop technology, select species, 
and improve best management practices. It is also vital for developing 
fair and reasonable policies, regulations, and management measures. 
Most of the federal research to support marine aquaculture has been 
carried out under the auspices of NOAA's National Sea Grant College 
Program, which funds primarily university-based research. Congress 
should increase funding for expanded marine aquaculture research, 
development, training, extension, and technology transfer programs in 
NOAA. The Office of Sustainable Marine Aquaculture should set 
priorities for the research and technology programs, in close 
collaboration with academic, business, and other stakeholders.
    Because the U.S. market for seafood is one of the largest in the 
world, we can use our market power as a positive force for promoting 
sustainable, environmentally sound aquaculture practices not only in 
the U.S., but the world as well. The U.S. should work to ensure that 
all countries adhere to aquaculture standards such as are in the UN FAO 
Code of Conduct for Responsible Fisheries.

Oceans and Human Health

    Beneficial and harmful links between human health and ocean health 
exist. While several important medical treatments are based on 
chemicals discovered in marine animals, increasingly common phenomena 
such as harmful algal blooms have demonstrated ability to negatively 
impact human health. The health of marine ecosystems is affected by 
human activities such as pollution, global warming, and fishing. But in 
addition, human health depends on thriving ocean ecosystems. A better 
understanding about the many ways marine organisms affect human health, 
both for good by providing drugs and bioproducts, and for bad by 
causing human ailments, is needed.
    Congress should establish an oceans and human health initiative to 
create a competitive grant program and coordinate federal activities. 
Existing programs at NOAA, NSF and the National Institute of 
Environmental Health Sciences should be coalesced in this initiative. 
This initiative should be expanded to include other pertinent agencies 
such as the EPA and FDA.
    New knowledge and technologies are needed to detect and mitigate 
microbial pathogens. These methods must be quick and accurate so that 
information can be communicated to resource managers and the coastal 
community in a timely manner. As they are developed, technologies need 
to be integrated into biological and biochemical sensors that can 
continuously monitor high-risk sites. It is important that site-
specific sensor data and satellite sensor data be incorporated into the 
IOOS. To accomplish this task, the National Oceanic and Atmospheric 
Administration, National Science Foundation, National Institute of 
Environmental Health Sciences, and other appropriate entities should 
support the development and implementation of improved methods for 
monitoring and identifying pathogens and chemical toxins in ocean 
waters and organisms.

Offshore Energy and Mineral Resources

    Oil and gas development on the Outer Continental Shelf (OCS) 
provides over a quarter of our domestic oil and gas reserves, and 
contributes thousands of jobs and billions of dollars to our economy. 
In addition to its responsibilities for living marine resources, the 
Federal Government also exercises jurisdiction over nonliving 
resources, energy and other minerals located in the waters and sea bed 
of the more than 1.7 billion acres of OCS. Offshore oil and gas 
development has the most mature and broadest management structure of 
all such resources. Although controversial in many areas, the process 
for oil and gas leasing and production is well institutionalized, 
reasonably comprehensive, and could be a model for new ocean-based 
renewable energy projects as part of a coordinated offshore management 
regime.
    MMS's Environmental Studies Program (ESP) is a major source of 
information about the impacts of OCS oil and gas activities on the 
human, marine, and coastal environments. Since 1986, annual funding for 
the program has decreased, in real dollars, from a high of $56 million 
to approximately $18 million in 2003. The erosion in ESP funding has 
occurred at a time when more and better information, not less, is 
needed. There continues to be a need to better understand the 
cumulative and long-term impacts of OCS oil and gas development, 
especially in the area of low levels of persistent organic and 
inorganic chemicals, and their cumulative or synergistic effects.
    The U.S. Department of the Interior should reverse recent budgetary 
trends and increase funding for the Minerals Management Service's 
Environmental Studies Program. The development of technologies and 
exploratory activities moving into very deep waters requires an 
increase in the MMS environmental studies program to keep track of new 
and emerging environmental issues. In addition to this program, the 
development of the IOOS could provide better information that can 
improve management of offshore resources. Industry and federal agency 
partnerships should allow use of industry facilities to be incorporated 
into the IOOS.
    To make certain that the federal-State partnership is strengthened 
and that critical marine ecosystems are protected, more investment of 
the resource rents generated from OCS energy leasing and production 
into the sustainability of ocean and coastal resources is necessary. 
Specifically, some portion of the revenues received by the Federal 
Government annually for the leasing and extraction of nonrenewable 
offshore resources need to be allocated to all coastal states for 
programs and efforts to enhance the conservation and sustainable 
development of renewable ocean and coastal resources. Congress should 
ensure that revenues received from leasing and extraction of oil and 
gas and other new offshore uses are used to promote sustainable 
development of renewable ocean and coastal resources through creation 
of a grant program to all coastal states, with a larger share going to 
OCS producing States.
    Conventional oil and gas are not the only fossil-based fuel sources 
located beneath ocean floors. Methane hydrates are solid, ice-like 
structures composed of water and natural gas. They occur naturally in 
areas of the world where methane and water can combine at appropriate 
conditions of temperature and pressure, such as in thick sediments of 
deep ocean basins, at water depths greater than 500 meters. The 
estimated amount of natural gas in the gas hydrate accumulations of the 
world greatly exceeds the volume of all known conventional gas 
resources. Conservative estimates reveal the quantity is enough to 
supply all of the Nation's energy needs for more than 2,000 years at 
current rates of use. However, there is still no known practical and 
safe way to develop the gas and it is clear that much more information 
is needed to determine if methane hydrates can become a commercially 
viable and environmentally acceptable source of energy. The National 
Ocean Council (NOC), working with the U.S. Department of Energy and 
other appropriate entities, should determine whether methane hydrates 
can contribute significantly to meeting the Nation's long-term energy 
needs. If such contribution looks promising, the NOC should determine 
how much the current investment in research and development efforts 
should be increased.
    There is continued interest in offshore renewable technologies as a 
means of reducing U.S. reliance on potentially unstable supplies of 
foreign oil, diversifying the Nation's energy mix, and providing more 
environmentally benign sources of energy. As long as federal agencies 
are forced to bootstrap their authorities to address these activities, 
the Nation runs the risk of unresolved conflicts, unnecessary delays, 
and uncertain procedures. What is urgently needed is a comprehensive 
offshore management regime, developed by the National Ocean Council, 
which is designed to review all offshore uses in a greater planning 
context. A coherent and predictable federal management process for 
offshore renewable resources that is able to weigh the benefits to the 
Nation's energy future against the potential adverse effects on other 
ocean users, marine life, and the ocean's natural processes, should be 
fully integrated into the broader management regime. Congress, with 
input from the National Ocean Council, should enact legislation 
providing for the comprehensive management of offshore renewable energy 
development as part of a coordinated offshore management regime. 
Specifically, this legislation should: streamline the process for 
licensing, leasing, and permitting renewable energy facilities in U.S. 
waters; subsume existing statutes, such as the Ocean Thermal Energy 
Conversion Act, and should be based on the premise that the oceans are 
a public resource; and, ensure that the public receives a fair return 
from the use of that resource and development rights are allocated 
through an open, transparent process that takes into account State, 
local, and public concerns.

ADVANCING INTERNATIONAL OCEAN SCIENCE AND POLICY

    The United States has traditionally been a leader in international 
ocean policy-making and has participated in the development of many 
international agreements that govern the world's ocean areas and 
resources. That leadership must be maintained and reinvigorated. The 
international ocean challenges of the 21st century will require 
improved collaboration among domestic and international policy-makers 
to establish ambitious objectives and take the actions necessary to 
achieve them.
    The United States can best advance its own ocean interests and 
positively contribute to the health of the world's oceans by first 
ensuring that U.S. domestic policies and actions embody exemplary 
standards of wise, sustainable ocean management. The new national ocean 
policy framework will be instrumental in setting this positive tone for 
the international ocean community. The Commission also recommends 
several specific actions to maintain and reinvigorate the leadership of 
U.S. in global ocean issues:

U.S. Accession to the United Nations Convention on the Law of the Sea

    The United States should accede to the United Nations Convention on 
the Law of the Sea--the preeminent legal framework for addressing 
international ocean issues. Until that step is taken, the Nation will 
not be able to fully participate in bodies established under the 
Convention that make decisions on issues of importance to all coastal 
and seafaring nations, or to assume its important leadership role and 
protect United States interests as the law of the sea evolves.

Enhanced Coordination Among U.S. Ocean-Related Federal Agencies

    Within the U.S. Government, the U.S. Department of State is the 
lead agency for most ocean-related international negotiations. However, 
the role of more specialized agencies is extremely important due to the 
science and resource focus of many multilateral ocean issues. 
Consistent involvement of a wide range of experts is essential both to 
establish international standards that reflect U.S. interests, and to 
ensure that subsequent actions by the United States and others are in 
accordance with those standards.
    A new mechanism is needed to provide the optimum degree of 
coordination among U.S. agencies sharing responsibility and knowledge 
of international ocean issues. An interagency committee should be 
established under the auspices of the National Ocean Council to enhance 
coordination and collaboration among U.S. Government agencies, 
strengthening U.S. performance at international negotiations and 
improving implementation of international ocean policy.
    Successful national and international ocean policy depends on sound 
scientific information. It is essential, therefore, to ensure that U.S. 
policy-makers benefit from timely advice and guidance from the U.S. 
marine scientific community. This, in turn, requires procedures that 
both give scientists the opportunity to provide input and policy-makers 
the chance to carefully consider their recommendations. The State 
Department should increase its internal training and scientific support 
to ensure better integration of ocean-related scientific expertise in 
policy and program development and implementation. In addition, the 
Department should develop more effective mechanisms to facilitate input 
from other government agencies and the broader scientific community.

Building International Capacity in Ocean Science and Management

    Implementation of international ocean policy and improved 
management of ocean and coastal resources worldwide are affected by the 
adequacy of the science and management capacity of every coastal 
nation. To maintain progress on a global scale, the United States and 
other capable nations must assist coastal nations of more limited 
means. To be most effective, assistance should be science-based and 
developed within the context of an ecosystem-based approach. The U.S. 
Department of State should offer strong support for U.S. scientists 
conducting research programs around the world. Existing international 
partnerships should be strengthened and new partnerships promoted to 
facilitate the conduct of international research.
    Capacity-building efforts should be concentrated on issues that 
have been identified as particularly critical for the health of an 
ecosystem or marine species, and have the greatest potential for 
positive impacts. In most instances, effective capacity-building will 
require long-term efforts to change detrimental practices and build 
support for new, sustainable management approaches. These efforts will 
require a funding commitment sufficient to make the changes needed to 
preserve or rebuild healthy ecosystems. As part of its international 
leadership role, the United States should increase its efforts to 
enhance long-term ocean science and management capacity in other 
nations through funding, education and training, technical assistance, 
and sharing best practices, management techniques, and lessons learned.

IMPLEMENTING A NEW NATIONAL OCEAN POLICY

    To implement the blueprint for a new national ocean policy outlined 
in our report, several key elements are required: the will to move 
forward, the actors to carry out the changes, and the resources to 
support sustainable management of our oceans and coasts. Congress and 
the President have already demonstrated political will by enacting the 
Oceans Act of 2000 and appointing the U.S. Commission on Ocean Policy. 
Our preliminary report specifies who should carry out each 
recommendation and discusses what the costs will be and how they can be 
covered.

Who Should Take Action

    In our report, we make 198 specific recommendations to implement a 
more coordinated and comprehensive national ocean policy. One of our 
goals was to ensure that every recommendation was aimed at a clear 
responsible party who could take action and be held accountable over 
time. As you read the report, you will see the recommendations grouped 
according to subject area. However, to highlight the assignment of 
responsibility, we also present a summary of all 198 recommendations, 
organized by the primary actors, in Chapter 31.
    In brief:

        <bullet>  We include 54 recommendations for Congress, 69 for 
        Executive Branch leaders, and 125 for Federal Government 
        agencies.

        <bullet>  Of the 69 recommendations for Executive Branch 
        leaders, eight recommendations are for the President, 45 for 
        the new National Ocean Council, 13 for the offices under the 
        NOC's Committee on Ocean Science, Education, Technology, and 
        Operations, two for the Assistant to the President, and one for 
        the Presidential Council of Advisors on Ocean Policy.

        <bullet>  Of the 125 recommendations aimed at Federal 
        Government agencies, 44 are for NOAA, 20 for EPA, 10 for the 
        U.S. Coast Guard, nine for NSF, nine for the Department of the 
        Interior, eight for the U.S. Navy, eight for the Department of 
        State, six for the Department of Transportation, five for NASA, 
        three for the National Institute of Environmental Health 
        Sciences, two for the U.S. Army Corps of Engineers, two for the 
        Department of Agriculture, and one for the Department of Labor.

    (Note that some recommendations include more than one actor. As a 
result, the breakdown by organization adds up to more than 198.)
    Although we have avoided targeting States (and local, territorial, 
and tribal governments) as the primary actors in our recommendations, 
they have a critically important role to play in the new National Ocean 
Policy Framework--through establishment of regional ocean councils, and 
in areas such as coastal development, water quality, education, natural 
hazards planning, fishery management, habitat conservation, and much 
more. States should also participate in the design and implementation 
of regional ocean observing systems and their integration into the 
national IOOS, as well as other research and monitoring activities.

How Can the Needed Changes Be Achieved: Costs and Revenues

    The recommendations I've just alluded to outline a series of 
ambitious proposals for improving the use and protection of the 
Nation's oceans and coasts. But meaningful change requires meaningful 
investments. In the case of the ocean, such investments are easy to 
justify.
    As I explained earlier and as we discuss in more detail in the 
preliminary report, more than one trillion dollars, or one-tenth of the 
Nation's annual gross domestic product, is generated each year within 
communities immediately adjacent to the coast. By including the 
economic contribution from all coastal watershed counties, that number 
jumps to around five trillion dollars, or fully one half of our 
nation's economy. Those contributions are threatened by continued 
degradation of ocean and coastal environments and resources.
    Modest levels of new funding will reap substantial dividends by 
supporting new management strategies to sustain our ocean and coastal 
resources and maximize their long-term value.
Costs
    From the start, this Commission pledged to be clear about the costs 
of its recommendations. In keeping with that goal, the final report 
will include a complete accounting of the startup, short-term, and 
continuing costs associated with each issue area, including an analysis 
of federal, State, and local budget implications to the extent 
possible.
    At this stage, I am able to provide a rough estimate of overall new 
federal spending associated with the Commission's preliminary 
recommendations. The Commission continues to refine its calculations 
and the information on which they are based, and will have more 
detailed costs and revenue estimates in the final report to the 
Congress and the President.
    The total estimated additional cost for initiatives outlined in our 
report will be approximately:

        <bullet>  $1.2 billion in the first year

        <bullet>  $2.4 billion in the second year

        <bullet>  $3.2 billion per year in ongoing costs thereafter.

    A few special investments are worth highlighting:

        <bullet>  Creation of the National Ocean Council and related 
        elements, with first-year costs of $1 million and ongoing 
        annual costs of $2 million.

        <bullet>  Expansion of ocean education programs, with first-
        year costs of $7 million, second year costs of $251 million, 
        and ongoing annual costs of $246 million.

        <bullet>  Establishment of an integrated ocean observing 
        system, with first-year costs of $290 million, second-year 
        costs of $312 million, and ongoing annual costs of $652 
        million.

        <bullet>  Increased ocean science and exploration, with first-
        year costs of $230 million, second-year costs of $395 million, 
        and ongoing annual costs of $760 million.

        <bullet>  Dedicated federal support for needed State actions, 
        with first-year costs of $500 million, second-year costs of 
        $750 million, and ongoing annual costs of $1 billion.

    In view of the value generated by the ocean and coastal economy, we 
believe these are very reasonable investments.
Revenue: Creation of an Ocean Policy Trust Fund
    Mindful of intense budgetary pressures at both federal and State 
levels--and sensitive to the hardship associated with unfunded federal 
mandates--the Commission set out to identify appropriate sources of 
revenue to cover the cost of its recommendations. A logical, 
responsible funding strategy is outlined in the preliminary report and 
will be developed further in the final report.
    The Commission proposes creation of an Ocean Policy Trust Fund 
composed of rents generated from permitted uses in federal waters. The 
Fund would include Outer Continental Shelf oil and gas revenues that 
are not currently committed. It would support the additional 
responsibilities we suggest for federal agencies and prevent the 
creation of unfunded mandates to states.
    The critical nature of the Nation's oceans assets and the 
challenges faced in managing them make it clear that the time has come 
to establish an Ocean Policy Trust Fund in the U.S. Treasury to assist 
federal agencies and State governments in carrying out the 
comprehensive ocean policy recommended by this Commission.
    The Fund would include federal revenues from Outer Continental 
Shelf oil and gas development that are not currently committed to other 
funds. The Land and Water Conservation Fund, the National Historic 
Preservation Fund, and the OCS oil and gas revenues given to coastal 
states from the three mile area seaward of their submerged lands would 
not be affected. After those programs were funded, in accordance with 
law, the remaining OCS monies would be deposited into the Ocean Policy 
Trust Fund.
    Additional funds may also become available based on new offshore 
activities. In several sections of the preliminary report we discuss 
revenues that may be generated from permitted uses of federal waters. 
In general, when a resource is publicly-owned, its use by private 
profit-making entities should be contingent on a reasonable return to 
taxpayers. Creating a link between permitted activities in federal 
waters and the cost of associated regulatory and management 
responsibilities is logical and well justified by precedents in federal 
land management.
    Approximately $5 billion is generated annually from OCS oil and gas 
revenues. Protecting the three programs noted above would remove about 
$1 billion. Thus, some $4 billion would remain available for the Ocean 
Policy Trust Fund each year under current projections. At this time it 
is not possible to specify the amount of revenue that might be produced 
by emerging uses in federal waters, nor predict when they may begin to 
flow.
    The report recommends that a portion of the revenues received from 
the use of offshore resources be granted to States for the conservation 
and sustainable development of renewable ocean and coastal resources. 
OCS oil and gas producing States should receive a larger portion of 
such revenues to address the impacts on their States from extraction 
activities in adjacent federal offshore waters.
    In the Commission's view, Trust Fund monies should be used 
exclusively to support improved ocean and coastal management consistent 
with the Nation's new coordinated and comprehensive national ocean 
policy. Such funds would be used to supplement--not replace--existing 
appropriations for ocean and coastal programs, and to fund new or 
expanded duties.

CLOSING STATEMENT

    What I have presented to you today is a broad overview of the 
Commission's preliminary report--the culmination of two and a half 
years of work by 16 dedicated commissioners, 26 world-class science 
advisors, and a tireless staff of experts. To create this report, the 
Commission heard testimony and collected other information that shaped 
our understanding of the most pressing issues facing our nation's 
oceans and coasts.
    The Commission balanced environmental, technical, economic, and 
scientific factors in making its recommendations. These bold 
recommendations for reform call for immediate implementation, while it 
is still possible to reverse distressing declines, seize exciting 
opportunities, and sustain the oceans and their valuable assets for 
future generations. Clearly, the Commission's recommendations will 
require some new investments. However, without major change, the 
tremendous potential of our oceans and coasts to American prosperity 
will continue to deteriorate.
    It has taken more than 35 years for the Nation to refocus its 
attention on these vital resources. Our report provides a blueprint for 
the 21st century to achieve a future where our oceans and coasts are 
clean, safe, and sustainably managed and continue to contribute 
significantly to the well being of all the Nation's citizens. The time 
to act is now and everyone who cares about the oceans and coasts must 
play a part. Leadership from this committee and others in Congress, and 
from the White House, will be essential and we look forward to working 
closely with all of you in the months and years to come.

                 Biography for Admiral James D. Watkins
    Admiral James D. Watkins, U.S. Navy (retired), is currently serving 
as chairman of the U.S. Commission on Ocean Policy. The Commission, 
authorized by Congress in the Oceans Act of 2000, includes 16 members 
appointed by the President. The Commission's task is to recommend a 
new, comprehensive national ocean policy to the Congress and the 
President in 2003.
    Prior to his appointment to the Ocean Commission, Admiral Watkins 
served as president of the Joint Oceanographic Institutions (JOI), in 
Washington, D.C., from September 1993 until October 2000. In September 
1994, Admiral Watkins led the historic effort to establish an expanded 
partnership among the more than 60 U.S. marine institutions. The effort 
resulted in a public-private corporation known as the Consortium for 
Oceanographic Research and Education, or CORE. In September 1996, as a 
result of CORE's efforts, Congress authorized and funded the National 
Oceanographic Partnership Act which implemented a new, broad ocean 
science and technology agenda for the Nation. Admiral Watkins served 
seven years as founding President of CORE, stepping down in March 2001.
    For his work with JOI and CORE, Admiral Watkins was awarded 
honorary doctor of science degrees from the College of William and Mary 
and Oregon State University in 1999. In March 2001, he was given the 
title of President Emeritus of CORE, and was awarded the Navy's 
Distinguished Public Service Award by the Secretary of the Navy for his 
contributions to the Nation in ocean science and technology matters.
    Prior to his oceanographic work, Admiral Watkins served as the 
sixth Secretary of Energy under President George H.W. Bush, from March 
1989 through January 1993. He also served as the 22nd Chief of Naval 
Operations under President Ronald Reagan. Admiral Watkins is a native 
of California and a 1949 graduate of the U.S. Naval Academy.

    Chairman Boehlert. Thank you very much, Admiral.
    Dr. Solow.

  STATEMENT OF DR. ANDREW R. SOLOW, DIRECTOR OF MARINE POLICY 
          CENTER, WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Dr. Solow. Thank you very much. It is an honor to testify 
before this committee.
    Before I begin, I would like to say that, in my opinion, 
Admiral Watkins, Tom Kitsos, and the rest of the Commission 
staff have performed a true service to the Nation and a near-
miracle by producing this report.
    I have been asked to address three questions about the 
recommendations of the report. The first question is: ``What 
are the major deficiencies in the way ocean and coastal policy 
is organized at the federal level?'' In broad terms the main 
deficiency in the way federal policy in this area is organized 
is fragmentation. At least six departments, Agriculture, 
Commerce, Defense, Energy, Interior, and Transportation, have 
significant responsibilities in ocean and coastal policy, as 
does the Environmental Protection Agency. Other departments and 
independent agencies have more limited involvement. This 
fragmentation tends to impede policy coordination. Policy 
coordination is especially important in this area, because the 
various biological and environmental components of the marine 
and coastal system are linked and therefore can not be managed 
effectively in isolation.
    Having said that, in my opinion, there is a tendency to 
overstate the connection between policy outcome and policy 
structure. Although federal policy structure in this area is 
fragmented, this fragmentation is not, by itself, responsible 
for the problems on the ground and in the water. Federal 
entities can, and do, communicate and coordinate, both formally 
and informally. This process is uneven and imperfect, but it is 
part of the picture. By the same token, rationalizing the 
federal policy structure is no guarantee that the problems will 
be solved. This is by no means an argument against improving 
the structure. I only wish to be realistic about what an 
improved structure, by itself, can deliver.
    The second question that I have been asked to address is: 
``Do you agree with the Commission's recommendation to create a 
National Ocean Council?'' This Council would consist of 
secretaries and directors of departments and agencies with 
responsibilities in this area. If the Commission's only 
recommendation in the area of federal structure had been to 
create this Council, then I would not have been terribly 
enthusiastic about it. As the old adage goes, you can lead a 
horse to water, but you can't make him drink. However, the 
Commission also recommends the appointment of an assistant to 
the President to chair this Council, the formation of a group 
of non-federal advisors to work with the Council, and the 
formation of a small White House Office of Ocean Policy, headed 
by the assistant to the President, that would support the 
Council and oversee the implementations of its recommendations 
and decisions. This raises the prospect that the horses will 
drink, and I am enthusiastic about the complete package of 
recommendations for three reasons.
    First, although I do not believe that the problems on the 
ground and in the water would be solved by better coordination 
alone, better coordination could certainly contribute to the 
formulation and execution of better policies. Second, this is a 
time when new uses of the ocean, for example ocean aquaculture 
and wind power, and new methods of management, for example 
market-based approaches and multiple-use management, are being 
contemplated. At such a time, it would be good to have a 
federal structure that is light on its feet, and an enhanced 
degree of coordination would help in this regard. Third, 
enacting this package of recommendations would elevate the 
visibility of ocean issues and underline the Nation's 
determination to address them. To the extent that this will 
galvanize the people and the government, this, too, could help.
    The third question that I have been asked to address is: 
``Are there alternative changes to the federal structure that 
you would recommend?'' Federal structure in this area has 
essentially evolved by itself over the past 30 years. In my 
opinion, it is a good time to take a comprehensive look at the 
product of this evolutionary process and make improvements 
where possible. The Ocean Commission has made an excellent 
start at this, and provided the political will is there, the 
structural changes that it recommends are a good way to see 
that the job is finished, at least for this generation. The 
only additional change that I would recommend would be to 
ensure that all federal activities relating to the ocean 
undergo common policy and budgetary review within the Office of 
Management and Budget. The Commission's recommendation to 
review the NOAA budget within the Natural Resources Program at 
OMB would be a big step in the right direction.
    I would again like to thank the Committee for giving me 
this opportunity to testify.
    [The prepared statement of Dr. Solow follows:]
                 Prepared Statement of Andrew R. Solow
    Thank you very much. It is an honor to testify before this 
committee.
    Before I begin, I would like to say that, in my opinion, Admiral 
Watkins, Tom Kitsos, and the rest of the Commission staff have 
performed a true service to the Nation and a near-miracle by producing 
this report.
    I have been asked to address three questions about the findings and 
recommendations of the report. The first question is: What are the 
major deficiencies in the way ocean and coastal policy is organized at 
the federal level? In broad terms, the main deficiency in the way that 
federal policy is organized in this area is fragmentation. At least six 
Departments--Agriculture, Commerce, Defense, Energy, Interior, and 
Transportation--have significant responsibilities in ocean and coastal 
policy, as does the Environmental Protection Agency. Other Departments 
and independent Agencies have more limited involvement. This 
fragmentation tends to impede policy coordination. Policy coordination 
is especially important in this area because the various biological and 
environmental components of the marine and coastal system are linked 
and, therefore, cannot be managed effectively in isolation.
    Having said that, in my opinion, there is a tendency to overstate 
the connection between policy outcome and policy structure. Although 
federal policy structure in this area is fragmented, this fragmentation 
is not by itself responsible for the problems on the ground and in the 
water. Federal entities can and do communicate and coordinate both 
formally and informally. This process is uneven and imperfect, but it 
is part of the picture. By the same token, rationalizing the federal 
policy structure is no guarantee that the problems will be solved. This 
is by no means an argument against improving the structure. I only wish 
to be realistic about what an improved structure, by itself, can 
deliver.
    The second question that I have been asked to address is: Do you 
agree with the Commission's recommendation to create a National Ocean 
Council to address these deficiencies? This Council would consist of 
Secretaries and Directors of Departments and Agencies with 
responsibilities in this area. If the Commission's only recommendation 
in the area of federal structure had been to create this Council, then 
I would not be terribly enthusiastic about it. As the old adage goes, 
you can lead a horse to water, but you can't make him drink. However, 
the Commission also recommends the appointment of an Assistant to the 
President to chair this Council, the formation of a group of non-
federal advisors to work with the Council, and the formation of a small 
White House Office of Ocean Policy, headed by the Assistant to the 
President, that would support the Council and oversee the 
implementation of its decisions. This raises the prospect that the 
horses will drink and I am enthusiastic about the complete package of 
recommendations for three reasons.
    First, although I do not believe that the problems on the ground 
and in the water would be solved by better coordination alone, better 
coordination could certainly contribute to the formulation and 
execution of better policies. Second, this is a time when new uses of 
the ocean--for example, ocean aquaculture and wind power--and new 
methods of management--for example, market-based approaches and 
multiple-use management--are being contemplated. At such a time, it 
would be good to have a federal structure that is light on its feet and 
an enhanced degree of coordination would help in this regard. Third, 
enacting this package of recommendations would elevate the visibility 
of ocean issues and underline the Nation's determination to address 
them. To the extent that this will galvanize the people and the 
government, this, too, could help.
    The third question that I have been asked to address is: Are there 
alternative changes to the federal structure that you would recommend? 
Federal structure in this area has essentially evolved by itself over 
the past 30 years. In my opinion, it is a good time to take a 
comprehensive look at the product of this evolutionary process and make 
improvements where possible. The Ocean Commission has made an excellent 
start at this and, provided the political will is there, the structural 
changes that it recommends are a good way to see that the job is 
finished--at least for this generation. The only additional change that 
I would recommend would be to ensure that all federal activities 
relating to the ocean undergo common policy and budgetary review within 
the Office of Management and Budget. The Commission's recommendation to 
review the NOAA budget within the Natural Resources Program at OMB 
would be a big step in the right direction.
    I would again like to thank the Committee for giving me the 
opportunity to testify.

                     Biography for Andrew R. Solow

Professional Experience

1994-present--Director, Marine Policy Center, Woods Hole Oceanographic 
        Institution

1987-present--Scientific Staff, Woods Hole Oceanographic Institution

1985-1987--Post-doctoral Research Fellow, Woods Hole Oceanographic 
        Institution

Education

1986--Ph.D., Statistics, Stanford University

1977--BA, Economics, Harvard University

Selected memberships

Editorial Board, Environmental and Ecological Statistics

Editorial Board, Ecology

Member, National Academy of Sciences, Commission on Geosciences, 
        Environment, and Resources

Member, Scientific Working Group, Intergovernmental Panel on Climate 
        Change

Member, U.S. Ocean Commission Science Panel

Selected publications

Solow, A.R. 1989. A randomization test for independence of animal 
        locations. Ecology, 70(5): 1546-1549.

Solow, A.R. 1990. A note on the statistical properties of animal 
        locations. Journal of Mathematical Biology, 29: 189-193.

Solow, A.R. and Helser, T. 1994. Detecting extinction in sighting data. 
        In: Quantitative Methods in Conservation, Springer-Verlag.

Solow, A.R. and Roberts, D. 2002. A nonparametric test for extinction 
        based on a sighting record. Ecology, in press.

Solow, A.R. 2002. Estimation of stratigraphic ranges when fossil finds 
        are not randomly distributed. Paleobiology, in press.

Solow, A. and Polasky, S. 1999. A quick estimator for taxonomic 
        surveys. Ecology, 80: 2799-2803.

Smith, W., Solow, A.R., and Chu, C. 2000. An index of the contribution 
        of spatial heterogeneity to the species accumulation curve. 
        Ecology, 81: 3233-3236.

Solow, A.R., Bollens, S.M., and Beet, A. 2000. Comparing two vertical 
        plankton distributions. Limnology and Oceanography, 45: 506-
        509.

Solow, A.R. and Costello, C.J. 2001. A test for declining diversity. 
        Ecology, 82: 2370-2372.

Costello, C. and Solow, A.R. 2003. Discovery patterns or introduced 
        species. Proceedings of the National Academy of Sciences, 100: 
        3321-3323.

Recent collaborators

Stephen Bollens, San Francisco State University; Christopher Costello, 
        University of California, Santa Barbara; Laura Moore, Oberlin 
        College; Stephen Polasky, University of Minnesota; David 
        Roberts, Royal Botanic Gardens, Kew; Woollcott Smith, Temple 
        University; Lewi Stone, Tel Aviv University

Graduate and Postdoctoral Advisors

Andre Journel (Ph.D. Advisor), Stanford University

James Broadus (Postdoctoral Advisor), deceased

Ph.D. Committee Service MIT-Woods Hole Joint Program

Carla Curran; Michelle Durand; Masami Fujiwara; Rebecca Green; Gorka 
        Sancho; Laela Sayigh

Other Ph.D. Committee Service

Anand Patwardhan (Carnegie Mellon); Oren Barnca (Tel Aviv University); 
        Ercan Yesilinnak (University of Izmir)

    Chairman Boehlert. Thank you very much, Dr. Solow, 
particularly because you were very precise in addressing each 
of the questions.
    Now I would like you to be precise in the answer to this. 
Would you care to issue an invitation to this committee to join 
you in Woods Hole this summer?
    Dr. Solow. Mr. Chairman, I have already written on the pad 
that I--that we would like to invite you all to visit.
    Chairman Boehlert. It is one of the great places in the 
world for my colleagues who have not been there. And thank you 
for that kind invitation.
    Dr. Pomponi.

 STATEMENT OF DR. SHIRLEY A. POMPONI, ACTING MANAGING DIRECTOR 
         OF THE HARBOR BRANCH OCEANOGRAPHIC INSTITUTION

    Dr. Pomponi. Well, I would like to invite you to come to 
Fort Pierce, Florida, but not in the summertime. You will want 
to come there in January.
    Chairman Boehlert. No, we have 12 months a year, and----
    Dr. Pomponi. Right.
    Chairman Boehlert [continuing]. And we will know when we 
will deal with----
    Dr. Pomponi. Thank you, Chairman Boehlert and Members of 
the Science Committee, for the opportunity to appear before you 
this morning. While my testimony represents my own views, I am 
also testifying today as an elected member of the executive 
committee of the Consortium for Oceanographic Research and 
Education, or CORE. I have been asked to address the major 
problems and issues with respect to national efforts in ocean 
and coastal research to identify the top recommendations that 
should be implemented immediately, given a limited budget, and 
to provide an example of how ecosystem-based management would 
change ocean and coastal management from current methods.
    In the interest of time, I am providing just brief comments 
on each of these areas. My written testimony provides more 
detail for your consideration.
    I believe four of the 12 critical actions identified by the 
Commission in its executive summary are essential to ocean and 
coastal science. First, improve the federal agency structure 
and strengthen NOAA. Coordination of ocean and coastal science 
programs remains a top priority for strengthening ocean science 
and does not require enormous financial resources, but rather a 
commitment by a dozen or so federal ocean agencies to 
coordinate their efforts and implement improved mechanisms that 
will allow them to work together efficiently. Enactment of a 
NOAA Organic Act that clearly lays out an integrated agency 
structure and mission is essential if NOAA is to address the 
Commission recommendations.
    Second, double the U.S. investment in ocean research. 
Research areas where increased investment could lead to 
substantial benefits include bio-diversity and ecosystem 
research, development of ocean information systems, climate and 
ocean modeling, and discovery and development of new marine 
products. One of the most incredible scientific discoveries of 
the 20th century, in my opinion, animals that depend not on 
photosynthesis but on chemosynthesis was realized through 
exploration of deep-sea vents. Since that discovery more than 
25 years ago, we have only explored less than 50 of the 
estimated 5,000 deep-sea vents and seeps. We have explored 200 
of the estimated 30,000 sea mounds that could each provide new 
opportunities for fishery resources. A robust ocean exploration 
program will dramatically alter not only our understanding of 
life on Earth, and maybe even other planets, but also lead to 
new technologies and improved scientific understanding with 
benefits comparable, and likely even superior, to those we have 
realized as a result of space exploration.
    While the overall levels of funding should be doubled, 
increases for individual agencies and programs should be based 
on a careful and comprehensive assessment of priorities related 
to national ocean policy goals and on the role of each federal 
ocean agency in carrying out that policy. For example, doubling 
of the NSF ocean science's budget is consistent with efforts to 
double the agency's budget overall. By contrast, at NOAA, the 
report recommends new responsibilities in several areas, such 
as ocean observing systems and oceans and human health, that 
would require substantial new, competitive research 
initiatives. For the Office of Naval Research, its vibrant 
support for basic research must be restored.
    Third, implement the National Integrated Ocean Observing 
System. The ocean science community supports the Commission's 
high priority on development and implementation of an 
Integrated Ocean Observing System as well as on enhancing ocean 
infrastructure and technology development. Ensuring the future 
of the academic research fleet is one of the most acute needs 
of the marine science enterprise. Funding for an Integrated 
Ocean Observing System may be more of a challenge since NOAA is 
the logical home for much of the program. By providing 
leadership and coordination, regional pilot programs that are 
already in progress could be fully integrated into a larger 
scale effort and initiate the implementation process.
    Fourth, increase attention to ocean education. The 
Commission offers a number of recommendations to strengthen the 
role of science education as a specific part of each federal 
ocean agencies' mission. Currently, NSF and NASA are the only 
agencies that include education in their missions. Other 
agencies must support education to ensure continued agency 
capabilities.
    The concept of ecosystems-based management enjoys broad-
based support, because it makes sense both intuitively and 
scientifically. In my home State of Florida, a Comprehensive 
Everglades Restoration Plan is being implemented. Florida Bay 
is included in the restoration plan because of its linkages 
with the Everglades. One potential scenario is that nitrogen 
and phosphorus in the freshwater runoff from the Everglades 
could increase phytoplankton blooms in the Bay, and these 
blooms could be carried out to the Florida Reef Tract. The fact 
that we lack a circulation model that would enable us to link 
changes in Everglades hydrology with Florida Bay and reef tract 
ecology is hampering resource managers and restoration 
planners.
    In conclusion, I would like to acknowledge the achievement 
represented by the Commission's report. The commissioners have 
given us a wide-ranging assessment of the current status of our 
oceans and coasts. They offer us a vision and a starting point 
for addressing America's relationship to the sea. With a clear 
path to follow, the support of stakeholders around the country, 
and your commitment to make the necessary changes, we have a 
unique opportunity to develop and implement a strong ocean 
policy.
    Thank you.
    [The prepared statement of Dr. Pomponi follows:]
                Prepared Statement of Shirley A. Pomponi
    Chairman Boehlert, Ranking Member Gordon and Members of the Science 
Committee, I want to thank you for the opportunity to appear before you 
this morning and for the Committee's leadership in considering the 
recommendations of the U.S. Commission on Ocean Policy (Commission). I 
am Shirley Pomponi, Acting Managing Director of Harbor Branch 
Oceanographic Institution. In addition, I serve on the Commission's 
Science Advisory Panel.
    While my testimony represents my own views, I also am testifying 
today as an elected member of the executive committee of the Consortium 
for Oceanographic Research and Education (CORE). The 76 member 
institutions of CORE represent the mainstream of American oceanographic 
research and education. Through CORE, an incredibly diverse, dynamic 
and independent ocean sciences community works together to develop and 
promote a common vision and goals.
    I would like to begin by acknowledging the enormous achievement 
represented by the Commission's preliminary report. This bipartisan 
panel of 16 experts from government, academia, and industry has 
released the most monumental review in three decades of how our country 
manages its vast ocean resources. Authorized by Congress and appointed 
by the President, the Commission has spent the past two years 
considering testimony from hundreds of citizens, scientists, and 
policy-makers. Over and over again, they heard that the oceans are in 
danger and that the responsible federal agencies and State and local 
governments are not working together effectively. Ultimately, they 
distilled an avalanche of material to produce a clear, step-wise plan 
for turning the situation around and developing a coherent national 
ocean policy.
    This is not to say that there is agreement within the ocean 
community, or even within the Commission membership, on each of the 
Commission's recommendations. Nor does it suggest that the preliminary 
report comprehensively addresses each of the many ocean policy 
challenges that this nation faces. What the Commission has given us is 
a wide-ranging and honest assessment of the current status of our 
oceans and coasts. Its members examined everything from stewardship of 
marine resources and pollution prevention to enhancing and supporting 
marine science, commerce and transportation, and their recommendations 
are just as far reaching. The preliminary report offers us a vision and 
starting point for addressing America's relationship to the sea. Now it 
is our responsibility to ensure that vision is implemented.

Ocean And Coastal Research Problems And Issues

    While most Americans recognize that Earth is the only known living 
planet, few understand that its life is derived in large measure from 
its oceans. Oceanographic research to date has revealed that the seas 
play a critical role in regulating Earth's weather and climate, 
replenishing and maintaining the viability of our atmosphere, housing 
extraordinarily diverse forms of life, and significantly influencing 
the creation and ever-changing appearance of our coastlines.
    Nor does the public fully understand the essential role of the 
oceans in our economy and to our quality of life. As the Commission 
points out, our nation's ocean economy contributed more than $117 
billion and supported well over two million jobs in 2000. More than $1 
trillion, or about a tenth of the U.S. annual gross domestic product is 
generated in a relatively narrow strip of land along our coasts, and 
almost half ($4.5 trillion) is generated in coastal watershed counties. 
One out of every six jobs in the United States is marine related, and 
over half of our population lives and works next to the Atlantic and 
Pacific Oceans, the Gulf of Mexico, and the Great Lakes. Overseas trade 
via U.S. ports is expected to double by 2024, and the growth in 
passenger transportation is likely to continue. Offshore areas provide 
30 percent of the oil, and 25 percent of the natural gas powering our 
economy and our homes.
    My home State of Florida is among the most reliant on healthy 
oceans. With an economy and lifestyle that is intimately tied to 
coastal proximity, Floridians can feel the effects of ocean health 
decline in the form of beach closings, decreases in tourism, and even 
poor fishing. Such consequences threaten not only a way of life, but 
also the continued favor of the 50 million tourists that visit each 
year, and the economy they support.
    It is a powerful reality that knowledge of the oceans, their 
resources and their relationship to human activities is vital to our 
existence. It is a fundamental challenge for the ocean science 
community to convey that reality both to decision-makers and to the 
American public. Our ability to address problems and issues in ocean 
and coastal research will rely in large part on our success.

Coordinating ocean and coastal research and education programs.

    One of the most significant conclusions of the new report is that 
the patchwork of agencies and processes that have evolved over the past 
three decades to oversee the Nation's ocean interests is simply not up 
to the challenge of fixing the problems identified. To remedy the 
situation, the report recommends substantial restructuring at the 
federal level, including mechanisms for making ocean policy decisions 
through a high-level interagency governance structure.
    Focusing specifically on ocean and coastal science, more than a 
dozen federal agencies currently fund research or education activities. 
Consequently, interagency coordination is essential to avoid 
duplication and strengthen the scientific basis for ocean management. 
The Commission proposes to build on the model created under the 
National Oceanographic Partnership Program (NOPP) in 1997. NOPP 
promotes national goals of assuring national security, advancing 
economic development, protecting quality of life, and strengthening 
science education and communication through improved knowledge of the 
ocean. It creates a higher level of coordinated effort and synergy 
across the broad oceanographic community by establishing partnerships 
on two fronts. First, NOPP relies on collaboration among fifteen 
federal agencies, calling on the top official of each participating 
agency to serve on an interagency council that provides program 
oversight. Second, NOPP increases the visibility for ocean issues on 
the national agenda by facilitating projects among federal agencies, 
academia, industry, and other governmental and non-governmental 
organizations. While investment in the program to date has been 
relatively modest, it has proven to be an effective mechanism for 
building and coordinating federal ocean science partnerships. 
Consequently, the oceanographic community generally supports the 
Commission's recommendations to use NOPP as a model for coordinating 
expanded interagency ocean science investments.

Enhancing the ocean observation and operational infrastructure.

    The Commission report places high priority on development and 
implementation of a sustained and integrated ocean observing system and 
on enhancing ocean infrastructure and technology development. There is 
broad-based agreement within the oceanographic community on the need to 
maintain and enhance our national infrastructure for ocean observation 
and to support scientific operations.
    The academic research fleet is the most crucial shared resource 
currently used by ocean and coastal researchers. Without a dependable 
seagoing capability, the flexibility and mobility needed to explore new 
areas and respond to exciting and scientifically interesting phenomena 
will be eliminated. One of the most acute needs of the marine science 
enterprise and for deploying and maintaining an integrated ocean 
observing system is ensuring the future of the oceanographic fleet.
    Over the coming decade, nearly all mid-sized vessels classified as 
Regional or Ocean Class will reach the end of their design life and 
require replacement. In 2002, a federal interagency committee on 
oceanographic facilities completed a report outlining the state of the 
fleet and suggesting a timeline for replacement. While the Navy and the 
National Science Foundation have indicated that they may provide future 
funding for fleet renewal, neither agency has made available the funds 
necessary to construct new ships in the Oceans class. The Commission 
report recommends establishment of a modernization fund to meet such 
critical infrastructure and technology needs. However, it provides 
little detail on how such a fund would be capitalized or administered.
    The Ocean Drilling Program (ODP) has been another important 
scientific platform that allows researchers to examine the past in 
order to understand the history of the ocean and climatic environment 
by retrieving and examining core samples from the ocean floor. Features 
like the North Atlantic Deep Water Formation, a driver of today's 
ocean-climate engine and the chief mechanism for the distribution of 
heat throughout the world's oceans, have fluctuated at well-defined 
intervals during the last fifteen million years. Understanding such 
abrupt changes is absolutely essential for comprehending the many 
forces affecting our world's climate. As ODP moves into a new, 
international phase, the principal drilling vessel, the JOIDES 
Resolution, will be retired, and a replacement must be secured to 
ensure continued U.S. participation in the program. The fiscal year 
2005 budget for the National Science Foundation proposes $45 million to 
initiate that process as part of its Major Research Equipment and 
Facilities Construction account.
    While ships provide an on-site, mobile, and flexible instrument 
platform for research and observation, long-term, in situ observations 
are critical to understanding ocean processes. Results from activities 
such as the tropical atmosphere-ocean buoy array that monitors the El 
Nino Southern Oscillation in the Pacific, the Pirata Array in the 
tropical Atlantic, and free-drifting ARGO profiling floats are proving 
the value of long time series observations, and developing the 
scientific foundation needed to better understand the global climate. 
Moreover, these systems demonstrate that changes in distant oceans can 
affect the coastal oceans of our nation.
    It is critical that we expand the reach of our ocean observing 
systems throughout the marine environment, including our nation's 
coastal areas. In addition, we must develop and deploy a robust data 
integration and management system and enhance our modeling capability 
to ensure full benefit and use of observational products from this 
system. Such an end-to-end approach from observations to analysis to 
modeling is critical if we are to improve both our understanding of the 
ocean as well as to develop decision support capabilities regarding 
ocean policy and management.
    In order to progress and enhance our nation's ocean observing 
abilities, supporting a strong and vigorous program of research and 
development is essential. The National Science Foundation is proposing 
an Ocean Observatories Initiative to explore new scientific questions 
that require a sustained, multi-year, real-time observation capability. 
This is an important step in maintaining our ocean science leadership. 
Other technological needs that should be examined include the 
scientific demand for deep-diving vehicles, dedicated platforms to 
support ocean exploration, and remote sensing capabilities.

Advancing ocean education.

    The Commission has made promotion of lifelong ocean education a 
centerpiece of its preliminary report. The report stresses the central 
role of both formal and informal education efforts for Americans of all 
ages from kindergarten through retirement, stating:

         ``To successfully address complex ocean- and coastal-related 
        issues, balance the use and conservation of marine resources, 
        and realize future benefits from the ocean, an interested, 
        engaged public will be needed.''

    The Commission proposes to accomplish this by: (1) building a 
collaborative ocean education network that links research and education 
communities; (2) integrating the oceans into elementary and high school 
education programs; (3) investing in higher education and the ocean 
workforce; and (4) strengthening informal education programs.
    I think the vast majority of my colleagues join me in supporting 
the Commission's focus on education. Moreover, I completely agree that 
a knowledgeable public is the real key to sustainable ocean policies. 
Ocean scientists need to improve our communication with the American 
public about the value of the science we do. It has been said that the 
U.S. space exploration program enjoys the support that it has because 
everyone can look up into the sky. On the other hand, not everyone 
lives on the coast and can see the ocean. Not everyone understands the 
value of ocean exploration to the discovery of new fisheries, new 
drugs, and new energy sources; to predicting phenomena such as El Nino 
and harmful algal blooms (and their impact on our health and economy); 
and to protecting our coastlines from both natural and man-made threats 
to our health and security.
    Not surprisingly, CORE has been particularly active and interested 
in the Commission's recommendations on investing in higher education 
and the ocean workforce. Graduate education in the United States is 
based upon a strong national research infrastructure at centers of 
higher education and research. The future quality of ocean sciences in 
the United States and our nation's capability to understand and manage 
marine issues related to environmental quality, economic well-being, 
and national security depend upon maintaining graduate educational 
programs of high caliber. This area of education cannot be the concern 
of a single agency. All ocean agencies depend upon a well-educated and 
well-trained workforce and need to assume responsibility for this 
endeavor.
    The Commission offers a number of recommendations to strengthen the 
role of science education as a specific part of each federal ocean 
agency's mission. Currently NSF and NASA are the only agencies that 
include education in their missions. Other ``mission-oriented'' 
agencies such as the Navy, NOAA, the U.S. Geological Survey (USGS) and 
the Environmental Protection Agency (EPA) all support science education 
to varying degrees--most commonly through graduate student research 
assistantships. At the same time, such support is vulnerable to budget 
cuts if education is not perceived by the executive branch to be a part 
of the agencies' core missions. Given each agency's workforce needs, it 
is essential that they provide significant financial assistance for 
supporting graduate students in order to ensure continued agency 
capabilities as well as the future health of the profession.
    The financial aid system for graduate students in the ocean 
sciences depends primarily upon research assistantships and currently 
falls below other sciences. Over 50 percent of all graduate students in 
residence during fall 2001 were supported through research 
assistantships. In comparison, NSF and the National Aeronautics and 
Space Administration (NASA) offered an average of 15 graduate 
fellowships per year between 1995 and 2000. NSF also funded an average 
of six traineeships per year between 1995 and 2000. By contrast, the 
Federal Government supported almost 17,000 graduate traineeships and 
fellowships for all science and engineering fields during 2000.
    While research assistantships are appropriate for supporting field-
based graduate student research, traineeships allow the best students 
to support themselves in non-traditional educational programs that are 
often interdisciplinary and can produce a masters or doctorate with the 
knowledge of science, management and communications that is so 
desperately needed in our ocean-related workforce. The National 
Institutes of Health (NIH), which funds more than 50 percent of all 
federally-funded traineeships, provides a good potential model. 
Furthermore, the creation of large-scale integrated ocean research and 
observation programs offers new opportunities to support more 
fellowships and traineeships that allow the development of multi- or 
interdisciplinary educational experiences. Recognizing that this is an 
imbalance that must be corrected, the Commission recommends 
establishment of a NOAA traineeship program; initiation of this effort 
may occur under NOAA's Ocean and Health Initiative. Although the ocean 
science community supports the need for such a NOAA program, we also 
recommend that other mission agencies examine how each could create 
such programs to support a significant number of graduate students in a 
range of marine fields to ensure we have well-educated professionals 
for the coming decades.
    Finally, a strong national research infrastructure at centers of 
higher education and research is predicated on the availability of 
talented individuals who are well-educated and well-trained in science, 
mathematics and technology. Efforts to create a pool of such 
individuals must begin during elementary and secondary school and 
continue through graduate education and on-going professional 
development. Efforts underway, such as the Centers for Ocean Science 
Education Excellence and National Ocean Sciences Bowl, have begun to 
address needs along the educational continuum. As the Commission has 
recommended, more must be done to expand learning experiences and 
professional development for future marine scientists, technicians, 
educators and resource managers.

Increasing the investment in ocean science research.

    Much of the great progress made in marine science over the past 
several decades has been a result of federal investments made during 
the 1960s and 1970s, under the cloud of the Cold War. Under the model 
adopted by Vannevar Bush following World War II, the academic 
researcher, with public support, has been the leader in much of this 
scientific advancement. This model has led to great discoveries that 
have changed our lives, such as increased environmental predictive 
capabilities, a better understanding of the marine ecosystem and marine 
resource mapping, the ability to remotely sense ocean features from 
satellites in orbit, and national superiority in undersea surveillance 
and antisubmarine warfare.
    Today, great advances in information and communication technology, 
molecular biology and other disciplines promise astounding returns from 
investments in ocean research by offering fundamentally new means of 
analyzing and understanding the biology, chemistry, geology and physics 
of ocean dynamics and processes. There is great potential to more fully 
predict ocean processes, discover marine organisms with unique 
capabilities, understand the linkages between human and ocean health, 
and provide the scientific basis to better utilize and manage ocean 
resources.
    Unfortunately, U.S. funding for basic research in ocean sciences 
has remained stagnant for nearly two decades, effectively halving its 
buying power. At the same time, the total federal support of basic 
research has nearly doubled. While we are faced today with growing 
problems and opportunities, requiring an increased understanding of the 
Earth's oceans, resources to address them are insufficient. Society's 
increasing demands on the sea and the growing awareness of the human 
impact on the environment require ocean sciences to be at the forefront 
of scientific and social research. This requires a renewed commitment 
to marine scientific research.
    Remarkable fundamental discoveries about the natural world have 
opened the way for an even more exciting and productive future. But 
this future will be unrealized without the wherewithal to support a 
robust and vigorous research enterprise. For this reason, personally 
and on behalf of CORE, I enthusiastically endorse the Commission's 
recommendation to double the federal ocean and coastal research budget 
over the next five years. The report proposes to increase the budget 
from the fiscal year 2004 level of about $650 million to $1.3 billion 
each year. While the overall levels should be doubled, increases for 
individual agencies and programs should be based on a careful and 
comprehensive assessment of priorities related to national ocean policy 
goals and needs and on the role of each federal ocean agency in 
carrying out that policy. For example, doubling of the NSF ocean 
sciences budget would be entirely consistent with efforts to double the 
agency's budget overall. By contrast, at NOAA, the Commission 
recommends new responsibilities in several areas such as ocean 
observing systems and oceans and human health that would require 
substantial new competitive research initiatives. Completion of the 
research strategy recommended by the Commission would address this 
concern and provide a solid blueprint for agency research investment. 
Similar strategic planning completed for the U.S. Climate and Global 
Change Program was instrumental to that program's success in the mid 
1980s.

Strengthening the NOAA research enterprise.

    The summary of recommendations in the Commission's preliminary 
report devotes almost five pages to recommendations for NOAA and its 
line office, the National Marine Fisheries Service. As the Nation's 
lead civilian oceanographic agency, NOAA clearly has a central role in 
implementing a national ocean policy and it is almost inconceivable 
that such a policy could be effective unless NOAA is successful in 
carrying out it ocean missions.
    NOAA was established in 1970 under a recommendation from the report 
of the first Stratton Commission, bringing together the ocean and 
coastal-related programs and activities of several federal departments 
and agencies. Each of those initial elements brought along its own 
bureaucratic culture and approaches and over the years, NOAA has often 
struggled to create a fully integrated agency. In addition, it has 
faced enormous growth in its mission and statutory responsibilities, 
often not accompanied by adequate fiscal resources.
    From a scientific perspective, a recent CORE survey indicated that 
NOAA currently is the third largest funder of academic marine research 
in the Federal Government. As such, it provides support for scientists 
at almost all oceanographic institutions and participates in a number 
of national research programs. As national attention to climate, 
coastal and ocean management issues grows, NOAA support for mission-
related research at academic institutions must increase. Although NOAA 
is poised to play a central role in the ocean sciences, its current 
programmatic, organizational and administrative structure offers real 
impediments to effective partnerships with the academic community.
    In October 2003, NOAA requested that its Science Advisory Board 
establish a Research Review Team to evaluate NOAA science programs. In 
a preliminary report published in February, the team recommended 
development of an agency-wide research strategy and plan, and 
establishment of a senior-level research structure to provide more 
coherent research management and guidance for transitioning research 
into operations. A second phase of the effort is ongoing and will 
address the NOAA-wide research infrastructure including such issues as 
laboratory consolidation. The final report is scheduled for completion 
by the end of this month.
    Enactment of a NOAA organic act that clearly lays out an integrated 
agency structure and mission, including its role in ocean and coastal 
research and education, is essential if NOAA is to address the 
Commission recommendations and the findings of the Research Review 
Team.

Ecosystem-based Management

    The concept of ecosystems-based management is a key theme for the 
Commission report. It is a concept that enjoys broad-based support 
among managers, scientists, fishers, conservationists and other 
stakeholders because it makes sense both intuitively and 
scientifically. As the report states:

         ``Ecosystem-based management looks at all the links among 
        living and non-living resources, rather than considering single 
        issues in isolation. This system of management considers human 
        activities, their benefits, and their potential impacts within 
        the context of the broader biological and physical 
        environment.''

    The Commission also points out that the success of ecosystem-based 
management will rely on a balanced precautionary approach that weighs 
the level of scientific uncertainty and the potential risk of ecosystem 
damage as part of every management decision. At the present time, we 
simply do not have adequate information to reduce that scientific 
uncertainty.
    In a 2000 report on marine fisheries data, the National Research 
Council recommended that fishery managers must improve their 
``understanding of the functioning of the marine ecosystems affected by 
fishing activities by studying important non-target species to 
determine their feeding habits, their distribution, and their prey and 
predators.'' In addition, we must shift from our current focus 
primarily on maritime activities to looking more broadly at the 
interrelationships among land-based activities, climatic and oceanic 
process, and marine ecological factors. It means, for example, 
recognizing that pollution from Central and South Florida can harm fish 
and coral as far away as the Keys and beyond.
    The implications of ecosystem-based management for ocean science 
are enormous. Federal and State resource managers typically have 
focused their support for research and monitoring on science that is 
very close to the decision at hand. Be it counting fish or mapping 
bottom habitat, the avenue of investigation has been relatively narrow. 
While we now realize the limitations of such an approach, we have just 
begun to define scientific needs and to develop strategies that will 
allow scientific inquiry to keep pace with the growing complexity of 
management needs.
    For example, a Comprehensive Everglades Restoration Plan (CERP) is 
being implemented in my home State. Florida Bay is included in the CERP 
because of its intimate linkages with the Everglades. These include 
freshwater run-off, groundwater fluxes, and nutrient inputs. We 
currently do not know the biological and ecological effects of 
increased nutrient loading, particularly as it relates to the growth of 
phytoplankton and macroalgae in Florida Bay. One potential scenario is 
that nitrogen and phosphorus in the freshwater runoff from the Shark 
River Slough could increase phytoplankton blooms in the Bay, and that 
these blooms could be carried out to the Florida Reef Tract. The fact 
that we lack a circulation model that would enable us to link changes 
in Everglades hydrology with Florida Bay hydrology and ecology is 
hampering resource manages and restoration planners. A recent NRC 
report recommends research in several areas to remedy this situation.
    Implementation of an integrated and sustained ocean observing 
system could supply critically needed information for the transition to 
ecosystem-based management. Pilot observing systems already maintain 
the capability to monitor key physical parameters such as temperature 
and currents that control or strongly influence the impacts of human 
activities on the marine environment. The system would also provide 
longer time series needed to track climate and other sources of 
variability and to develop ecosystem forecast models.
    At present, the primary source of biological information remains 
stock assessment surveys and other ship-based sampling programs. 
However, ecosystem-based management will require development of new 
technologies to explore, discover, and exploit these biological 
resources to their full potential. Scientists are already exploring a 
variety of techniques and platforms from in situ molecular analyses to 
satellite remote sensing to sophisticated tagging programs and marine 
cable systems that will allow marine animals themselves to serve as 
data collectors.
    Without broader knowledge developed from a robust research and 
exploration effort, ecosystem-based management will be difficult, if 
not impossible. One important research need identified by the 
Commission is the study of marine biodiversity, and one effort to 
address that need is the Census of Marine Life. I currently serve on 
the U.S. national committee for the Census, an international research 
program to assess and explain the abundance, diversity, and 
distribution of marine organisms throughout the world's oceans. The 
Census is focusing on field studies that explore little known habitats 
and re-examine familiar areas using innovative technologies. The Census 
is also developing an integrated biogeographic information system with 
the potential to bring marine biodiversity information into the ocean 
observing system data network. It is unique in its focus on diversity 
through the higher levels of food webs, the discovery and 
classification of newly discovered species, and its examination of 
timelines extending back beyond the limits of modern ocean science. 
Information collected will support modeling efforts to better 
understand the response of living marine systems to environmental 
change and harvesting.
    The Census of Marine Life is just one example of cutting edge 
research conducted by academic institutions and government agencies 
throughout the United States--and in collaboration with international 
universities and government agencies--that will contribute to 
ecosystem-based management. It again reinforces the importance of 
working cooperatively to address complex management needs, an approach 
hindered, if not prevented, by current systems. Improved coordination 
will be absolutely critical if we are to begin managing the oceans in a 
way that takes into account the big picture instead of focusing 
narrowly on individual problems without regard to their 
interconnections.

Recommendations for Immediate Implementation

    The third question posed by the Committee in your invitation letter 
is probably the most difficult. With the prospect of limited 
availability of new money, it requests that I identify the ``top 
three'' recommendations regarding ocean and coastal science that should 
be implemented immediately. As you know, the preliminary report 
includes almost 200 formal recommendations, in addition to hundreds of 
suggestions for strengthening ocean science and generating high-quality 
accessible information to inform decision-makers.
    Interestingly though, many of the most significant recommendations 
have a relatively modest price tag. What they do require is a national 
level of commitment to changing the way we do business in the oceans--
if we do that, I am optimistic that the financial investments will 
follow more easily. In its executive summary, the Commission identified 
12 actions that its members concluded were critical, of which I believe 
four are essential to ocean and coastal science and correspond to 
problems and issues identified earlier in my testimony:

        <bullet>  Strengthen NOAA and improve the federal agency 
        structure

        <bullet>  Double the U.S. investment in ocean research

        <bullet>  Implement the national Integrated Ocean Observing 
        System

        <bullet>  Increase attention to ocean education

    The first of these is probably not a question of fiscal resources 
as much as structure and organization. Coordination of ocean and 
coastal science programs remains a top priority for strengthening ocean 
science and does not require enormous financial resources, but rather a 
commitment by a dozen or so federal ocean agencies to coordinate their 
efforts and implement improved mechanisms that will allow them to work 
together efficiently. At the same time, new dollars clearly will be 
required to double the ocean research investment, implement an 
integrated ocean observing system, and improve ocean education.
    With respect to research, for example, the Commission report calls 
for development of a national strategy for ocean and coastal research, 
exploration and marine operations that can ``integrate ongoing efforts, 
promote synergies among Federal, State, and local governments, 
academia, and the private sector, translate scientific and 
technological advances into operational applications, and establish 
national goals and objectives for addressing high-priority issues.'' 
Other sections of the report identify research areas where increased 
investment could lead to substantial benefits including climate and 
ocean modeling, biodiversity and ecosystem research, development of 
ocean information systems, and development of marine products. We have 
already begun this effort with proposed increases in ocean research 
programs such as the new centers for oceans and human health and NSF's 
international ocean drilling program. Proposed increases should be 
spread out over several agencies--in coordinated programs--so no single 
agency would bear the full cost. Similarly, implementation of the 
education recommendations should build upon existing programs and be 
coordinated across agencies.
    Funding for the integrated ocean observing system may be more of a 
challenge since NOAA is the logical home for much of the program. 
Still, NOAA currently is making an initial investment through funding 
for a number of regional pilot programs. By providing needed leadership 
and coordination, those projects could be fully integrated into a 
larger scale effort and initiate the implementation process.

Conclusion

    Though identifying many problems, the Commissioners and those of us 
fortunate enough to spend our lives studying the oceans recognize that 
they are still an awe-inspiring place with more than enough blue 
frontier to keep us exploring, discovering, and benefiting from those 
discoveries for the foreseeable future.
    Next month, through State of Florida funding for a program called 
the Center of Excellence in Biomedical and Marine Biotechnology, a team 
from Harbor Branch Oceanographic Institution and Florida Atlantic 
University will be searching waters off Florida's east coast and the 
Florida Keys for new organisms that produce chemicals with the 
potential to cure human diseases from cancer to Alzheimer's. As 
startling as this may sound, even within a few miles of shore, our 
group will have no trouble finding places that no one has ever seen. 
And if history serves as a guide, we'll have no trouble making 
promising new discoveries.
    But such programs are just a drop in the world's largest bucket, so 
another of the report's recommendations is that this nation begins a 
serious effort to study the 95 percent of the oceans that remain 
unexplored. There is still much to discover. For example, we have 
studied only a couple hundred of the estimated 30,000 seamounts--and 
the potential new fisheries they support. One of the most incredible 
scientific discoveries of the 20th century--animals that depend not on 
photosynthesis, but on chemosynthesis--was realized through exploration 
of deep-sea vents. Since that discovery more than 25 years ago, we have 
explored less than 50 of the estimated 5000 deep-sea vents and seeps. I 
have no doubt that a robust ocean exploration program, coupled with 
development of novel techniques for in situ analyses of unique plants, 
animals, and microbes, will dramatically alter not only our 
understanding of life on Earth (and perhaps other planets), but also 
lead to new technologies and improved scientific understanding with 
benefits comparable, likely even superior, to those we have realized as 
a result of space exploration. As evidence, consider that past ocean-
based discoveries have already advanced everything from biotechnology 
to telecommunications, and that several promising disease treatments 
from marine organisms are now in human clinical trials.
    We clearly have a great deal of work to do. The Commission 
recommends a framework that will make that work possible, but only if 
we put it to use. So, for everyone who enjoys fishing, diving, spending 
a day at a clean beach, and eating safe seafood, I would urge you to 
act quickly and decisively to carry out the Commission's 
recommendations. With a clear path to follow, the support of 
stakeholders around the country, and your commitment to make necessary 
changes, we have a unique opportunity to develop and implement a strong 
ocean policy that can reverse the downward spiral of ocean health.

    Chairman Boehlert. Thank you very much, Dr. Pomponi.
    Dr. Pietrafesa.

 STATEMENT OF DR. LEONARD J. PIETRAFESA, DIRECTOR OF EXTERNAL 
 AFFAIRS, COLLEGE OF PHYSICAL AND MATHEMATICAL SCIENCES, NORTH 
                   CAROLINA STATE UNIVERSITY

    Dr. Pietrafesa. Thank you very much, Chairman Boehlert.
    The subject in my testimony is related to the 198 NOAA-
centric recommendations in the comprehensive and visionary 
report. Five questions were posed to me, and I will address 
each in order.
    Question number one was: ``What are the current strengths 
and weaknesses of ocean and coastal programs at NOAA?'' In the 
interest of time, I will mention but a few of the strengths and 
the weaknesses. First, some of the strengths.
    Number one, good, competent personnel at the agency. Two, 
great satellite-based location information, achieving one-inch 
accuracy. Three, Sea Grant's excellent job of moving the 
results of science and technology into useable information for 
the public. Four, the reliable suite of Earth-observing 
satellites necessary for monitoring weather and climate 
globally. Next, the continuous data being collected in the 
National Estuarine Research Reserve Program, which relates 
changes in coastal fish habitat water quality to storm runoff. 
Six, the ability to forecast an El Nino event, allowing nations 
to brace for the impacts. Seven, the recognition of the 
national and international importance of NOAA by way of the 
leadership roles its lead administrators are assuming, such as 
Undersecretary Lautenbacher being the lead for the U.S. in the 
Earth Observing Summit.
    Now some of the weaknesses. A serious under-sampling of 
basic variables, such as temperature in the water and in the 
atmosphere of our oceans and coastal regions. Two, the 
difficulty of squeezing the funding called for into NOAA 
appropriations. Why? Commerce, Justice, and State have many 
competing priorities. Next, the Navy and NASA appear to be 
backing away from ocean observations. NOAA simply can not go 
this alone. Next, a lack of the in-house capabilities necessary 
to provide complete leadership and technical skills called for 
in support of the Integrated Ocean Observing System. Next, 
under-funding of NOAA data centers needs to preserve and 
provide immediate access to the data necessary for ensemble 
forecasting of weather and climate. Next, the $130 million 
being spent on coastal zone management; what tangible good is 
the investment producing versus the paltry $15 million per year 
investment in ocean exploration where realistically $100 
million per year is needed? Next, using the external community 
as a testbed to quickly develop and transition science and 
technology to operations and in dealing with a not-invented-
here syndrome within the agency. These can lead to 
Congressional earmarks, some of which are very, very ill 
conceived.
    Question number two: ``Do you agree with the 
recommendations with respect to NOAA? If not, why not?'' 
Overall, I agree with and believe that the 198 NOAA-centric 
recommendations are generally on target with several 
exceptions. For example, the assessment of the outcomes of 
federal projects within coastal watersheds must be done 
independently. You can call in the academic community here. 
Another recommendation, a truly integrated IOOS must include 
the collection of atmospheric data, such as temperature at all 
sites. Next, the modeling of coastal ecosystems must include 
precipitation and rivers if we are to relate such things as 
fish-kills and harmful algal bloom outbreaks to storms or 
drought.
    Question number three: ``Are there limitations to NOAA's 
ability to carry out the responsibilities recommended? And if 
so, what are they?'' It comes down to money, money, and money. 
At a minimum, there should be an immediate doubling of the 
federal ocean research budget, as is called for by the 
Commission. Why? Increased funding will lead to more data, 
better information, and better models. Under the present and 
future conditions of greater storm impacts and climate 
variability and change, this will help for better planning and 
mitigation.
    Question number four: ``Would it be helpful for NOAA to 
have an organic act? If so, why?'' Yes, so that NOAA can have 
clear and specific responsibilities assigned to it with an 
unambiguous partitioning of these responsibilities. For 
example, NOAA should forecast the weather, the climate, and 
hydrologic impacts of the atmosphere and the oceans, not NASA. 
Alternatively, NASA should be the testbed for new satellite 
sensor technology and the operational transition of these 
systems, when successful and shown to be of value to improving 
forecasts, should be assigned to NOAA.
    Question number five: ``What are the three top 
recommendations regarding NOAA you believe should be 
implemented without delay?'' The first is full implementation 
of the end-to-end, optimal, integrated Earth-observing system 
suite of measurements of oceanic, atmospheric, and hydrologic 
physical, chemical, biological state variables all networked 
for data transmission, data receipt, data assessment, data 
dissemination, data archiving and access all in real time and 
on the fly. The data must be useable in real time. Secondly, 
development of a crosscutting oceanic, coastal, atmospheric, 
hydrologic, physical, biological, chemical, and socio-economic 
impacts integrated Earth system modeling and operational 
forecast capability. We are capable of predicting it all. 
Finally, development of a socio-economic capability that 
supports NOAA's mission to serve the citizenry for the Nation 
and builds mitigation and resilience capacity for the Nation. 
NOAA is a mission agency that serves the needs of the public.
    I thank you for this opportunity to meet with you, applaud 
you for the hosting of this important hearing, applaud the 
extraordinary efforts of the Commission, and would be happy to 
provide any additional information or personal opinions to you. 
Thank you.
    [The prepared statement of Dr. Pietrafesa follows:]
              Prepared Statement of Leonard J. Pietrafesa

Introduction

    Good Morning. My name is Dr. Leonard J. Pietrafesa and I am the 
Director of the Office of External Affairs in the College of Physical 
and Mathematical Sciences and a Professor at North Carolina State 
University in Raleigh, NC. I have been author or co-author of 165 peer 
reviewed publications in the areas of oceanography and meteorology and 
estuary and climate dynamics impacts. I have served as Chair of the 
Board on Oceans and Atmosphere of the National Association of State 
Universities and Land Grant Colleges (NASULGC) and as Chair of the 
Council on Ocean Affairs, the precursor to the Consortium for 
Oceanographic Research and Education (CORE). Presently, I am on the 
Board on Trustees of the University Corporation for Atmospheric 
Research, am the Chair of the Educational Advisory Committee of the 
American Meteorological Society and am the Chair of the NOAA Science 
Advisory Board, which falls under FACA.
    The subject of my testimony is related to the Recommendations which 
have emanated from the bold, visionary and long awaited, U.S. Ocean 
Commission on Ocean Policy Report (USCOP) and is detailed in five 
questions which I will address individually.
    The considerable challenges to the agency are reflected in the 198 
recommendations dealing directly with NOAA in the USCOP Report.
    Now to the questions posed.

1.  What are the current strengths and weaknesses of ocean and coastal 
programs at the National Oceanic and Atmospheric Administration?

    First (20 amongst many) strengths:

        a.  Agency Personnel

        b.  Advancing the technology for and maintaining the real time 
        National Water Level Network focused on the Nation's 150 major 
        ports

        c.  Continued advances in Operational Forecasting and 
        evaluation metrics

        d.  Developing a large suite (119 ) of coastal environmental 
        models

        e.  Advancing the facilitation of the continuously operating 
        incredibly precise lateral and vertical spatial observing 
        network, including more hydrographic surveys to supplement the 
        GPS satellite constellation and height modernization

        f.  Advancing the robust Shoreline Mapping Program

        g.  Conducting long-term estuary specific research programs

        h.  Sea Grant Extension's terrific job of moving the results of 
        R&D into information that coastal managers and other 
        stakeholders can understand and utilize

        i.  The Tropical Atmospheric and Oceanic Observing Array

        j.  The visionary and reliable NOAA (and partner agencies) 
        continual suite of Earth observing satellites, such as:


        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        k.  The Argos drifter technology and drifter network strategy

        l.  The National Estuarine Research Reserve Program

        m.  Good coordination with Coastal Managers and Emergency 
        Management responders

        n.  NOAA's recent leadership of ocean observations which has 
        recently grown to annual expenditures of $400M

        o.  NOAA's recent national and international leadership roles: 
        such as NOAA Administrator VADM C.L. Lautenbacher Jr. being the 
        lead for the U.S., and one of four in the World, in the Earth 
        Observing Summit; Assistant Administrator Dr. R. Spinrad's 
        roles as Co-Chair (with Dr. M. Leinen of NSF) on the Joint 
        Subcommittee on Oceans within OSTP, the U.S. representative to 
        the Inter-Governmental Ocean Commission and as Chair of 
        Ocean.US, to name but several.

    Next (20 amongst many of) the weaknesses:

        a.  A serious under sampling of state variables in both the 
        water and atmospheric oceanic, coastal, Great Lakes and estuary 
        environments of the Nation. These data are important for: 
        systematically documenting the spatial and temporal histories 
        of the entire suite of phenomena which occur that affect and 
        effect the Nation's and the Planet's weather and climate 
        interactively coupled physical, biological, chemical and human 
        socio-economic and health systems; to ground truth NOAA's and 
        NASA's satellite sensors; and to drive to drive the development 
        of interactively coupled diagnostic and predictive models, to 
        assimilate data into the models, and for model validation. In 
        the immediate future, these models could routinely and 
        automatically forecast all environmental conditions over 
        multiple time and space scales.

        b.  USCOP has outlined a bold role for NOAA in establishing and 
        supporting the International Ocean Observing System (IOOS). 
        There is much in house strength within NOAA. However, there are 
        several principal concerns with this: NOAA does not have all 
        the in-house capabilities to provide the necessary leadership 
        and technical skills in these areas; herein, NOAA's budget 
        process does not easily and readily permit planning for 
        engagement with the extramural community. It tends to be highly 
        political-centric.

        c.  It may be difficult to `squeeze' the resources needed to 
        build and sustain for IOOS into NOAA appropriations. Why? NOAA, 
        within its parent Department Commerce, along with the 
        departments of Justice and State, two perennial Hill favorites, 
        exists in the smallest of the 13 appropriations bill.

        d.  There is growing evidence that both the Navy and NASA are 
        backing away from environmental observations in the oceans in 
        general and the coastal environment in particular because of 
        massive budget cuts to their agencies and the reprogramming of 
        the resources that remain. NOAA cannot and should not go it 
        alone. As such, NOAA's past and present dependence on NASA 
        compromises NOAA's ability to meet its' mission.

        e.  An end-to-end no-gaps new satellite system and succession 
        system network funding strategy must be conceived for NOAA. 
        (The model of USGCRP's budget formulation and budget execution 
        might provide some worthwhile lessons as this ball is pushed 
        uphill.) NASA satellites that are absolutely critical to NOAA's 
        mission include, but are limited to: EOS Aqua and Terra; 
        QuikSat; SeaWifs; Acquarius; Ocean Carbon Observation; Global 
        Precipitation Mission; ICES. The lost of any of these amongst 
        others would be devastating.

        f.  Under-funding of NOAA Data Centers archive and retrieval 
        capabilities. For example the operations budget for all NOAA 
        Data Centers is $34M in total, including the costs libraries. 
        By contrast, the NASA DAAC budget is $70M. NASA maintains a 
        research archive but NOAA maintains operational archives to 
        which there must be real time access and an ability to mine 
        data on the fly.

        g.  While the weather detection signal is usually strong, 
        attention to the high resolution, precision and accuracy of the 
        existing and new observing system instrumentation required to 
        document climate signals is sometimes overlooked.

        h.  Assessment of performance of Coastal Zone Management 
        activities. $130M is being spent annually and what is there to 
        show for it? Unbridled, unabated coastal development, growing 
        coastal water quality degradation, further destruction of 
        maritime forests, destruction of marine fish, bird and mammal 
        habitats, further destruction of wetlands, ill advised dredging 
        of inlets and so on.

        i.  Ocean Exploration expenditures presently are at $15M 
        annually but the realistic need is for $100M annually.

        j.  Connections of ocean and coastal information to educational 
        venues, from ``K to Gray.''

        k.  A perceived lack of taking more extensive advantage of 
        leveraging the intellectual and physical resources of the 
        academic community. NOAA does leverage its in-house scientific 
        talent with universities through various programs, including 
        the National Sea Grant College Program, Joint and Cooperative 
        Institutes, the Educational Partnership Program with minority 
        serving institutions, Ocean and Coastal Remote Sensing 
        Programs, the Coastal Ocean Program, Ocean Exploration and the 
        National Undersea Research Program. Herein, NOAA expended 
        nearly $257M on extramural research in FY03, almost 35 percent 
        of the agency's entire R&D budget. Nonetheless, the University 
        community has had difficulty tracking the true pathway of the 
        external monies and is viewed as being abysmally low for the 
        needs and responsibilities of the agency and compromises the 
        agency's ability to more fully meet its responsibilities. This 
        strategy also encourages earmarks.

        l.  The lack of a robust ``test bed'' enterprise in which new 
        advances in technology by the external community that could be 
        of benefit to NOAA could be tested out for efficacy and 
        application via more NOAA/University partnerships. These are 
        potentially low cost, high return investments.

        m.  NOAA operates the largest fleet of research and survey 
        vessels of any federal agency (18 ships by 2005; 14 aircraft; 
        as well as global ocean observing capability from research and 
        operational satellites). Albeit, NOAA funded grant researchers 
        have had to pay for the use of ships out of their grants which 
        has a significant impact on the viability of those grants and 
        presents a huge disincentive to do field work on behalf of 
        NOAA. For comparison purposes, the National Science Foundation 
        and the Office of Naval Research both provide greater support 
        to the academic community in ocean research than does NOAA. And 
        NSF's and ONR's ship use comes at no cost to the grant. This is 
        a ``sustained infrastructure'' issue.

        n.  There is a not invented here syndrome which is perceived to 
        exist within NOAA so appreciation and attribution for 
        University advances of science and technology of value to NOAA 
        are typically ignored. Alternatively, the University community 
        is perceived by NOAA to be unappreciative of the support it 
        does receive and does not always acknowledge the support that 
        is provided by NOAA. So, the partnership is perceived as being 
        weak on both sides and could improve with better communications 
        and cross-credit sharing.

        o.  Poorly conceived and structured earmarks which do not 
        comport with the core NOAA mission and end up wasting valuable 
        NOAA resources on parochial, process driven local science for 
        which (and rightfully so) competitive grants, peer reviewed 
        support is generally denied by agencies.

2.  Do you agree with the U.S. Commission on Ocean Policy 
recommendations with respect to NOAA? If not, why not?

    Generally ``yes'' on most of the 198 specific to NOAA, with several 
exceptions. Overall, I believe that the recommendations are very bold. 
My exceptions are based on my perceptions of some of the 
recommendations not going far enough.
    Overall, I agree with and believe that the 198 NOAA centric 
recommendations are on target and bold with several variances.

        a.  Rec. 8.9: The Chronicle of Higher Education has already 
        made a compelling case that colleges and universities consider 
        the fulfillment of general education science requirements by 
        introducing very relevant ``meteorology and oceanography'' 
        courses for Liberal Arts and other majors.

        b.  Rec. 12.4: Federal agency assessments of the outcomes of 
        past federal projects within coastal watersheds and ecosystems 
        will not produce an independent and thus credible evaluation. 
        The University could play an important role as an independent 
        referee here.

        c.  Rec. 26.2: A truly integrated ocean observing system must 
        include the collection of atmospheric state variables at all 
        ocean state variable observing sites as alluded to I an article 
        in a recent Bulletin of the American Meteorological Society 
        written by a NOAA scientist.


        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        d.  26.7 The limited connection that presently exists between 
        ecosystem system modeling and hydrologic systems in a truly 
        interactively coupled suite of models including atmosphere, 
        ocean, coastal ocean, estuary, river, physical, biological, 
        chemical system and even human socio-economic impacts modeling 
        must be highlighted and properly addressed. Herein, the 
        immediate future holds for numerical models that routinely 
        forecast all environmental state variables over multiple space 
        and time scales; down to minutes and a few tens of yards in 
        some cases.

3.  Are there limitations to NOAA's ability to carry out the new 
responsibilities the U.S. Commission on Ocean Policy recommends? If so, 
please explain those limitations.

    In the context of the recommendations the principal limitation is 
money.
    At a minimum, there should be a doubling of the federal ocean 
research budget from today's $630M to $1.3B over the next five years 
not only to bring it back to its seven percent parity level with the 
1980s but more importantly because of what it would do for the Nation. 
Congressional action would clearly be required in order to double ocean 
research spending. Additionally, the move to five-year science plans 
and three-year grant cycles would both be made significantly more 
feasible with Congressional cooperation. Doubling the national 
investment in oceanic research would have an immediate positive impact 
within NOAA and the academic community and thus improve forecasting and 
stewardship capabilities. An increase in research capacity in the form 
of scientific infrastructure and graduate student researchers could be 
achieved in very short order and build greatly enhanced capacity for 
NOAA.
    The most likely form of question by the public would be a question 
of why it is so important to be doubling oceanographic research at this 
moment and in the present fiscal environment. The answers should be 
framed in the context of the extreme societal demands that are being 
placed on coastal and ocean resources:

        <bullet>  More than half of the Nation's population lives in 
        the coastal zone, including the continental U.S. coastlines, 
        Alaska, Hawaii and the Great Lakes; in fact, in some coastal 
        regions population growth over the past century has been 
        exponential.

        <bullet>  While only 15 percent of the Nation's coastal areas 
        are presently developed, that figure is projected to rise to 25 
        percent within the next two decades; in fact, in some coastal 
        areas the value of housing (adjusted to the Nation's Consumer 
        Piece Index) has grown exponentially over the past half-
        century.

        <bullet>  Between 70-75 percent of all weather related losses 
        over the past two decades have occurred in the coastal zones.

        <bullet>  Projected sea level rise may greatly exacerbate 
        future weather related impacts in the coastal ocean regions.

        <bullet>  Projected shifts in climate will greatly impact the 
        economies of coastal communities.

        <bullet>  Coastal communities have expressed great need for 
        integrated oceans, coasts, and estuary centric products, 
        services and delivery mechanisms for weather and climate 
        related impacts. Prognostic capabilities must include 
        development of high-resolution models and observations and data 
        management and delivery systems that inform federal, State, and 
        local agencies.

    However:

        <bullet>  There is only sparse information presently available 
        in and over the ocean, coastal and estuary environs. Examples 
        include sparse marine buoy, coastal water level, CMAN, ocean, 
        coastal and estuary mooring system based data.

        <bullet>  NWS verifications (the NWS national forecast 
        verification Program) of forecast accuracy indicates that 
        weather forecasts over land are far more accurate than are 
        forecasts along the coasts and out over the ocean.

        <bullet>  There are many boating deaths and drowning of 
        swimmers that are directly attributable to the lack of accurate 
        coastal zone forecasts of sea state and currents. It is 
        noteworthy that ``rip currents'' are responsible for the second 
        largest number of fatalities ascribed to ``weather.''

        <bullet>  In 2003 the NWS determined that the addition of 
        several new buoys lead to a dramatic improvement of significant 
        wave height forecast capability lending credence to the 
        assumption that more data in coastal areas will improve 
        forecasts.

        <bullet>  Coastal ocean and estuary academic community 
        developed coupled models of storm induced surge and flooding 
        have proven to be very accurate and demonstrate that an 
        advanced systems modeling approach, both deterministic and 
        probabilistic, will significantly improve forecast accuracy.

    Our living and non-living marine resources are in a great state of 
peril, yet there are few sustained exploratory missions to adequately 
measure, monitor, and model the great oceans. By comparison to the 
existing investment in research to understand our planet's vast oceans, 
an order of magnitude more dollars are available for fundamental 
research leading to determination of whether there is water on other 
planetary bodies. Our ocean-going fleet of ships, aircraft, and in situ 
buoy systems are numbered in the hundreds and are always over 
committed. Funds to support ocean-going research experiments are 
extremely limited and are frequently the component of research funds 
that are reduced when any funding rescissions have to be absorbed.
    Whereas the previous 50 years were the half-century of rapid 
progress in numerical weather prediction and atmospheric sciences, the 
next 50 years could be the era of even more rapid development in the 
understanding of the ocean and its major influence on everyday life 
including weather over land. Using the advances developed in the world 
weather community, the capability for highly professional operational 
ocean services that would support coastal communities, ocean-related 
industries, and ocean weather prediction is now clearly possible. In 
this sense, an expansion of the professional oceanography economic 
sector could be anticipated along the lines of the meteorological 
service industry.
    Federal funding for technology should be on a par with the 
requested increase for ocean research to ensure the Nation has the 
requisite tools, including the Integrated Coastal and Ocean Observing 
and Prediction Systems, to conduct a rigorous program of ocean science.
    The Integrated Ocean Observing System and other key elements of the 
technological infrastructure that support ocean research should be 
fully funded. Moreover a robust atmospheric component should be added 
throughout the entire IOOS and should become an integral part of the 
IOOS. The Coastal Ocean Observing System should also be highlighted and 
embellished as a core component of the IOOS. It often gets overlooked.
    NOAA's satellites, ships, aircraft, buoy networks and laboratory 
facilities also provide a vital base for coastal and oceanic research 
activities. Funding to maintain this existing national asset and should 
also be considered and should be available for the conduct of NOAA 
projects.
    As a corollary to the above, there should be a federal research 
policy which urges Congress to demand the Administration develop cross 
agency coordinated five-year science plans to improve stability in the 
research base. Congress should with the Administration in developing 
this planning process as the current annual appropriations process does 
not lend itself to five-year forward funded programs.
    NOAA should partner with other federal ocean agencies to adopt a 
unified grants process within each agency, which also employs three-
year grants. Additionally, NOAA should work ambitiously to streamline 
its grants process.
    The transition of research into operations is a critical issue for 
NOAA that is actively being addressed by the NOAA Research Council, the 
NOAA Science Advisory Board, and the Blue Ribbon Research Review Panel. 
Hopefully this issue will be properly resolved.

4.  Would it be helpful for NOAA to have an organic act? Why? What 
would be most important to include in such legislation?

    NOAA needs to have an Organic Act so it can have clear and specific 
responsibilities assigned to it with an unambiguous partitioning of 
responsibilities. Otherwise NOAA's responsibilities are defined by a 
collection of non-connected laws and policies. These laws were often 
developed in response to specific issues rather than being in response 
to the generic, fundamental mission and role of NOAA in the context of 
its relationship to other federal agencies.

    If there is limited new money available from the Federal 
Government, what are the top three recommendations regarding NOAA you 
believe should be implemented without delay?

    I will do this by linking some of the overlapping recommendations.

        <bullet>  Support of the linked Recommendations 23.5, 23.6, 
        26.2, 26.9, 15.1, 15.2, 15.3, to fully implement an end to end 
        architecture for the complete optimal suite of measurement 
        sites of ocean, atmospheric and hydrologic physical, chemical, 
        biological state variables, for data recovery, for data 
        assessment, for data dissemination, for data archiving and for 
        data access; all in real time and on the fly.

        <bullet>  Support for the development of a truly cross-cutting 
        oceanic, coastal, atmospheric, hydrologic physical, biological, 
        chemical, human socio-economic impacts integrated, complete 
        Earth System Modeling and Operational Forecast capability 
        (Recommendations 27.2, 27.5, 28.2).

        <bullet>  The development of an ambitious Socio-Economic 
        capability, broadly defined, that supports and will help NOAA 
        better meet its mission to serve the citizenry of the Nation, 
        build capacity for the Nation and build a greatly expanded 
        stakeholder network of NOAA supporters (Recommendation 25.3).

    I thank you for this opportunity to meet with you, applaud you for 
your hosting of this important hearing, applaud the extraordinary 
efforts of the USCOP, and would be happy to provide any additional 
information and personal opinions to you and your staff.

                  Biography for Leonard J. Pietrafesa

Areas of Interest:

    Observations and Modeling of Non-Linear Couplings of Atmospheric, 
Oceanic, Estuary, Hydraulic Coupled Systems, Oceanic and Atmospheric 
Weather and Climate Phenomena and Impacts, Wind-Wave-Current Coupled 
Interactions, Precipitation and River Discharge, Relationships between 
Climate Conditions, Weather Events and Human Health, Science and Public 
Policy.

Education:

1965 BS, Fairfield University (Fairfield, CT) Physics & Mathematics

1967 MS, Boston College/University of Chicago (Boston, MA/Chicago, IL) 
        Geophysical Fluid Dynamics (Advisors: Fr./Dr. J. DeVane, Dr. 
        L.F. McGoldrick)

1973 Ph.D., University of Washington (Seattle, WA) Geophysical Fluid 
        Dynamics (Advisors: Dr. M. Rattray, Dr. J.D. Smith)

Industry Employment:

1965, 1966, 1968 Weston Geophysical Engineers, Boston, MA. (Projects: 
        U.S. Nuclear Test Ban Treaty Verification; New England Power 
        Blackout Source; Panama Canal Expansion Assessment; West 
        Australia Environmental Assessment; Preservation of Old Man on 
        the Mountain, NH)

Academic Experience:

10/1999--Director, Office of External Affairs, College of Physical and 
        Mathematical Sciences, NCSU

7/1989-10/1999--Head, Dept. of Marine, Earth and Atmospheric Sciences, 
        NCSU

5/1988-8/1989--Associate Dean for Research, College of Physical and 
        Mathematical Sciences, NCSU

7/1988-6/1989--3rd Director, University Honors Council, NCSU

7/1992-12/1996--Director, Southeast University Consortium for Severe 
        Storms (NCSU, FSU, GTU, UAL-H)

7/1981-    --Full Professor, Department of Marine, Earth and 
        Atmospheric Sciences, NCSU

7/1976-6/1981--Tenured Associate Professor, Departments of Geosciences 
        & Marine Science & Engineering. NCSU

7/1973-6/1976--Assistant Professor, Dept. of Geosciences, NCSU

Recent (Selected) National Committee Service and Special Recognition:

01/2004-07--American Meteorological Society, Chair, Education Advisory 
        Comm.

01/2004-05--American Meteorological Society, Co-Chair 2005 Conference 
        on Living in Coastal Region (with M. Davidson, reporting to 
        President S. Avery)

07/2003-04--Chair, National Center for Environmental Prediction Ocean 
        Modeling Review Panel

10/2002-05--Board of Trustees of University Corporation for Atmospheric 
        Research (Elected)

10/2002--Received 2002 UCAR ``Lifetime Achievement Award'' as a 
        Champion for Science (Picture on the front of a ``Wheaties'' 
        Box of whole grain Cereal

8/2000-    --University Member Representative to the University 
        Corporation for Atmospheric Research (UCAR)

6/2001-02--Chair, NOAA/National Geodetic Research Program Review Team

5/2002-    --Member, NOAA/Climate Monitoring & Diagnostics Laboratory 
        Review Team

10/2001--Received 2001 ``Cheerleader for Science Award'' from UCAR

6/1998-07--Chair, National Oceanographic and Atmospheric Administration 
        (NOAA) Science Advisory Board (FACA approved)

3/1997-    --Member, National Water Initiative Task Force of National 
        Association of State Universities and Land Grant Colleges 
        (NASULGC)

11/1999--Member, National Association of State Universities and Land 
        Grant Colleges (NASULGC) Executive Committee on Food, the 
        Environment and Natural Resources

11/1996-11/1997--Chair, NASULGC Board on Oceans and Atmosphere

01/2004-    --Chair, American Meteorological Society (AMS)/UCAR Board 
        on Higher Education

3/1998-3/2000--Chair, Consortium for Oceanographic Research and 
        Education (CORE) Board on Education

5/1996-    --Member, American Geophysical Union (AGU) Committee on 
        Natural Hazards

5/1999-    --Member, NASULGC/Department of Interior (USGS) Partnership 
        Committee

5/1998-1/2001--Member, IPCC Assessment of Coastal Effects of Climate 
        Change

5/1999-    --Member, NASULGC/NASA Partnership Committee

3/1996-11/1997--Chair (the 3rd), Council on Ocean Affairs (the 
        Precursor to CORE)

3/1997-10/2001--Presented oral and written testimony before Six 
        different United States Senate and House Subcommittees on 
        issues related to science, technology, natural resources, 
        severe storms, coastal flooding, societal impacts of severe 
        storms, ocean and atmospheric observing systems, education 
        reform.

9/2002--Presentation to the U.S. House Science Committee staffers on 
        the need for value of the USWRP Collaboration Fund at 
        invitation of UCAR.

Professional Organizations:

1)  American Meteorological Society--Elected Fellow

2)  Sigma Xi (past local chapter president)

3)  Phi Kappa Phi

4)  American Association for the Advancement of Science

5)  Society for Non-Linear Mathematics

6)  American Geophysical Union

7)  Oceanography Society (Charter--Lifetime member)

Five recent selected of 168 peer reviewed publications

1)  Bright, R., L. Xie, I.J. Pietrafesa, 2003. Evidence of the Gulf 
Stream's Influence on Tropical Cyclone Intensity. Geophysical Research 
Letters, Vol. 29, No. 48, 1-4.

2)  Pietrafesa, L.J., L. Xie, D. Dickey, S.M.C. Peng, S.W. Bao. 2003. 
Numerical Modeling of Coastal & Inland Flooding, Vol. 1, Sect. 1, 101-
111, Ecosystems and Sustainable Development. WIT Press.

3)  Xie, L., L.J. Pietrafesa, K. Wu, 2003. Numerical Study of wave-
current interaction through surface and bottom stresses: Part II, Wind 
driven circulation in the South Atlantic Bight under uniform winds. J. 
Geophys. Res., 108, 16841-16856.

4)  Pietrafesa, L.J., C. Flagg, L. Xie, G. Weatherly, 2002. Winds, 
currents, sea level and sea state in the Mid-Atlantic Bight during the 
winter/spring 1996 Ocean Margins Program. J. of Deep Sea Research, 49, 
4331-4354.

5)  Xie, L., L.J. Pietrafesa and K. Wu, 2002. Inter-annual and decadal 
variability of land-falling tropical cyclones in the United States 
Southeastern States. Advances in Atmospheric Sciences, Vol. 19, 677-
686.

Professional and Public (Invited Only) Presentations: Total of 177

Student Committees Supervised: Chair or Co of 22 Ph.D. (22 completed) & 
        22 MS (21 Completed)

Post Docs and Technicians Supervised: 32 Total.

Grants: Total of 81 Awards as Principal or Co-Principal Investigator 
        totaling $20,865,069.

    Chairman Boehlert. Thank you very much, Doctor.
    Dr. Freilich.

 STATEMENT OF DR. MICHAEL H. FREILICH, ASSOCIATE DEAN, COLLEGE 
  OF OCEANIC AND ATMOSPHERIC SCIENCES, OREGON STATE UNIVERSITY

    Dr. Freilich. Chairman Boehlert, Members, I appreciate the 
opportunity to comment on the Ocean's Committee--Commission 
report from the standpoint of research and observations. I am 
Michael Freilich.
    The report emphasizes scientific understanding as the 
foundation for wise ocean management and stewardship. It 
highlights the need to implement an Integrated Ocean Observing 
System that has global scope as well as regional focus, and it 
serves local and non-governmental as well as federal users. I 
emphatically agree.
    The report advocates a strengthened NOAA as the Nation's 
lead agency for ocean-related research, education, management, 
measurements, and predictions. I agree, with reservations. In 
an ideal world, a strong lead agency may be the correct answer, 
but such an agency must recognize the equal importance of its 
research and education, management, and prediction and 
assessment tasks. It must be able to interact effectively with 
many diverse user communities. It must be funded sufficiently 
so that it can satisfy its responsibilities and plan 
realistically for future improvements. Faced with funding 
shortfalls, yet under the unremitting pressure to produce 
regular operational forecasts, I fear that NOAA, or any agency 
in that position, might shortchange its research activities. 
Indeed, between 1997 and 2002, NOAA research support at the 
selected core institutions decreased 12 percent in inflation-
adjusted dollars, while NASA and NSF funding increased 
substantially. In this context, a near-term transfer of 
responsibilities for ocean observing research satellites from 
NASA to NOAA is premature. I am convinced that long-term 
research quality ocean observations, especially satellite 
observations, will eventually be acquired by operational 
observing systems since NASA's charter, indeed, does not 
include responsibility for acquiring long-term ocean 
observations.
    However, NASA's Earth science enterprise has not 
prematurely terminated any ocean observing research mission as 
implied by the report. NASA continues to operate missions, 
which have both research and operational utility far beyond the 
end of their baseline lifetimes. Turning NASA's Earth science 
enterprise into a satellite engineering and launch activity 
only while levying additional research satellite 
responsibilities on an already overburdened NOAA seems to me 
needlessly risky, at least until NOAA has demonstrated its 
ability to take over those tasks.
    So what do we do? Both the National Research Council's 
Committee on NASA-NOAA Transition from Research to Operations 
and the Ocean Commission advocate formal interagency 
coordination groups to help the research to operations 
transition. Moving the Executive's review of NOAA's budget to 
OMB's Natural Resources Program should help coordinate multi-
agency funding, especially for satellite missions, which 
support both scientific and operational activities. Stronger 
interagency coordination, not a superagency, is the answer, in 
my opinion.
    In the area of data systems and data management, it is 
costly but absolutely necessary to integrate appropriate data 
centers into an ocean information system that transforms 
measurements into useful policy guidance. I endorse the 
recommendations that an interagency coordination group, called 
Ocean.IT, be empowered to address ocean and coastal data and 
information issues and that a Presidential interagency task 
force be established to oversee the modernization, actually the 
creation, of the Nation's environmental data and information 
system.
    The challenge for Ocean.IT will be to guide the development 
of flexible and evolvable ocean information systems that can 
meet the changing needs of the research and decision support 
communities.
    I thank the Committee for your strong support of ocean 
sciences and multi-agency ocean research. I applaud you for 
taking the time to consider the Ocean's Commission report 
thoughtfully and carefully. The report's emphasis on science as 
the foundation for the Nation's ocean management and education 
policies is absolutely correct. We must increase federal 
investment in ocean-related research and education. We must 
implement an Integrated Ocean Observing System that builds on 
past technological and scientific successes that connects 
coastal measurements to open-ocean observations and that serves 
a wide range of users. We must have better interagency 
coordination. Any transition to a primarily single agency 
approach must be measured and robust. We must ensure that 
research, education, and management activities are not 
neglected in the face of operational requirements and 
constrained budgets.
    There are advantages to having multiple agencies with 
overlapping responsibilities and different approaches. One 
agency may falter, but it is likely that another will succeed. 
Concentrating ocean responsibilities in a single agency without 
strong assurances of success is an extremely fragile strategy.
    [The prepared statement of Dr. Freilich follows:]
               Prepared Statement of Michael H. Freilich

Chairman Boehlert, Ranking Member Gordon, Committee Members:

    I appreciate the opportunity to comment on the Oceans Committee 
Report. I am Michael Freilich, Associate Dean of the College of Oceanic 
and Atmospheric Sciences at Oregon State University and Chair of the 
National Research Council's Committee on Earth Studies.
    I strongly endorse the Report's emphasis on science as the 
foundation for wise ocean management and stewardship. We must 
understand interdisciplinary ocean processes and the interactions 
between the ocean, the atmosphere, the sea bed, and the land.
    Implementation of the Integrated Ocean Observing System (IOOS) is 
crucial. The IOOS must have global scope as well as regional focus--
global processes force the local ocean, just as distant storms 
influence local weather. The Report correctly advocates broadening the 
scope of data products and services to address the needs of non-federal 
and non-research users.
    Our national ocean policy is at best loosely coordinated. The 
Report advocates a strengthened NOAA as the government's lead agency 
for ocean-related research, education, measurement, management, and 
prediction.
    In an ideal world, a strong lead agency may be the correct answer. 
But such an agency must recognize the equal importance of its research 
and education, management, and prediction/assessment tasks. It must be 
able to interact effectively with many diverse user communities. It 
must be funded sufficiently so that it can satisfy its responsibilities 
and plan realistically for future improvements.
    Faced with funding shortfalls, yet under the unremitting pressure 
to produce regular operational forecasts, I fear that NOAA--or any 
agency in that position--will short-change its other (research, 
education, and management) activities. Indeed, between 1997 and 2002, 
NOAA research support at CORE institutions decreased 12 percent in 
inflation-adjusted dollars, while NASA and NSF funding increased 
substantially.
    A near-term transfer of responsibilities for ocean-observing 
satellite missions from NASA to NOAA is premature. While NASA's charter 
does not include responsibility for acquiring long-term ocean 
observations, NASA's Earth Science Enterprise has not prematurely 
terminated any ocean-observing research mission as implied by the 
Report. NASA continues to operate missions which have both research and 
operational utility far beyond the end of their baseline lifetimes. 
NASA maintains effective ties with the ocean research community.
    I am convinced that long-term research-quality ocean observations--
especially satellite observations--will eventually be acquired by 
operational observing systems. However, turning NASA's Earth Science 
Enterprise into a satellite engineering and launch activity only, while 
levying additional space mission research support responsibilities on 
an already overburdened NOAA seems needlessly risky until NOAA has 
demonstrated its ability to take over those tasks.
    Both the National Research Council's CONNTRO report and the Oceans 
Commission advocate formal interagency coordination groups to help the 
research-to-operations transition. Moving the Executive's review of 
NOAA's budget to OMB's Natural Resources Program should help coordinate 
multi-agency funding for satellite missions which support both 
scientific and operational activities.

Data Systems and Data Management

    Acquiring accurate ocean measurements is necessary, but not 
sufficient. The measurements must be made available to researchers, and 
the data must be transformed into useful guidance for managers, policy 
makers, and the public. Ocean information must be archived, refined, 
and distributed for decades and longer.
    The Report highlights the need for timely and consistent submission 
of ocean data sets to national data centers.
    Equally importantly, the centers must advertise their holdings to 
potential users, and be adaptable and flexible in response to changing 
user needs, technology, and understanding. It is these tasks which 
differentiate useful ``knowledge systems'' from ``data repositories.''
    It is costly but necessary to integrate our national data centers 
into a knowledge system. I endorse the recommendations that an 
interagency coordination group, Ocean.IT, be empowered to address ocean 
and coastal data/information issues and that a Presidential interagency 
task force be established to oversee the modernization--actually the 
creation--of the Nation's environmental data and information system. 
The challenge for Ocean.IT will be to guide the development of flexible 
and evolvable information systems that can meet the changing needs of 
the research and decision-support communities.

Concluding remarks

    I thank the Committee for your strong support of ocean sciences and 
multi-agency ocean research. I applaud you for taking the time to 
consider the Oceans Commission report thoughtfully and carefully. The 
Report's emphasis on science as the foundation for the Nation's ocean 
management and education policies is absolutely correct; we must 
increase federal investment in ocean-related research and education.
    We must implement an Integrated Ocean Observing System that builds 
on past technological and scientific successes, connects coastal 
measurements to open-ocean observations, and serves a wide range of 
users. Pilot projects will help develop the organizational structures 
needed to ensure that the Integrated Ocean Observing System truly is 
integrated and useful.
    While better interagency coordination is necessary, any transition 
to a primarily single-agency approach must be measured and robust. The 
transition must ensure that research, education, and management 
activities are not neglected in the face of operational requirements 
and constrained budgets. There are advantages to having multiple 
agencies with overlapping responsibilities. Different agencies will 
address challenges in different ways. One may falter, but it is likely 
that another will succeed. Concentrating ocean responsibilities in a 
single agency without strong assurances of success is an extremely 
fragile strategy.

                   Biography for Michael H. Freilich

Born: January 14, 1954

Citizenship: U.S.

Affiliation: Professor and Associate Dean, College of Oceanic & 
        Atmospheric Sciences, Oregon State University, Oceanography 
        Admin. Bldg. 104, Corvallis, OR 97331-5503

EDUCATION

1971-1975--B.S. Physics (Honors), B.S. Chemistry, Haverford College, 
        Haverford, PA

1975-1981--Ph.D. Oceanography, Scripps Institution of Oceanography, 
        University of California, San Diego

DISSERTATION

    Resonance effects on shoaling surface gravity waves: Ph.D. 
Dissertation, University of California, San Diego, 113 pp.

PROFESSIONAL ORGANIZATIONS

American Association for the Advancement of Science (past member)

American Geophysical Union

American Meteorological Society

The Oceanography Society (past member)

PROFESSIONAL EXPERIENCE

1977-1981--Sea Grant Trainee, Shore Processes Laboratory, Scripps 
        Institution of Oceanography

1982-1983--Assistant Professor, Marine Sciences Research Center, SUNY/
        Stony Brook

1983-1992--Member of Technical Staff, Oceanography Group, Jet 
        Propulsion Laboratory

1992-present--Associate Professor/Professor/Associate Dean, College of 
        Oceanic and Atmospheric Sciences, Oregon State University

1983-1992--Project Scientist, NASA Scatterometer Project

1985-1987--Associate Editor, JGR-Oceans

1987-1990--Member, U.S. WOCE Science Steering Committee

1988-1998--Member (Science PI), ESA ERS-1/2 Science Working Team (also 
        Coordinating Investigator for U.S. Scatterometer Activities)

1989-present--NASA Mission Principal Investigator, NASA EOS 
        Scatterometer (SeaWinds)

1992-1999--Member (Science PI), NASA Scatterometer Science Working Team

1992-1999--Member, NASA/JPL PO.DAAC User Working Group

1992-1995--Member, NAS/NRC Ocean Studies Board

1993-1995--Member, NAS/NRC Panel on NOAA's Coastal Ocean Program 
        (Chair, Coastal Hazards, Physical Oceanog. & Met. sub-group)

1994-1996--Chair, NASA EOS Panel on Data Quality

1994-2000--Member, NASA EOS Science Executive Committee

1996-present--Chair, NASA EOS Oceans Panel

1996-present--Member, NSCAT/QuikSCAT Calibration/Validation Panel

1997-1999--Member, NASA EOSDIS Review Group

1997-present--NASA Mission Principal Investigator, NASA QuikSCAT 
        Mission

1999-present--Member (PI), NASDA (Japanese Space Agency) ADEOS-2 
        Science Team and AMSR/AMSR-E Science Team

2000-present--Member, NASA Earth Science Data and Information Systems 
        and Services Advisory Subcommittee (official FACA NASA Advisory 
        body)

2000-present--Team Leader, NASA Ocean Vector Winds Science Team

2001-present--Chair, National Research Council Committee on Earth 
        Studies

2001-present--Member, National Research Council Space Studies Board

2002-2003--Member, National Research Council Committee on NASA-NOAA 
        Transition from Research to Operations


        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

           Top Priorities for Ocean Research and Development

    Chairman Boehlert. Thank you very much.
    Dr. Watkins, you must be gratified by the very favorable 
comments this distinguished panel has about this excellent 
report, and I applaud the report.
    Admiral Watkins. I did not talk to them ahead of time, I 
assure you.
    Chairman Boehlert. Well, and let me say this. Any field, 
any discipline, is able to present a panel of very 
distinguished Americans to make a solid case for more money, 
and you make it better than most. But the reality is that we 
are faced with budgetary challenges, not like any in previous 
years. And so we are not going to be able to do everything you 
want. So we have to do some prioritizing.
    So let me ask each of you, given the reality of the 
situation that, obviously, I think, we are going to be pushing 
for more, not nearly the more that you would like to satisfy 
your defined needs, but nevertheless a little bit more, what 
would be your top priorities? And let me go from the last to 
first. You know, the last shall be first. We know that one.
    Dr. Freilich.
    Dr. Freilich. There are several top priorities, of course.
    The very top priority is for better interagency 
coordination, so that the expertise that has been developed 
already in the Federal Government can be applied to 
interaction.
    Chairman Boehlert. But that is not excessively costly. I am 
talking about dollars. We have got to have better coordination 
across the board. I mean, the intelligence community, it is 
about time. It took 9/11 to get the FBI to talk to the CIA. You 
know, I serve on the Intelligence Committee. I thought for the 
longest time that they were competitors rather than being on 
the same team. So the interagency coordination, I agree with 
that. And you won't find any dissenters up here, but that 
doesn't cost a ton of new money. But things that cost new 
money, prioritize. If you will, give me a couple of top 
priorities.
    Dr. Freilich. If we were to integrate the Integrated Ocean 
Observing System, which is absolutely the top research, 
scientific, and therefore, the foundational requirement. In an 
era of constrained budgets, we have got to spend our money 
wisely. That is a costly, but absolutely necessary initiative 
that we must implement rapidly. But given that we can't simply 
throw money at the issue, it does get back to the coordination 
problem. We have expertise spread among many agencies, 
expertise in making measurements, and expertise in dealing with 
the scientific and user communities. And that is where the 
coordination comes in so that the money that is spent on the 
Integrated Ocean Observing System is efficiently spent and not 
frittered away, if you will, building capabilities that exist 
well in one agency in another agency, which takes time as well 
as money.
    Chairman Boehlert. Thank you.
    Dr. Pietrafesa.
    Dr. Pietrafesa. I think the top priority should be the 
implementation and the establishment of the Integrated Ocean 
Observing System.
    Chairman Boehlert. The score is two to nothing.
    Dr. Pietrafesa. Yes. The second is the implementation of an 
end-to-end Earth system modeling capability, which is not 
highly expensive. To put my first choice in context, North 
Carolina, as a single state, has been hit with approximately 20 
billion dollar--in excess of billion dollar events, weather-
related events, over a 22-year period. That is one state, and 
that is a great cost, not only to that state, but to the 
Federal Treasury. So by way of comparison, the investment 
called for in the Commission report pales, by comparison, to 
what that one state is having--has had to deal with over the 
last two decades.
    Thank you.
    Chairman Boehlert. Thank you.
    Dr. Pomponi.
    Dr. Pomponi. I have two top priorities. My first would be a 
robust, well disciplined, ocean exploration program. I believe 
that the outcomes from an ocean exploration program would 
provide the American public with many benefits, including 
national security, mapping of our coastlines, inventory of new 
resources, and outcomes related to our health, and fisheries as 
well. My second would be an Integrated Ocean Observing System.
    Chairman Boehlert. Okay. You are an expensive date.
    Dr. Solow.
    Dr. Solow. I guess I think that observations is the top 
priority, but I am a statistician, and I think that it is 
important that observation systems be designed efficiently, and 
in this case, specifically to address scientific questions. And 
at a time when there are budget constraints, I am not as 
enthusiastic as Dr. Pomponi is about exploration. I am more 
enthusiastic about science to answer scientific questions and 
questions of importance to society.
    Chairman Boehlert. Thank you.
    And Admiral.
    Admiral Watkins. On page 374 of our report, we include a 
table of estimates on cost recommendations. The Commission 
decided that they are not in the right position to set 
priorities, particularly when you talk about research. From my 
experience as the Secretary of Energy, the most difficult task 
I had was to convince the physicists that chemistry was also 
important, that biology was important, that geology was 
important. And those are difficult things to do. So we say in 
our report, if you are willing to set up the less costly 
organizational structure that we have called the framework, we 
are ready to receive the kind of direction we could get out of 
the Congress. If you only have a few hundred million to give us 
instead of a billion, then give us that and tell the White 
House to come back from the National Ocean Council with a 
priority on which they can work with you. They ought to set 
priorities in concert with the Congress, not ask the Commission 
to come up and give you the line items. We can't do that.
    So if you look at that table, it costs $1 million a year to 
$2 million, maybe, to set up the National Ocean Council 
framework that we recommended. So, to get it going is not 
beyond the scope of the text here in Congress. Then we itemize 
the more expensive ones, for example, ocean science exploration 
and support for the states, to whom we give a lot of tribute to 
here, because they are the ones that have to do a lot of the 
work. And then other recommendations to take us up to the costs 
I mentioned earlier. If you gave us a fraction of the latter, 
then I would say make it proportional to costs estimated in our 
table, but tell the White House to come back to Congress with 
their list of priorities. I took this approach at Energy, and 
it worked. It worked, and instead of $800 million a year into 
waste cleanup for 50 years of nuclear bomb building, we ramped 
up to a sustained $6 billion a year. And the reason for this is 
that the President said, ``I want to do it.'' And the 
Department of Defense hated it, because it came right out of 
their budget.
    But that is the kind of direction we are talking about for 
the Assistant to the President. So let us set up an 
organization that is ready to receive the new guidance and the 
horizontal integration by ecosystems across the government and 
up here on the Hill. If we do that, then we are ready to move 
no matter how many dollars you give us.
    Chairman Boehlert. I see a lot of nodding of the heads in 
the affirmative, so thank you very much for that. You can 
understand, Admiral, that all of us, with the exception of, 
well, we have got a few exceptions, like Dr. Ehlers, a 
distinguished physicist, but most of us are laypeople, and we 
are struggling all of the time with the various subject matter 
that comes before the Committee. And we are always looking for 
some guidance on establishing priority from the experts. And we 
would look for that, but you are saying that the new 
infrastructure, or the new structure, if we implement your 
recommendations, would be the ideal person to come before us. 
Because I can remember the frustration I experienced, 
particularly as a Junior Member, and we were going through 
something that you are familiar with, the future of the 
superconducting supercollider. I mean, I would get witnesses 
after witnesses, some of them with Nobel laureates in their 
satchel. And I would say, ``Please, guide us. Give us some 
priorities.'' And I found, my experience was that one 
discipline did not want to be about another discipline, because 
then they said, you know, they saw the position they were in, 
and they said, but for the grace of God, when my turn comes, I 
don't want them saying things negative, but so thank you for 
the recommendation. Thank all of you for that input.
    Mr. Cardoza. Or Mr. Honda, the distinguished colleague.

                  Ecosystem-Based Management Approach

    Mr. Honda. Good morning, Mr. Chairman. Thank you for 
putting this panel together, and I appreciate the report that I 
am reading and listening to. As a science teacher, your 
comments, Admiral, seem to make a lot of sense in terms of 
coming up with a global approach where you integrate all of the 
ecosystems together, unless you call the ecosystem the entire 
arena that is covered by water. And I think that those are 
important comments to make. And I guess what you are saying is 
that you gave us some of the information and you have the 
vision that we have to write it into statute and then pass it 
along so that we can get started. Is that a correct assumption?
    Admiral Watkins. Yes, it is, Congressman. And you know, a 
powerful theme in our entire report throughout is an approach 
to ecosystem-based management. We are not ready to do that 
today. We hear the buzzword around this town about science-
based decision-making and ecosystem-based management. But, we 
are not ready for either one of them, because we don't devote 
the investment. We don't have an integrated strategy. We don't 
work together enough to accomplish that. So everything we are 
talking about is ecosystem-based management. You have 24 bills 
that are ocean-related right now in the 108th Congress here in 
the House of Representatives. If you properly handle those 
bills in a new way to demonstrate the Congress interest into 
ecosystem-based management, staffs need to talk to each other. 
You may need a select committee on the oceans to bring the 
staffs together. You will try to ensure that those individual 
bills aren't continuing the piece-mealing that you have heard 
outlined here today. So there are a lot of people that need to 
get in the act here. It is not just the Executive Branch.
    And so what I am saying is that we are recommending a new 
way of doing business. If we believe in ecosystem-based 
management, and I can't find anybody against the concept, then 
let us get on with it. We recognize that this is very 
difficult. If you take the budget process alone on ecosystem-
based management, do you think OMB gives guidance to the 
National Ocean Partnership Program for integrated research 
packages? No way. They are not even an accepted entity by the 
Administration. They have about a $25 million budget at the end 
of seven years that the Program has been in effect. Their 
impact has been neutered, because nobody in a power position in 
the White House pays any attention. So the Congress has to say, 
``Pay attention. We want to see an integrated budget package. 
We want to see a strategy come up here, and we will be willing 
to support you, and we will organize our Congressional 
Committees to come together in some new way so that these bills 
don't continue to be piece-mealed, and, in many cases, 
counterproductive.''
    Mr. Honda. I note to the Chair, I agree with you, and I 
think that I agree, also, if I understand it correctly, the 
reasons why you keep NOAA and NASA separate for the time being, 
because you want information to be gathered in a way that is 
going to be applicable to the ecosystem-based management. It 
sounds like this addresses all of the kinds of battles that we 
have along both coasts and along the Gulf areas where we are 
trying to manage our fisheries and yet, based on even the local 
science, it is only part of the solution and problem set, 
because we are not integrating the rest of the ocean in terms 
of looking at how you manage certain kinds of species and 
sustain them. And it appears that you have given us a pretty 
clear direction in order to come up with a statute or a policy 
that we can give to the other body and to the Administration, 
so I appreciate all of your work. And you know, it sounds like 
it makes sense to me, and I would like to support those 
positions that you have shared with us.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Dr. Ehlers. I--excuse me. Excuse me. Mr. 
Gilchrest. We have got to go in order of appearance.

                    Public Awareness of Ocean Issues

    Mr. Gilchrest. I will ask some questions with great 
appreciation to Dr. Ehlers for letting me go before his time.
    We have been talking about this, the Chairman mentioned a 
couple of times, some of you mentioned a couple times the 
physics and physicists. I just want to bring up Jacob Burnowski 
was a physicist prior to World War II. He wrote that wonderful 
book, ``The Ascent of Man'', about 30 years ago. He saw the 
importance of biological diversity, so he went from physics to 
biology. We are still trying to talk Dr. Ehlers into doing 
that, and there is some hope, I think, serving on this 
committee and listening to the witnesses. It--I think your 
testimony has been invaluable. This study is not going to go on 
a shelf and gather dust. We are going to use all of the energy 
possible to move this idea, these concepts forward. And it can 
not just be, like the Admiral has mentioned, in the Executive 
Branch. There is--all of the leadership, all of the 
organizations, all of the brains do not reside in the Executive 
Branch. It has got to be co-equal with the Legislative Branch, 
and we are going to push and hopefully create, in the next 
Congress, a Committee to deal with the oceans. And we are 
working on that right now. It won't be a Select Committee. We 
want it to be a Standing Committee, and we want the Committee 
criteria and jurisdiction to be based, pure and simple, on the 
kind of testimony you gave here this morning and also the 
outline to the Commission's report, which is broad and 
encompasses all of the real vital things that the oceans 
involve.
    The other thing is, I really think, with the help of the 
Executive Branch, and, certainly, this Congress, we have to 
raise the level of NOAA to the same level of NASA. I would 
venture to say that we ought to get Jay Leno to ask people on 
the street what NASA is. And I would hope that you get about 90 
percent of the people that he would ask those questions to 
would know what NASA is. But you wouldn't have one percent of 
the population that knows what NOAA is. That push has to come 
from us so that NOAA has the same level, I am going to say the 
same level of funding, the same level of prestige, the same 
level of importance, and the same level of direction that NASA 
has. We are constantly discussing the understanding of creation 
of the universe in the sense of what the physics are. Well, we 
need, I think, to have some understanding of the physics of the 
ecosystem before us. And a number of you mentioned, and Admiral 
Watkins just mentioned again, we can't just bust right into 
ecosystem fisheries management or ecosystem management, because 
there is not enough known on it yet. But that is the clear 
direction that we need to move.
    Chairman Boehlert. Hold on just one second, if you will. We 
have got a series of votes now, so here is what I would like to 
do. If you could come to a----
    Mr. Gilchrest. I am going to wrap it right up.
    Chairman Boehlert. Okay. And then we will have Dr. Ehlers 
and Mr. Gutknecht, both, quick questions, and then we will go 
and we will dismiss the panel. It is not fair to keep you here 
another half-hour while we wait around over there for the next 
vote. You know the system as well as I do.
    Wrap up.
    Mr. Gilchrest. 30 seconds. Not only education for those 
people in the various agencies, but we all know what the 
``Three Rs'' are: reading, writing, arithmetic. In our public 
schools, it is essential that we add the biosphere to that, 
that you weave that curriculum, from K through 12, how life on 
Planet Earth needs to be sustained.
    And I yield back, Mr. Chairman. Thank you.
    Chairman Boehlert. Thank you very much.
    Dr. Ehlers.

                      Specific Follow-up Questions

    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, one of the Commission's recommendations is 
that Congress pass an Organic Act for NOAA. As you probably 
know, my staff and I have been working on this for well over a 
year, and we hope to introduce the bill fairly soon. I would be 
interested in what specific recommendations each of you have on 
the NOAA Organic Act, and I could give a number of specifics, 
but I would just be interested in your comments on that.
    Let me also say that I noticed the dearth of the ``G'' word 
during the testimony, and that is the Great Lakes. We have more 
coastline in the Great Lakes than we do on the Atlantic 
seaboard, and the interest and the comments from each of you as 
to whether or not the Great Lakes should receive a greater 
portion of the research and exploration money than it is 
getting at this time compared to the other coastline of our 
nation. And are there specific science and research needs for 
the Great Lakes that are different from those of the saltwater 
ecosystem? My understanding is that we will ask for written 
responses from you on each of these questions, so I zip through 
them fairly quickly, but I am very interested in how the Great 
Lakes fit into all of this. And I know almost everyone here 
represents the saltwater research, but let us consider the 
Great Lakes.
    The other comment, hearing the brief interchange between 
Dr. Pomponi and Dr. Solow about exploration versus research, I 
thought I was listening to a NASA panel once again. That is an 
issue that we, as the Congress, have to resolve, I think, in 
every individual case. But I appreciate both points of view. I 
think we need both. And we need substantially more funding to 
do both properly, and I think that is the real answer. So we, 
rather than fighting about which it should be, I think we all 
have to join together, as a community, to request more funding 
so we can do both.
    With that, Mr. Chairman, I will yield back.
    Chairman Boehlert. Thank you, Dr. Ehlers and Mr. Gutknecht, 
and we will submit these questions to you in writing, but we 
want to be considerate of your schedules and mindful of ours.
    Mr. Gutknecht.
    Mr. Gutknecht. Mr. Chairman, I will submit a statement, not 
so much a question. It relates to agriculture, and we realize 
that there are some bad operators, and we are, in fact, part of 
the problem. But we also want to be part of the solution. So I 
will submit this for the record.

    [The prepared statement of Mr. Gilknecht follows:]
           Prepared Statement of Representative Gil Gutknecht
    I want to offer a couple of words of caution and then talk about 
some good news relating to agriculture and the U.S. Commission on Ocean 
Policy Preliminary Report.
    First, a word of caution. I think that America's farmers are often 
an easy target when we talk about pollution. Many who don't come from 
rural America and don't understand how modern production agriculture 
works think of manure pouring into streams, and farmers applying five 
times the fertilizer and other inputs needed. This is not the case.
    America's farmers are the best stewards of our land and water. They 
not only care about the land because they live on it, but they also 
need to ensure it is productive for years to come. All of our producers 
voluntarily use Best Management Practices. It is also amazing to see 
how technology is being implemented to improve management practices. 
Farmers in Minnesota and around the country use global positioning 
systems and computers connected to their sprayers. Soils samples taken 
in every portion of their fields ensure that they spray just what is 
needed for that soil type. They use this to ensure that they spray the 
exact amount of inputs in every portion of their fields. Remember that 
fertilizer and other inputs cost money. Farmers know that fertilizer 
running off the field into streams wastes money and does not help their 
crops grow.
    I also want to point out that most of the recommendations in the 
report relating to agriculture have already been implemented, either 
fully or partially. You recommend more strict regulations for animal 
feeding operations. In late 2002, EPA issued updated strict CAFE 
regulations and states are quickly coming into compliance and our 
producers are doing the same. Let's not forget though that compliance 
can be a very expensive and certainly can be hardest on some of our 
smaller and mid-size producers.
    Most of your recommendations in regard to USDA conservation 
programs have already been implemented, many as part of the 2002 Farm 
Bill. The Farm Bill's unprecedented commitment to conservation 
contained more than $17 billion for conservation programs, and as you 
recommend, this funding is tied to compliance and cooperation with 
other programs. Approximately $1 billion annually is spent on the 
Environmental Quality Incentive Program, which cost shares 
environmental projects to, among other things, help producers comply 
with CAFE rules.
    In addition, you recommend a watershed approach. Minnesota and many 
other states have implemented Conservation Reserve Enhancement Programs 
to tackle runoff issues on a watershed basis. The Conservation Security 
Program is a new and unique program that, while still being 
implemented, provides financial incentives for conservation practices.
    I could go on and on.
    I'll close again, with a word of caution. We need to be careful to 
consider the economic cost to our producers and also give America's 
farmers credit for the care and steps they've already taken to protect 
our oceans and environment.

    Mr. Gutknecht. Thank you.
    Chairman Boehlert. Thank you.
    And once again, let me stress that we will submit some 
questions to you, those outlined by Dr. Ehlers, and you will 
get the benefit of the comments of our distinguished Vice 
Chairman, Mr. Gutknecht, who will have a few other questions. 
We would appreciate a timely response, and we are mindful of 
your schedules, too. We are not the only people in town that 
claim to be busy. But let me thank all of you for serving as 
resources. Admiral Watkins, thank you, particularly, for your 
leadership, but all of you in the field of science, you know, 
you are preaching to the choir here. I mean, we are arguing all 
of the time with OMB and other agencies on the importance of 
making the investment that we all appreciate is absolutely 
necessary for our long-range future and to guarantee that we 
remain preeminent in the international community. And shame on 
us if we don't heed the call and address the need.
    Thank you very much. With that, we are adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Admiral James D. Watkins, U.S. Navy (Retired); Chairman, 
        U.S. Commission on Ocean Policy

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Dr. Freilich testified that rather than having control of research 
satellites (once in orbit) transferred from the National Aeronautics 
and Space Administration (NASA) to the National Oceanic and Atmospheric 
Administration (NOAA), those agencies should instead establish an 
Interagency Transition Office to better coordinate planning and 
development of satellite programs between NASA and NOAA. Such an office 
was recommended by the National Research Council in its 2003 report 
``Satellite Observations of the Earth's Environment--Accelerating the 
Transition of Research to Operations.'' Please explain why the 
Commission did not recommend an Interagency Transition Office. What 
other options, if any, did the Commissioners discuss for improving the 
transition between NASA research programs and NOAA operational 
programs?

A1. The Commission specifically did not recommend an Interagency 
Transition Office because we did not see that as a particularly viable 
option. It would not, in our opinion, rectify the existing problem of 
lack of transition of research satellites into operational ones. As we 
note in our report, ``The integration of space-based Earth 
environmental observing operations into one agency will greatly ease 
the implementation of a functional national system. By transferring 
Earth, and particularly ocean, observing satellite missions to NOAA, 
more seamless concept-to-operations data collection will be possible.''
    We also note in the report that NOAA and NASA need to work together 
to achieve the smooth transfer of Earth-observing satellites and we 
state very specifically in Recommendation 26.8 that, ``NOAA and NASA 
should work together to identify research satellite missions which have 
operational applications and to ensure the smooth transition of each 
Earth environmental observing satellite after its launch.''
    During our deliberations we did not consider other options for 
accomplishing the transfer of Earth-observing satellite operations from 
NASA to NOAA. Our recommendation is based on the model which is 
currently being used for the transfer of the polar orbiting and 
geostationary weather satellite operations in which NASA has research, 
engineering, and development responsibility for the satellites and 
operational control of the satellites is turned over to NOAA after the 
integrity of the satellite is confirmed in orbit.

Q2.  What is the difference between coastal observing systems and ocean 
observing systems? If there is not enough money to completely fund both 
systems, how should Congress allocate funding between the two systems 
and their components?

A2. While there is a differing geographic focus and varying parameters 
to be measured, coastal and ocean observing systems are integral 
components of the single Integrated Ocean Observing System, which also 
includes a global component. All three components are critical to the 
success of the IOOS. Thus, it is not realistic to consider funding one 
component, rather it must be viewed as an ``integrated'' system whose 
growth should be balanced across the three elements--coastal, ocean, 
and global. Our plan for building the IOOS is a step-wise process in 
which the first stage is implementation of two national pilot projects 
and one or two international pilot projects to link existing systems 
and produce operational applications relevant to national policy and a 
broad spectrum of users. Even with limited funding available, these 
pilot projects could still be developed. The pilot projects will 
provide important visibility and demonstrate the potential economic and 
societal benefits of the full system, while advancing research and 
development of useful technologies and applications.

Q3.  Dr. Pietrafesa testified that NOAA does not have sufficient in-
house leadership and technical capability to implement the Integrated 
Ocean Observing System (IOOS). Do you agree with his assessment? If so, 
how can the situation be improved to carry out the Commission's 
recommendation that NOAA be the lead agency in implementing IOOS?

A3. The Commission clearly recognized the limitation of the current 
NOAA organization, and highlighted the need to address these issues as 
part of the process for strengthening NOAA. In Chapter 7, 
``Strengthening the Federal Agency Structure'' the Commission states:

         ``NOAA needs both to manage its current activities more 
        effectively and, if some or all of the recommendations 
        discussed in this report are implemented, to handle a number of 
        new responsibilities. For example, Chapter 26 discusses 
        significant improvements that will be needed at NOAA to enable 
        its effective implementation of the Integrated Ocean Observing 
        System (IOOS), including streamlined distribution of funds to 
        other involved agencies, closer partnerships with industry and 
        academia, and the ability to assume operational 
        responsibilities for satellite Earth observing programs. A 
        stronger, more effective, science-based and service-oriented 
        ocean agency--one that contributes to better management of 
        oceans and coasts through an ecosystem-based approach--is 
        needed.''

    Contrary to Dr. Pietrafesa's statement, we believe that NOAA has 
the necessary core capacity which can be enhanced to achieve the 
requisite management, communication and science capabilities. 
Throughout our report we call for an overall strengthening of NOAA and 
discuss in some detail specific areas in which the agency needs to 
improve to take on the increased responsibilities we recommend for it. 
Inherent in our concept of strengthening NOAA is the recognition that 
action must taken to make it more capable, effective and efficient. As 
part of this process the Commission also recognized the potential need 
for NOAA to reconsider its current organizational structure, stating in 
Chapter 7:

         ``NOAA's three primary functions can be categorized as 
        follows: 1) assessment, prediction, and operations for ocean, 
        coastal, and atmospheric environments; 2) marine resource and 
        area management; and 3) scientific research and education. One 
        of the critical objectives for a strengthened NOAA is improved 
        interaction within and among these categories. It is important 
        for the execution of NOAA's functions to complement and support 
        each other. For example, resource management decisions should 
        be based on the best available science, research efforts should 
        be planned to support the agency's management missions, and all 
        research--sea, land, and air--should be connected and 
        coordinated. Changes of this nature will likely require 
        adjustments to the internal operation of the agency, including 
        possible additional changes to the current line office 
        structure.''

    These changes will require Congress to pass an organic act for 
NOAA, as highlighted in recommendation 7-1, an action that I identified 
in my testimony as one of this Congresses' highest priorities. I would 
also emphasize the need for an interagency coordination mechanism, such 
as the National Ocean Council we propose, to ensure the coordination 
and cooperation of all federal agencies in integrated coastal, ocean 
and Earth observations. NOAA should have a lead role in this effort; 
however, by no means should it be the only agency, nor should it 
duplicate effort or capacity that is more appropriately housed in 
another federal agency.

Q4.  Dr. Freilich testified that ``While better interagency 
coordination is necessary, any transition to a primarily single-agency 
approach must be measured and robust. The transition must ensure that 
research, education, and management activities are not neglected in the 
face of operational requirements and constrained budgets. There are 
advantages to having multiple agencies with overlapping 
responsibilities. Different agencies will address challenges in 
different ways. One may falter, but it is likely that another will 
succeed. Concentrating ocean responsibilities in a single agency 
without strong assurances of success is an extremely fragile 
strategy.'' What is your response to Dr. Freilich? Did the 
Commissioners consider risks, such as the one mentioned above, that a 
single agency might face?

A4. Yes, in our recommendations to strengthen NOAA we did consider the 
potential risks that concentrating certain ocean responsibilities in a 
single agency might pose. And, quite frankly, we found those risks to 
be minimal; they paled in comparison to the limited capacity for 
coordination and communication of the current bureaucratic system. I 
appreciate Dr. Freilich's concerns in this regard, but I believe the 
National Ocean Policy Framework we outline in Chapter 4 of the report 
will go a long way towards alleviating any significant concerns 
regarding the strengthening of NOAA and concentration of additional 
responsibilities within the agency. As an example, even though NOAA 
would have budgetary and operational responsibility for the IOOS 
including satellites, it would be required to coordinate with other 
federal agencies and gain prior approval for proposed actions and 
expenditures from the National Ocean Council. Having an interagency NOC 
with that level of authority and chaired by an Assistant to the 
President would virtually eliminate any risks of NOAA or any other 
federal agency ``going it alone'' on ocean science, education and 
management policy actions. The key to strengthening NOAA and giving it 
additional responsibilities is to make sure it is also given the tools 
and the resources necessary to get the job done right.

Questions submitted by Representative Vernon J. Ehlers

Q1.  Are there specific science and research needs for the Great Lakes 
that are different from those of saltwater ecosystems?

A1. In a word, no. We explicitly included the Great Lakes in our 
deliberations and in the writing of our report and treated them as the 
United States' northern ocean and northern coastline from the very 
beginning. Our early adoption of a holistic ecosystem-based management 
strategy as one of our guiding principles unequivocally dictated that 
the Great Lakes had to be considered in the same manner as we did for 
the oceans. The exact same categories of problems facing the Nation's 
salt oceans--point and non-point source pollution, over-fishing, dead 
zones, coastal development, contaminated seafood, natural hazards, 
invasive species, dredging, commerce and transportation, education and 
stewardship, and coastal development to name but some of them--face the 
Great Lakes. Thus, the broad science and research needs are the same. 
The site specific issues obviously do differ, for example zebra mussels 
are not a saltwater problem, but the same type of site-specific 
differences occur among the different ocean and marine coastal 
ecosystems. However, we believe that the national and regional 
strategies and processes we discuss and recommend in our report will 
serve the needs of the Great Lakes just as well as they do the open and 
coastal ocean areas.
    The potential impact of increased water diversion for domestic, 
industrial and agricultural purposes at first glance would appear to be 
unique to the Great Lakes. But in reality it is not since aquifer 
drawdown and diversion of riverine waters are issues impacting marine 
coastal areas as land development and population growth continue to 
occur at high rates and as more and more marine coastal communities 
seriously consider turning to desalination of seawater to meet growing 
demand.
    One good way for the Great Lakes governmental bodies to ensure that 
their issues and concerns and those of their constituencies are not 
overlooked by the National Ocean Council is to work together to develop 
and implement a Great Lakes Regional Ocean Council as the Commission 
outlines in its proposed National Ocean Policy Framework.

Q2.  Given that the coastline of the Great Lakes is longer than the 
entire U.S. Atlantic coastline, is the Great Lakes basin receiving a 
fair portion of coastal research and management funds?

A2. This is a very difficult and subjective question to answer. It 
could just as easily be asked for the other coastal areas as well. To 
make a judgment simply based on miles of shoreline is not a valid or 
credible approach. To address the question knowledgeably and adequately 
and based on real need would almost require a task force or committee 
of its own. The Commission did not address the question of regional 
funding distribution. Rather, we recommended that one of the functions 
of the National Ocean Council would be to, ``guide the effective use of 
science in ocean policy and ensure the availability of data and 
information for decision-making at national and regional levels.'' We 
also recommend that the Assistant to the President ``. . .consult with 
the Office of Management and Budget (OMB) director and NOC members to 
identify programs that contribute significantly to the national policy 
for oceans and coasts, advise OMB and the agencies on appropriate 
funding levels for ocean- and coastal-related activities.'' In other 
words, the needs of the Great Lakes must be considered in the context 
of national ocean and coastal objectives, and an appropriate balance 
will need to be struck. Probably the best answer I can give is to 
iterate the value of creating a Great Lakes Regional Ocean Council to 
ensure that the coastal research and management and other needs of the 
Great Lakes are recognized and considered by the National Ocean 
Council.

Q3.  You support increasing funding for ocean exploration from $10 
million to $100 million annually. Given the difficult budgetary 
situation, why should we spend so much money on ocean exploration when 
our coastal regions face enormous problems with pollution and declining 
fish populations?

A3. As the Commission notes in its report, 95 percent of the ocean 
floor remain unexplored and unmapped and yet past experience has taught 
us that these vast areas are teeming with unknown numbers of new 
species and untold natural and cultural resources that we can only 
begin to imagine. Hydrothermal vents in the Pacific, chemosynthetic 
communities in the Gulf of Mexico, numerous new species of fish and 
invertebrates, and important archaeological sites are but a few of the 
important discoveries made in the past thirty years alone. There is 
much more out there that remains to be discovered and which will make 
significant contributions to humanity in areas such as archaeology, 
marine-derived medicines, understanding the ocean's role in climate, 
and new energy sources. We see exploration as a critical component of 
the national ocean science strategy we lay out in our report. 
Exploration and research compliment each other; discovery leads to new 
research and research findings lead to new discovery. Both are 
important to advancing our scientific understanding of the oceans.
    Ocean exploration also offers an unprecedented opportunity to 
engage the general public in marine science and conservation. 
Exploration missions to the depths of the ocean provide images of 
ancient human artifacts, amazing creatures, and never-before-seen 
ecosystems. These images stimulate the imagination of people of all 
ages and can be used in both formal and informal educational settings. 
It is the exploration activities of oceanographers like Dr. Bob 
Ballard, a member of our Commission, that kindles the desire to learn 
in young and old people alike and that helps to foster and galvanize a 
stewardship ethic in them.
    When considering the importance of the world's oceans in human 
history and in regulating climate change, guaranteeing food security, 
providing energy resources, and enabling worldwide commerce, I find it 
astounding that we still know so little about the oceans and devote so 
little resources to exploring them and making new discoveries for the 
benefit of humankind. One hundred million dollars is not a lot of money 
to commit to gaining a better understanding of the 95 percent of the 
oceans we know virtually nothing about. I find it astounding that we 
know more about the surface of Mars than we do about the bottom of our 
oceans or that maps of Mars' surface are of higher resolution than maps 
of our ocean sea floor. We need to focus greater attention on the 
planet we live on and on the oceans which cover more than 70 percent of 
it and in doing so we will reap scientific, economic and cultural 
rewards beyond those associated with the space exploration program.
                   Answers to Post-Hearing Questions
Responses by Dr. Andrew R. Solow, Director, Marine Policy Center, Woods 
        Hole Oceanographic Institution

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  In your testimony you expressed support for the Commission's 
recommendation to establish a National Ocean Council. Why do you think 
this is a better approach to coordination than the existing (or a 
strengthened) National Oceanic Partnership Program (NOPP)?

A1. The National Oceanic Partnership Program (NOPP) provides a good way 
to integrate science and technology across agencies. However, it is not 
set up to integrate ocean policy, as is the intent of the proposed 
National Ocean Council. I believe that both are needed.

Q2.  The Commission recommends transferring several responsibilities 
from other agencies to the National Oceanic and Atmospheric 
Administration (NOAA). Do you agree with these recommendations? If not, 
which programs should not be transferred? Are there programs not 
mentioned by the Commission that should be transferred to NOAA?

A2. I believe that it is first and foremost important to strengthen 
NOAA as it now exists before transferring new responsibilities to it. 
There is a need to modernize the way that NOAA is structured and 
operates so that it can perform its current mission effectively and 
efficiently. An important part of this modernization would be to 
strengthen procedures for external advice and review. It does not make 
sense to me to transfer new responsibilities to NOAA before its ability 
to meet its current responsibilities are strengthened.

Q3.  What is the difference between coastal observing systems and ocean 
observing systems? If there is not enough money to completely fund both 
systems, how should Congress allocate funding between the two systems 
and their components?

A3. Although the line between coastal and ocean observing systems is 
not always clear, the former tends to focus on processes that occur 
over the continental shelf and the latter tends to focus on processes 
beyond the shelf. In some ways, coastal processes are of more immediate 
importance to human society--for example, through connections to 
fisheries, pollution, erosion, etc. However, processes that occur 
beyond the shelf can have profound impacts on society through their 
connection to climate. In my opinion, how to allocate resources not 
only between coastal and ocean observing systems but also within each 
system has not been adequately addressed by the oceanographic 
community. If it were up to me, I would establish a process for doing 
this--for example, administered through the Consortium for Ocean 
Research and Education (CORE)--with a clear charge and a relatively 
short lifetime.

Questions submitted by Representative Vernon J. Ehlers

Q1.  One of the Commission's recommendations is that Congress pass an 
organic act for NOAA. The Committee is currently developing this bill. 
Are there specific structural components of NOAA that you believe 
should be written into law? If so, should an organic act reflect the 
current structure of NOAA or a different one? Are there specific 
missions for NOAA that should be in law?

A1. One important change that the organic act should include is an 
explicit statement that basic scientific research and education are 
part of NOAA's mission. On the structural side, I believe that it is 
critical that a functional external scientific advisory board be 
established to provide substantive advice and review on both planning 
and execution.

Q2.  Given that the coastline of the Great Lakes is longer than the 
entire U.S. Atlantic coastline, is the Great Lakes basin receiving a 
fair portion of coastal research and management funds?

A2. I am embarrassed to say that I do not know what proportion of funds 
are allocated to the Great Lakes. As a general proposition, I do not 
believe that funds should be allocated on the basis of coastline 
length. There are other, more sensible criteria connected to the 
scientific and societal problems that funds are used to address.
                   Answers to Post-Hearing Questions
Responses by Shirley A. Pomponi, Acting Managing Director, Harbor 
        Branch Oceanographic Institution

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  In your testimony you expressed support for the Commission's 
recommendation to establish a National Ocean Council. Why do you think 
this is a better approach to coordination than the existing (or 
strengthened) National Oceanic Partnership Program (NOPP)?

A1. Agencies tend to look out for their own, wholly-owned priorities 
first, leaving promising, cooperative programs such as NOPP to 
languish. NOPP's National Ocean Research Leadership Council (NORLC) was 
intended as a forum that would bring together the leaders of the 
participating agencies to discuss the great challenges and 
opportunities that faced the ocean science community.
    This has not happened because NORLC meetings are rarely attended by 
agency leaders, thus making NORLC a forum that can only present and 
discuss ideas and programs, but cannot make decisions. Moreover, 
agencies do not budget major project funds to NOPP, because to do so 
would be relinquish those funds to collective use rather than perhaps 
better defined, more urgent programs that indeed are congressionally-
mandated.
    The U.S. Commission of Ocean Policy recommends establishing a 
National Ocean Council (NOC) precisely to remedy many of NOPP's 
shortcomings. Chief among them is the lack of attention ocean issues 
get from the highest levels of the Executive branch. Establishing the 
NOC within the Executive Office of the President will immediately 
elevate the visibility and relevance of ocean issues within the 
Executive Branch. While Congressional support is necessary for the 
creation of policies and programs, the Executive branch has far-
reaching influence on the vitality and importance policies and programs 
subsequently enjoy. It was Vice President Hubert Humphrey's support and 
personal interest in ocean policy that elevated the importance of the 
Stratton Commission Report and gave it such lasting impact.
    Likewise, a 1997 National Research Council report recommended 
creating an office at the highest level of the Executive branch for the 
purpose of coordinating the Nation's ocean policies. Given that at 
least 15 federal departments and agencies have some jurisdiction over 
ocean issues, a high-level coordinating entity must exist that can 
provide leadership and break bureaucratic log jams between competing 
interests and between federal departments and agencies. If the NOC is 
created, the Departments of Agriculture, Defense, and Homeland 
Security, to name a few, as well as NOAA, EPA, Navy, Interior and other 
agencies, will have to coalesce around important ocean issues and 
policies because leadership will come from the very highest levels of 
the Executive Office.

Q2.  What is the difference between coastal and ocean observing 
systems? If there is not enough money to completely fund both systems, 
how should Congress allocate funding between these two systems and 
their components?

A2. The differences between coastal and ocean observing systems can 
best be defined by the purposes they serve. Coastal observing systems 
will be most helpful in describing and monitoring human impacts on 
natural systems and resources within the US EEZ. Therefore, coastal 
observing systems will tend to be most useful in gathering data:

        <bullet>  to develop models and management practices to 
        mitigate the harm caused by human impacts;

        <bullet>  for predictive models that can improve the efficiency 
        of navigation and maritime transport;

        <bullet>  for national security intelligence assessments and to 
        bolster homeland security;

        <bullet>  for basic research in coastal, estuarine and 
        continental slope systems; and

        <bullet>  to develop products and services of commercial and 
        societal value, much like the National Weather Service does 
        with its weather forecasts.

    For the most part, coastal observing systems will return benefits 
on a regional and national scale.
    Ocean observing systems on the other hand will serve economic, 
scientific and social purposes on a continental and global scale. 
Systems that can measure physical, chemical, biological, geological and 
atmospheric variables will in essence be taking the pulse of the oceans 
and will enable scientists to:

        <bullet>  understand and model climate change;

        <bullet>  accurately track fisheries trends and better manage 
        fish stocks;

        <bullet>  predict storm events;

        <bullet>  understand and model circulation patterns; and

        <bullet>  understand the interactions at the land-sea interface 
        and at the atmosphere-sea interface.

    Beyond these benefits, ocean observing systems will play an 
integrative role in helping scientists understand the entire Earth 
system. Taken to its logical conclusion, a global ocean observing 
system should become a component of an all-inclusive Earth observing 
system that will gather data on land, in the ocean and in the 
atmosphere.
    Defense, Homeland Security and Intelligence gathering would gain 
new surveillance and intelligence gathering capabilities, allowing 
coverage and tracking of most maritime activity taking place within the 
system's coverage area.
    It is difficult and somewhat arbitrary to argue for the development 
of either a coastal observing system first, followed by an ocean 
observing system later on, or vice versa, but considering that several 
incomplete and poorly inter-connected coastal observing systems already 
exist, this might be the place to start. Also, coastal observing 
systems might provide greater immediate societal benefits, giving these 
systems the appearance of being more immediately valuable.
    Given that numerous coastal observing systems already exist, it 
would possibly require a smaller investment to bring all of these 
systems up to shared acceptable standards and then to interconnect all 
existing systems. If any obvious location gaps exist between systems, 
it would be necessary to fund the construction of enough systems to 
create a seamless web of coastal sensors from Alaska to Maine.
    If this course of action is pursued it should be coupled with a 
comprehensive effort to improve and standardize data management among 
all existing coastal observing systems because the potentially biggest 
pitfall would be to have a system that lacks interconnectedness and the 
necessary data management protocols to make the collected data widely 
accessible.

Q3.  Dr. Pietrafiesa testified that NOAA does not have sufficient in-
house leadership and technical capability to implement the Integrated 
Ocean Observing System (IOOS). Do you agree with this assessment? If 
so, how can the situation be improved to carry out the Commission's 
recommendation that NOAA be the lead agency in implementing IOOS?

A3. As recommended in the Ocean Commission report, NOAA, as the 
Nation's lead agency for the collection, analysis and dissemination of 
atmospheric and oceanic data, should be the lead agency for the 
implementation of the IOOS. However, equally important to note is that 
NOAA cannot develop IOOS on its own. Given that the IOOS is a very 
diverse system of systems, its development and implementation must be 
coordinated using the best federal, academic and private resources 
available. Furthermore, overall direction and oversight must be 
provided from above, perhaps in the form envisioned by the Commission, 
the National Ocean Council.
    While it is important that NOAA lead the implementation of the 
IOOS, successful implementation may require significant restructuring 
of NOAA. If IOOS is to be successfully implemented NOAA will need to be 
reorganized according to its primary, or mission-dictated, functions.

Questions submitted by Representative Vernon J. Ehlers

Q1.  One of the Commission's recommendations is that Congress pass an 
organic act for NOAA. The Committee is currently developing this bill. 
Are there specific structural components of NOAA that you believe 
should be written into law? If so, should an organic act reflect the 
current structure of NOAA or a different one? Are there specific 
missions for NOAA that should be in law?

A1. The Commission is substantially right in recommending a 
reorganization and codification of NOAA's functions. NOAA needs to be 
restructured to carry out its three most important functions.

        a.  Observing systems (atmospheric and oceanic)

            Because the scientific frame of reference has shifted to 
        ecosystem-based approaches, and as we embrace the notion of 
        looking at interactions between large scale systems, it is no 
        longer useful to delineate research according to where it is 
        carried out, i.e., in the atmosphere or in the ocean. Add to 
        that the urgency with which we need to develop observing 
        systems and it becomes quite clear that NOAA's current 
        structure which separates atmospheric science from oceanography 
        is no longer productive.

              Rather, the future lies in seamlessly moving across the 
        atmosphere-ocean interface by building new tools, instruments 
        and facilities that will allow scientists to ask a fresh set of 
        questions about the interactions between these systems. NOAA's 
        greatest contribution over the next decade will be to implement 
        and coordinate the operation of the Nation's observing systems. 
        Consolidating observing technologies and operations in this 
        fashion will yield more scientific insight and will enhance the 
        efficiency of NOAA's operations.

        b.  Resource protection, management, restoration.

            There is little doubt anymore that the Nation's coasts, 
        including its wetlands, estuaries, Great Lakes, and coral reefs 
        are in considerable peril. For that reason, resource protection 
        and restoration must become a central theme for NOAA if it 
        wishes to remain relevant and be trusted to provide solutions 
        to the restoration, management and remediation issues that now 
        impact our coastal areas.

        c.  Research and Education.

            Research and education are very important functions if we 
        as a society wish to overcome the challenges that now overwhelm 
        us and escape our understanding. NOAA should make research and 
        education a foundational component of their mission. The reason 
        for this to both advance scientific knowledge and improve 
        humankind's and Earth's condition, but also to increase the 
        U.S. public's awareness of, and appreciation for, the state of 
        our oceans. A general public that understands the costs and 
        consequences of inadequate stewardship of our ocean resources 
        will demand corrective action and will also more readily 
        understand the need for conservation and remediation.
              Research and education are functions that can very well 
        be coordinated by NOAA, while allowing a large proportion of 
        the actual work to be done by the best qualified extramural 
        applicants for those research or reading programs. Open, 
        competitive and merit-based processes for awarding research and 
        education grants are very effective ways of making sure that 
        public money is spent on the best available research and 
        education products.

Q2.  You support increasing funding for ocean exploration from $10 
million to $100 million annually. Given the difficult budgetary 
situation, why should we spend so much money on ocean exploration when 
our coastal regions face enormous problems with pollution and declining 
fish populations?

A2. As a member of the panel that developed the National Research 
Council report titled Exploration of the Seas (2003, National Academy 
Press) and as a member of the committee that recommended the original 
framework of what was to become the Ocean Exploration program within 
NOAA, I have been involved in lively discussions regarding the risks 
and rewards of exploration. I have also had the opportunity to conduct 
missions of exploration using Harbor Branch Oceanographic Institution's 
Johnson-Sea-Link submersibles for the collection of novel specimens 
with pharmaceutical potential.
    Bringing my experience to this debate, I am firmly convinced that 
if exploration is to be undertaken it needs to be done in a manner that 
allows investigators to:

        <bullet>  access new and truly unexplored sites (which may 
        require more expensive transits to and from the exploration 
        sites);

        <bullet>  utilize, within reason, the most appropriate tools to 
        carry out the mission, rather than the cheapest compromise 
        solution;

        <bullet>  engage in truly interdisciplinary exploration, thus 
        creating conditions for new and creative ways of looking at 
        new, as well as established research questions; and

        <bullet>  develop new tools and technologies for exploration.

    Upon pondering resource allocations for research and exploration 
programs, it might be useful to establish the smallest possible funding 
amount that would return worthwhile results. Starting with the $10 
million figure for current exploration efforts, allow me to list what 
does not get funded:

        <bullet>  post-cruise science is not funded; not all 
        discoveries are made during the actual off-shore effort;

        <bullet>  data management is not funded; so no one else in the 
        community has access to data collected with public funds;

        <bullet>  only limited technology development is funded. 
        Completely new technology and sensors capable of measuring 
        unsampled properties at novel sites are beyond financial reach;

        <bullet>  ship, ROV, and HOV costs are leveraged in an ad hoc 
        manner with other investigators who are not necessarily doing 
        work that is relevant or complementary to one's own work, thus 
        emphasizing time at sea rather than productive collaborations;

        <bullet>  international cooperative efforts are not supported; 
        and

        <bullet>  scientific community does not see a small exploration 
        program as a promising or stable source of funding.

    Therefore, in a sense, one could argue that spending $10 million on 
an inadequate program is a waste of public funds.
    While coastal pollution is a very real and dire threat that 
requires immediate and aggressive attention, and while the budgetary 
picture gives plenty of reasons to say, ``the Nation can't afford a 
$100 million exploration program,'' we should nonetheless pause to 
recognize that the term ``exploration'' is loaded with excitement, 
adventure, and optimism. Pollution remediation, on the other hand, 
conjures up images of oil soaked birds, floating trash and other 
unpleasant reminders of man's carelessness and indifference. No matter 
how important and pressing it is to spend money on reversing the 
effects of coastal pollution, it is still a depressing message, unlike 
the positive, expectant, can-do spirit of the exploration message.
    $100 million is the cost of running an exploration program that can 
not only carry out its mission, but can also infect the general public 
with the excitement and anticipation of delving into the unknown. In 
the greater scheme of things, exploration symbolizes hope and optimism: 
and, as we often find out when we take our ships and submersibles to 
new, unexplored locations, we discover new life forms, some of which 
hold promising compounds that could someday be used to fight human 
diseases. Finally, it is important to consider ``exploration'' as the 
first step in the continuum of research--allowing us to formulate the 
questions we ask and the hypotheses we test.
                   Answers to Post-Hearing Questions
Responses by Leonard J. Pietrafesa, Director of External Affairs, 
        College of Physical and Mathematical Sciences, North Carolina 
        State University

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  You testified that the National Oceanic and Atmospheric 
Administration (NOAA) does not adequately use the external community as 
a resource to quickly develop and transition science and technology 
research into operations. Please provide specific examples of cases 
where NOAA neglected to take adequate advantage of expertise in the 
external community. What could Congress do to encourage NOAA to work 
more closely with the external community?

A1. 

        a.  The concept of ``helicity'' which basically means the 
        condition of the atmosphere favorable to support spinning 
        motions (like counterclockwise during a thunderstorm; thereby 
        creating a tornado). This concept was introduced in about 1972 
        by a university scientist and it took until the mid 1990's to 
        be accepted within the NWS as a useful operational forecast 
        concept.

        b.  Operational forecast wave modeling at NOAA is a generation 
        old and not in keeping with the state of university science.

        c.  Coupled ocean--atmospheric modeling has been done 
        successfully at universities and could be made operational at 
        NOAA but this has not been done.

        d.  Ocean buoy development is sorely lagging at NOAA. NOAA's 
        technology, which is well tested and highly durable, is also 
        out of date for much of the Nation's waters. Other 
        technologies, developed by industry and universities is also 
        highly durable, far less expensive than NOAA's technology, more 
        portable, more modern and more cost-effective.

        e.  River/Estuary/Ocean Coupled modeling is being done in the 
        university community but lags badly at NOAA.

        f.  Highly advanced Ecosystem modeling is being done in the 
        university community and private industry but lags badly at 
        NOAA.

        g.  Injesting of precipitation data into coastal and estuary 
        models is now being attempted by the university community but 
        NOAA is not engaged.

        h.  Socioeconomic data analyses and modeling, which has never 
        been a NOAA activity, but is needed by the agency, will best be 
        done by the university community. However, as the NOAA 
        socioeconomic enterprise within NOAA is beginning to take root 
        and emerge, there does not appear to be much university 
        engagement.

        i.  Tropical cyclone modeling within NOAA has traditionally 
        ignored the importance of the ocean. While NOAA resisted 
        including the ocean in its TC modeling, it finally was forced 
        to by the university community, but it still remains a NOAA 
        centric activity.

        j.  Storm surge and coastal and inland flood inundation 
        modeling at NOAA is several decades out of date. The university 
        is well ahead of NOAA but NOAA chooses to maintain the status 
        quo.

        k.  Socioeconomic data analyses and modeling at NOAA was 
        essentially non-existent but following strong recommendations 
        of the NOAA Science Advisory Board, NOAA created an internal 
        activity. However, NOAA does not have the core competency to 
        conduct this in-house without engaging the external community 
        and there is no evidence that this is being done.

        l.  Congress could empower and authorize the NOAA Science 
        Advisory Board to assess NOAA's science and technology to 
        ensure that NOAA is supporting the creation and utilization of 
        the best science and technology available to meet its mission. 
        The NOAA SAB could evaluate program progress, with metrics, 
        sponsor external reviews and make recommendations on how NOAA 
        should proceed; either internally, externally or some 
        combination of both.

Q2.  The Commission recommends transferring several responsibilities 
from other agencies to NOAA. Do you agree with these recommendations? 
If not, which programs should not be transferred? Are there programs 
not mentioned by the Commission that should be transferred to NOAA?

A2. 

        a.  NASA satellite sensors and satellites that have NOAA 
        applications, particularly with regard to operations, should be 
        transferred to NOAA; including the necessary resources and 
        assets required to maintain and advance the capability.

        b.  The NASA data archives that have value for NOAA's mission 
        as relates to weather, water, climate, fisheries, etc., should 
        be transferred to NOAA's National Climatic data Center with all 
        assets.

        c.  USGS's river and estuary modeling program assets should be 
        transferred to NOAA. USGS should focus on maintaining the 
        Nation's river gage monitoring network and leave the modeling 
        to NOAA.

Q3.  Please expand on your statement that NOAA does not have sufficient 
in-house leadership and technical capability to implement the 
Integrated Ocean Observing System. Please provide specific examples and 
any recommendations you may have to remedy the problem.

A3. 

        a.  NOAA does not have the necessary experience in designing, 
        deploying, maintaining and upgrading ocean monitoring systems. 
        The TAO-TOGA Array was a university-NOAA partnership. That is 
        how the IOOS system architecture/infrastructure should be 
        designed up front.

        b.  Regionally focused and global scale focused teams of 
        university and NOAA scientists, engineers and technical staff 
        should be brought together and then these teams should work 
        together to create the TAO Array analogues.

Q4.  What is the difference between coastal observing systems and ocean 
observing systems? If there is not enough money to completely fund both 
systems, how should Congress allocate funding between the two systems 
and their components?

A4. From the East Coast U.S. perspective the difference is establishing 
a more robust capability to monitor and make forecasts of weather and 
ecosystem variability in the marine, coastal environments of the Gulf 
of Mexico, the U.S. East Coast and the Great Lakes. Deeper ocean 
observing systems are necessary on the West Coast of the U.S. because 
weather systems over the Pacific Ocean generally move east across the 
Pacific Ocean towards the U.S. Pacific Coast. In the GOM, along the 
U.S. East Coast and in the Great Lakes, the most expedient and 
productive investments would be in the coastal observing array; 
especially since the waters are so shallow on the broad continental 
shelves. On the West Coast an optimal deep water array along with a 
near coastal array are both required.

Questions submitted by Representative Vernon J. Ehlers

Q1.  One of the Commission's recommendations is that Congress pass an 
organic act for NOAA. The Committee is currently developing this bill. 
Are there specific structural components of NOAA that you believe 
should be written into law? If so, should an organic act reflect the 
current structure of NOAA or a different one? Are there specific 
missions for NOAA that should be in law?

A1. 

        a.  NOAA should have more responsibility in the monitoring and 
        modeling the hydrologic, i.e., water systems of the Nation. The 
        mention of ``hydrologic systems'' is done because this is a 
        vastly overlooked responsibility that NOAA has that no one 
        seems to really pay attention to but it should be part of this 
        document which details NOAA's reason for existence. Water, 
        i.e., hydrologic systems include the water in the Oceans, the 
        Atmosphere and then what's on land. Now, one could argue that 
        land water is overseen by USGS but USGS really only is good at 
        the river monitoring network and underground water. NOAA is 
        responsible for satellite estimates of precipitation, the 
        National Doppler Radar Network, from which precipitation 
        estimates can be derived, and for river, estuary and coastal 
        (including the Great Lakes) flood forecasts. So, hydrologic 
        system responsibilities need to part of the NOAA Organic Act. 
        In fact, one of NOAA's four core areas is ``weather and 
        water.''

        b.  The most rapid advances from targeted research to the 
        creation of new operational forecast tools at NWS WFOs has 
        occurred where WFOs are co-located on university campuses. So, 
        identifying weather forecast challenges/issues that are really 
        regional to local in nature, and for which there is core 
        competency at the local WFO and university, could be addressed 
        in a formal way via the creation of ``test beds'' where the 
        problem(s) could be addressed, solutions found and then tested 
        out to ensure that the forecasts improve. Once proven, the new 
        tool becomes part of the routine operations of that particular 
        WFO specifically and probably part of the NWS in general. In 
        summary, NOAA needs to partner better with the university 
        community and work with the latter to improve its ability to 
        better meet its mission. The NOAA SAB should be more like the 
        National Science Foundation's National Science Board (the NSB). 
        The point is that the NSB is a fiduciary board and the NOAA SAB 
        should be more like the NSB. In fact, if NOAA ever became an 
        independent agency, then the NOAA SAB should be almost exactly 
        like the NSF NSB. The purpose of the Science Advisory Board 
        should be expanded beyond just advising the Administrator and 
        should be to also provide independent oversight of NOAA to 
        Congress on long-range and short-range strategies for research, 
        education, budget assessments, major project and program 
        evaluation, policy directions and the application of science to 
        resource management and environmental assessment and 
        prediction. Science Advisory Board members who have rotated off 
        of the Board could become ex-officio members of the board and 
        be invited to regular meetings of the Board. Staffing support 
        of the Science Advisory Board could be hired by and report to 
        the Board.

        c.  No real changes in agency mission; which is quite broad and 
        deep as it is.

Q2.  You support increasing funding for ocean exploration from $10 
million to $100 million annually. Given the difficult budgetary 
situation, why should we spend so much money on ocean exploration when 
our coastal regions face enormous problems with pollution and declining 
fish populations?

A2. Actually this is a good point. The coastal issues of the Gulf, East 
Coast, Great Lakes, Alaska, Hawaii, and West Coast are challenging and 
sufficiently demanding enough that if there were additional investments 
to be made this is where the money should go first. My comment was with 
regard to monies I believe are being wasted in coastal zone management 
for coastal zones that are being mismanaged, in my estimation. I would 
rather see this money be reprogrammed for Ocean Exploration where new 
pharmaceuticals and life forms, etc., will likely be discovered 
ultimately for the betterment of the human species and other life forms 
of our planet.
                   Answers to Post-Hearing Questions
Submitted to Mr. Michael H. Freilich, Associate Dean, College of 
        Oceanic and Atmospheric Sciences, Oregon State University

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The National Aeronautics and Space Administration (NASA) has 
proposed cutting some of its Earth Science projects to fund the 
President's exploration vision. Are there any of these projects that 
you think it would be particularly detrimental to cut? How important is 
it, for example, to restore funding for the Global Precipitation 
Mission?

Q2.  Is the National Oceanic and Atmospheric Administration (NOAA) 
adequately preparing for data management in its new satellites programs 
(the National Polar-orbiting Operational Environmental Satellite 
System, NPOESS, and the next generation of Geostationary Operational 
Environmental Satellites, GOES-R)?

</pre></body></html>
